<html>
<title> - BROWNFIELD REVITALIZATION AND ENVIRONMENTAL RESTORATION ACT OF 2000</title>
<body><pre>[Senate Hearing 106-957]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-957

  BROWNFIELD REVITALIZATION AND ENVIRONMENTAL RESTORATION ACT OF 2000

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON SUPERFUND,
                   WASTE CONTROL, AND RISK ASSESSMENT

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 29, 2000

                               __________

                                   ON

                                S. 2700

A BILL TO AMEND THE COMPREHENSIVE ENVIRONMENTAL RESPONSE, COMPENSATION, 
     AND LIABILITY ACT OF 1980 TO PROMOTE THE CLEANUP AND REUSE OF 
     BROWNFIELDS, TO PROVIDE FINANCIAL ASSISTANCE FOR BROWNFIELDS 
   REVITALIZATION, TO ENHANCE STATE RESPONSE PROGRAMS, AND FOR OTHER 
                                PURPOSES

  Printed for the use of the Committee on Environment and Public Works

                   U.S. GOVERNMENT PRINTING OFFICE
81-519                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
 Mail: Stop SSOP, Congressional Sales Office, Washington, DC 20402-0001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                             second session
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director

     Subcommittee on Superfund, Waste Control, and Risk Assessment

                 LINCOLN CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
                                 ------                                

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 29, 2000
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    16
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island     1
Inhofe, Hon. James. M., U.S. Senator from the State of Oklahoma..     3
    Report, Superfund Reforms, General Accounting Office.........  4-13
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    14
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....    46
    Letters and statements submitted for the record..............    47

                               WITNESSES

Bollwage, Hon. J. Christian, Mayor, Elizabeth, NJ................    24
    Prepared statement...........................................    77
    Resolution, U.S. Conference of Mayors........................    79
Daniels, Hon. Preston A., Mayor, Des Moines, IA..................    25
    Prepared statement...........................................    80
Fields, Timothy, Jr., Assistant Administrator, Office of Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency.........................................................    19
    Prepared statement...........................................    71
Fitzpatrick, Kevin P., President, AIG Global Real Estate 
  Investment Corporation, and Chairman, Environmental Policy 
  Advisory Committee, The Real Estate Roundtable.................    40
    Prepared statement...........................................    95
Front, Alan, Senior Vice President, The Trust for Public Land....    38
    Prepared statement...........................................    94
McElroy, William, Vice President, Zurich U.S. Specialties........    36
    Prepared statement...........................................    92
Miller-Travis, Vernice, Executive Director, Partnership for 
  Sustainable Brownfields Redevelopment..........................    33
    Prepared statement...........................................    90
Reitsma, Jan H., Director, Rhode Island Department of 
  Environmental Management.......................................    27
    Prepared statement...........................................    86

                          ADDITIONAL MATERIAL

Letters:
    American Institute of Chemical Engineers.....................    58
    American Society of Civil Engineers..........................    56
    Birkhofer, William J.........................................    50
    Brownfield News..............................................    68
    Building Owners and Managers Association International.......    48
    CH2M HILL....................................................    59
    Cianci, Hon. Vincent, Mayor, Providence, RI..................    68
    Environmental Technology Council.............................    66
    Institute of Scrap Recycling Industries......................    62
    International Council of Shopping Centers....................    61
    IT Group.....................................................    69
    Levin, Hon. Carl and Hon. James M. Jeffords, U.S. Senate.....    55
    National Association of Counties.............................    54
    National Association of Home Builders........................    52
    National Association of Realtors.............................    48
    National Conference of Black Mayors..........................    67
    National Conference of State Legislators.....................    54
    National Governors Association...............................    60
    National Ground Water........................................    49
    Real Estate Roundtable.......................................    47
    Trust for the Public Land....................................51, 58
    U.S. Conference of Mayors....................................    50
    Vas, Hon. Joseph, Mayor, Perth Amboy, NJ.....................    67
    Walsh, Hon. Tom, Mayor, Casper, WY...........................    66
    Wilderness Society...........................................    69
Statements:
    Gates, John, National Realty Committee.......................    97
    Gorton, Hon. Slade, U.S. Senator from the State of Washington    70
    Grassley, Hon. Charles E., U.S. Senator from the State of 
      Iowa.......................................................    18
    National Ground Water Association............................    49
    National Resources Defense Council...........................    62
    Scherer, J. Peter, National Realty Committee.................    99

 
  BROWNFIELD REVITALIZATION AND ENVIRONMENTAL RESTORATION ACT OF 2000

                              ----------                              


                        THURSDAY, JUNE 29, 2000


                                       U.S. Senate,
                 Committee on Environment and Public Works,
         Subcommittee on Superfund, Waste Control and Risk 
                                                Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
406, Senate Dirksen Building, Hon. Lincoln Chafee (chairman of 
the subcommittee) presiding.
    Present: Senators Chafee, Inhofe, and Lautenberg.
    Also present, Senators Baucus and Grassley.

           OPENING STATEMENT OF HON. LINCOLN CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. The hearing will come to order.
    Good afternoon. I'm Senator Chafee, chairman of the 
Subcommittee on Superfund, of the Environment and Public Works 
Committee. I'd like to make a brief opening statement.
    Today the subcommittee will receive testimony on S. 2700, 
the Brownfields Revitalization and Environmental Restoration 
Act of 2000. As you know, I introduced this legislation with 
Senators Lautenberg, Smith and Baucus on June 8. Members of the 
committee have heard thorough testimony so far.
    We've also received constituent letters and had meetings 
with those interested in brownfields redevelopment and know 
that it's an important issue that does need to be addressed. In 
response to this overwhelming call for brownfields legislation, 
Senators Smith, Lautenberg, Baucus and I did reach consensus on 
S. 2700. We hope this landmark bipartisan bill, which is pro-
environment and pro-economic development will attract broad 
support from Senators and interested groups.
    In fact, I'm pleased to announce that as of today, we have 
40 Senators who cosponsored S. 2700. If I could, I'd just like 
to read them to give you a sense of the depth of our support. 
Chafee, Smith from New Hampshire, Grassley, Gorton, Jeffords, 
Snow, Warner, Collins, DeWine, Graham, Mack, Helms, Hutchinson 
from Arkansas, Smith from Oregon, Brownback, Baucus, 
Lautenberg, Akaka, Leahy, Levin, Lieberman, Mikulski, Moynihan, 
Schumer, Reid, Breaux, Bryan, Kerry from Nebraska, Kennedy, 
Sarbanes, Gramm, Robb, Dodd, Harkin, Cleland, Edwards, Wyden, 
Feinstein, Daschle and Kennedy from Massachusetts. And we're 
getting more every day.
    And of course, having the chairman and the ranking members 
of both the Environment and Public Works Committee and the 
Superfund Subcommittee supporting this legislation underscores 
the strong desire of our members on both sides of the aisle in 
working in a bipartisan manner to achieve this success. This 
committee has a proven track record of forging sound 
legislation when members of both parties work together. And S. 
2700 is an example of that bipartisan tradition.
    I would like to say that, as you know, this bill does 
authorize $150 million per year to State and local governments 
to perform assessments and cleanup at the Nation's brownfield 
sites. It does allow EPA to issue grants to State and local 
government to clean up sites that will be converted into non-
revenue generating parks and open spaces. It clarifies that 
innocent landowners are not responsible for paying cleanup 
costs. It does encourage developers to purchase and develop 
brownfield sites by exempting from liability prospective 
purchasers that did not cause or worsen the contamination at 
the site.
    It also includes an exemption for contiguous property 
owners that will prevent landowners from paying cleanup costs 
simply because their neighbor contaminated the land. The bill 
provides $150 million annually to States to establish and 
enhance voluntary cleanup programs. And last, the bill 
precludes the Environmental Protection Agency from taking an 
action at a site being addressed under a State cleanup program 
unless the State requests the EPA's assistance, or EPA 
determines there is an imminent and substantial endangerment to 
public health or the environment and additional work needs to 
be done.
    So I look forward to the testimony. I believe it's a good 
bill. I think it's long overdue, frankly. And as a former 
mayor, there's nothing mayors like more than having revenue. 
When we see these sites sitting unused, it deprives us of that 
life sustaining revenue that we as mayors thrive on.
    [The prepared statement of Senator Chafee follows:]
Statement of Hon. Lincoln Chafee, U.S. Senator from the State of Rhode 
                                 Island
    Good afternoon. Today, the subcommittee will receive testimony on 
S. 2700, the Brownfields Revitalization and Environmental Restoration 
Act of 2000. As you know, I introduced this legislation with Senators 
Lautenberg, Smith, and Baucus on June 8th. Members of this committee 
have heard through testimony, constituent letters, and meetings with 
stakeholders that brownfields redevelopment is an important issue that 
needs to be addressed. In response to this overwhelming call for 
brownfields legislation, Senators Smith, Lautenberg, Baucus, and I 
reached a consensus position, S. 2700. We hope this landmark, 
bipartisan bill--which is pro-environment and pro-economic 
development--will attract broad support from Senators and stakeholder 
groups. In fact, I am pleased to announce that as of today 39 Senators 
have cosponsored S. 2700.
    Having the chairmen and ranking members of both the Environment and 
Public Works Committee and the Superfund subcommittee support this 
legislation underscores the strong desire by members on both sides of 
the aisle to enact this legislation. Indeed, I strongly believe that 
reaching across the aisle and working in a bipartisan manner is the 
best way to achieve success, particularly on environmental issues. This 
committee has a proven track record of forging sound legislation when 
members from both parties work together. S. 2700 is another example of 
that bipartisan tradition.
    As everyone is aware, this committee has tried for years to reform 
the Superfund statute. However, broad Superfund reform has eluded us 
because we have not been able to reach a bipartisan agreement. While 
brownfields provisions have been included in comprehensive reform bills 
in the past, I do not consider brownfields a Superfund issue. Superfund 
is intended to tackle the nation's worst toxic waste sites. Brownfields 
are lightly contaminated sites that will never become Superfund sites, 
if we provide incentives to clean them up in a timely manner. I have 
visited Superfund sites and brownfield sites in Rhode Island, and they 
are truly different. At my visits to brownfield sites, it is possible 
to actually see the benefits that communities would enjoy through 
brownfield revitalization. I firmly believe that we must help these 
communities by enacting legislation this year.
    There are members of this committee who have expressed strong 
concern about moving brownfields legislation separately from 
comprehensive reform. Let me be clear: this bill is not intended to 
serve as a substitute for comprehensive Superfund reform. This bill is 
intended to spur the cleanup and redevelopment of the nearly 450,000 
brownfields sites that exist in every town and every state. S. 2700 
does not address everything---but it does offer something for everyone.
    I would also like to address a point I hear frequently. People 
often tell me it is impossible to enact environmental legislation in a 
Presidential election year. I believe history tells a different story. 
Important environmental legislation has been enacted in virtually every 
Presidential election year since Congress became active in these 
issues. In 1972, Congress passed the Clean Water Act; in 1976, the 
Resources Conservation and Recovery Act; in 1980, Superfund; in 1984, 
RCRA reauthorization; and in 1996, Safe Drinking Water Act 
reauthorization. I hope that our work on brownfields reform follows 
this tradition in 2000.
    The U.S. Conference of Mayors has estimated that more than 450,000 
brownfields sites exist nationwide. We stand to reap enormous economic, 
environmental, and social benefits with the successful redevelopment of 
brownfield sites. The redevelopment of brownfields capitalizes on 
existing infrastructure, attracts new businesses and jobs, reduces the 
environmental and health risks to communities, preserves community 
character, and creates a robust tax base for local governments. Mayor 
Bollwage and Mayor Daniels will correct me if I'm wrong, but as a 
former mayor, I know that there is nothing that makes mayors happier 
than increased revenue and an extended taxbase.
    Our bill is an important piece of legislation that addresses the 
most common problems facing the redevelopment of abandoned contaminated 
sites. As this committee has heard from numerous witnesses in the past, 
the most difficult problems confronting successful redevelopment are 
the high costs associated with brownfields assessment and cleanup, the 
threat of Superfund liability, and fear that EPA may second-guess 
cleanup plans. To tackle these problems, S. 2700 authorizes $150 
million for brownfields assessments and remediation. It clarifies 
liability for contiguous property owners, innocent landowners, and 
prospective purchasers. Last, it provides finality to parties that 
clean up sites under state programs, with reopeners designed to protect 
human health and the environment.
    I look forward to working with every member of this committee, and 
all interested parties to move the ball over the goal line. I am 
confident that if we work closely, we can accommodate all concerns and 
forge legislation that will benefit the entire country. I would like to 
thank each of witnesses for being here today, and I look forward to 
hearing your testimony.
    I'd like to welcome the Senator from Oklahoma, Jim Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. And as a previous 
mayor, I do understand what you're talking about.
    I do have an keen interest in brownfields and in Superfund 
legislation. Over the years, the subcommittee has had numerous 
hearings and seen numerous legislative proposals introduced. 
While I commend my colleagues for bringing up this brownfields 
issue, I must ask, where are the other titles to this bill? I 
still think that liability, remedy reform, natural resources 
damages, the States' role in cleanups are major issues which 
need to be addressed.
    I strongly believe all of these issues very much need to be 
addressed, not just the brownfields. And so does the General 
Accounting Office. I believe it was Congressman Bliley's 
committee, that they asked the GAO to get involved in a report. 
And in this report they said, and I'm quoting now, ``Superfund, 
extent to which most reforms have improved the program is 
unknown.'' This report finds that 42 of the 62 administrative 
Superfund reforms implemented by the EPA ``did not have a 
fundamental effect and are unmeasurable.''
    Mr. Chairman, I'd like for this report to be made a part of 
the record of this committee.
    Senator Chafee. Without objection.
    [The report follows:]

                 [GAO Report to Congress, May 12, 2000]
 Superfund: Extent to Which Most Reforms Have Improved the Program Is 
                                Unknown
                    (Letter Report, GAO/RCED-00-118)

    For years, the Environmental Protection Agency's (EPA) Superfund 
program has been criticized for a number of problems. These have 
included the pace and cost of cleaning up hazardous waste sites, the 
agency's approach for holding waste contributors liable for cleaning up 
sites, and the overall effectiveness of the program. Responding to 
these criticisms, in June 1993, EPA began implementing a series of 62 
administrative reforms--actions that it could take under its existing 
legal authority to improve the program's fairness, efficiency, and 
effectiveness. According to EPA, these reforms have led to faster 
cleanups of more sites, thereby better protecting public health and the 
environment. In addition, EPA maintains that the reforms have promoted 
the selection of more cost-effective cleanup methods and fairer 
enforcement of the law. The agency has publicly stated that, because of 
the administrative reforms, comprehensive legislative reform of the 
Superfund program is no longer necessary, although the agency is 
willing to support certain targeted legislative changes.
    As the Congress considers reauthorizing the Superfund law, it has 
been debating the extent to which legislative changes to the program 
would be desirable. A key factor in making this determination is the 
extent to which EPA's administrative reforms have addressed previously 
identified weaknesses in the program. In this context, you requested 
that we review EPA's reforms to:

    <bullet>  determine their demonstrated results and evaluate the 
performance measures the agency uses to gauge these results and
    <bullet>  identify legislative changes to the program that either 
the agency or key stakeholders--including, among others, officials 
representing parties responsible for cleanups, environmental groups, 
and states--believe are still necessary.
    We obtained basic information from EPA for all 62 reforms, 
including their characteristics, scope, implementation status, overall 
goals, and performance measures, where available. We also conducted a 
more detailed analysis of a subset of 14 reforms that the agency 
characterized as having significantly and measurably improved the 
program. Appendix I provides a summary of our analysis of each of the 
14 reforms. Appendix II provides a summary of the information we 
collected on the remaining 48 reforms. To determine the results of the 
reforms and any legislative changes needed, we met with a judgmental 
sample of officials representing key stakeholders affected by the 
Superfund program, including various industry groups, state cleanup 
agencies, and environmental groups. Officials representing industry and 
state cleanup agencies provided the majority of the comments about the 
reforms. (App. III provides a listing of the stakeholders we contacted 
and a more detailed discussion of our scope and methodology.)
Results in Brief
    EPA claims and stakeholders agree that, in general, the Superfund 
program has improved and the administrative reforms have collectively 
contributed to this improvement. However, we determined that, for a 
majority of the 62 reforms, it is difficult for the agency to 
demonstrate the extent to which they are working and have met the goals 
set for them--to make the program faster, fairer, and more efficient. 
While maintaining that all the reforms are important, EPA reform 
managers acknowledged that:

    <bullet>  42 reforms did not have a fundamental effect, and EPA 
could not easily collect the data to measure the results achieved for 
most of them;
    <bullet>  20 reforms had a fundamental effect; for these reforms,
    <bullet>  the agency's performance measures demonstrated that 7 had 
achieved benefits, such as dollar savings--EPA has saved $70 million to 
date by identifying less costly cleanup alternatives--and greater 
community involvement in cleanups;
    <bullet>  the agency's measures counted the number of times that 7 
were implemented but did not demonstrate the results achieved; and
    <bullet>  the agency did not have measures to demonstrate the 
results that 6 had achieved.

    Furthermore, EPA's data for the 14 fundamental and measurable 
reforms show two trends suggesting that the progress made to date may 
be eroding. First, the implementation rates for almost half of these 
reforms peaked in fiscal year 1997 and declined in subsequent years. 
Second, the implementation rates for some reforms varied widely among 
the regions, possibly indicating inconsistent application. Moreover, 
stakeholders identified regional inconsistency as a problem with some 
reforms, and EPA acknowledged that ensuring such consistency is a 
challenge. Therefore, better measurement and oversight of the key 
reforms, as well as better understanding of the reasons for regional 
variation in the implementation of some, could help EPA obtain the 
maximum benefits possible from its reform initiative. We are making 
recommendations that the agency take such actions.
    EPA and stakeholders agree that targeted legislative changes would 
do more than the agency's administrative reforms to protect certain 
parties from the current Superfund law's liability provisions; however, 
they disagree on the extent of change. According to EPA, it is not 
seeking any legislation to codify its reforms, but it would support 
legislative proposals to limit liability for some parties that 
stakeholders have identified. These parties include prospective 
purchasers of contaminated property and current owners who are not 
responsible for or aware of contamination on their property. EPA does 
not see a need for other legislative changes, such as limiting 
liability for small businesses, because it believes its reforms have 
created the tools needed to provide relief for these parties.
Background
    In 1980, the Congress passed the Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA), commonly known as 
Superfund, to clean up highly contaminated hazardous waste sites. EPA 
places sites that it determines may need long-term cleanup actions, 
called remedial actions, on its National Priorities List (NPL). For 
sites needing cleanup, EPA or private parties conduct studies to assess 
the risks and select, design, and construct cleanup remedies. CERCLA 
authorizes EPA to compel the parties responsible for the contaminated 
sites to clean them up. Under CERCLA, any responsible party at a site 
can, under some circumstances, be held responsible for the entire cost 
of the cleanup.\1\ Responsible parties can, in turn, sue other parties 
to recoup some of their own expenses. Through this process, parties can 
incur high legal costs. The law also allows EPA to pay for cleanups and 
seek reimbursement from the parties, and it established a trust fund, 
financed primarily by taxes on crude oil and chemicals, to help EPA pay 
for its cleanups and related activities. The Superfund program's 
authorization and the authority for the taxes financing the trust fund 
expired in 1995 and have not been renewed. The Congress continues to 
fund the program through annual appropriations from the Superfund trust 
fund and general revenues.
---------------------------------------------------------------------------
    \1\Responsible parties include present (and some former) site 
owners, operators, transporters, and persons who arrange for the 
treatment or disposal of hazardous substances.
---------------------------------------------------------------------------
    Meanwhile, to address concerns about the high costs and long 
duration of cleanups, EPA, beginning in 1993, publicly announced three 
separate rounds of administrative reforms--actions it could take within 
its existing legislative authority. These include:

    <bullet>  17 reforms announced in June 1993,
    <bullet>  19 reforms announced in February 1995, and
    <bullet>  26 reforms announced in October 1995.

    These 62 reforms were intended to cover a range of activities, such 
as (1) providing liability relief to certain parties, including 
contributors of small volumes of waste or innocent landowners and 
purchasers, (2) selecting more technologically advanced and cost-
effective cleanup remedies, (3) providing funds to assess brownfield 
sites to promote their economic redevelopment,\2\ (4) providing 
technical assistance so that communities and tribes located near sites 
can better participate in cleanup decisions, and (5) providing for an 
expanded role for states and tribes in the performance of the program.
---------------------------------------------------------------------------
    \2\ EPA defines brownfields as abandoned or underused facilities, 
usually in industrial or commercial areas, where redevelopment is 
hampered by real or perceived environmental contamination.
---------------------------------------------------------------------------
    In 1997, we reviewed the 45 reforms from the second and third 
rounds and reported that EPA regarded 25 of them, or 56 percent, as 
fundamental changes to the Superfund program but could quantify 
accomplishments for only 6 of them, or 13 percent.\3\ EPA stated that, 
overall, it did not need additional legislative authority to achieve 
the reforms' goals but that targeted new authority would enhance their 
implementation.
---------------------------------------------------------------------------
    \3\ Superfund: Information on EPA's Administrative Reforms (GAO/
RCED-97-174R, May 30, 1997).
---------------------------------------------------------------------------
    The Government Performance and Results Act of 1993 (the Results 
Act) requires that agencies, among other actions, (1) establish 
strategic plans containing general goals for the agencies and (2) 
prepare annual performance plans that establish goals and measures to 
assess the results of individual programs. Therefore, in response to 
requirements of the Act, EPA established three general goals for the 
reforms--faster, fairer, and cost-effective cleanups--and performance 
measures for a number of the reforms, all of which support the agency's 
strategic and annual goals for the Superfund program overall. The 
performance measures for the reforms are intended to demonstrate 
progress toward achievement of their goals, which include, among 
others, increasing the number of sites where the construction of the 
cleanup remedy has been completed and maximizing the participation in 
cleanups of the parties responsible for contamination at sites.

EPA Does Not Have Performance Measures to Link Most Reforms to 
        Improvements in the Program
    EPA claims that as a result of the administrative reforms, the 
program is fairer and cleanups are 20 percent faster and cheaper.\4\ 
The stakeholders we contacted also commented that overall, after 20 
years, they have a better working relationship with EPA, the agency is 
fairer in dealing with responsible parties, and it is easier to use 
remedies that are, in their opinion, more reasonable and cost-
effective. But stakeholders also had questions about the extent to 
which some of the administrative reforms had really improved the 
program. We reviewed EPA' s performance measures for each reform and 
found that the agency has more measures in place since our last review, 
and for a small number of reforms, the measures demonstrate results 
such as cost savings. However, EPA cannot directly link the majority of 
its reforms to improvements in the program.
---------------------------------------------------------------------------
    \4\ GAO and EPA have, in the past, disagreed on whether the 
methodology that EPA uses as a basis for saying that the program is 
cleaning up sites faster is appropriate (see Superfund: Times to Assess 
and Clean Up Hazardous Waste Sites Exceed Program Goals (GAO/T-RCED-97-
69, Feb. 13, 1997), Superfund: Times to Complete the Assessment and 
Cleanup of Hazardous Waste Sites (GAO/RCED-97-20, Mar. 31, 1997), and 
Superfund: Duration of the Cleanup Process at Hazardous Waste Sites on 
the National Priorities List (GAO/RCED-97-238R, Sept. 24, 1997)). We 
have not assessed the agency's estimate of cost savings.
---------------------------------------------------------------------------
    According to EPA reform managers, all 62 reforms are important and 
have helped to improve the program, but 42 of them involve activities 
that (1) did not have a fundamental impact on the program and (2) could 
not easily be measured for any results achieved. EPA reform managers 
identified the remaining 20 reforms as activities that have had a 
fundamental effect on the program. EPA has established performance 
measures for 14 of them--an increase since our prior review, when EPA 
had measures for 6 of its key reforms. As table 1 illustrates, EPA's 
measures for all 14 reforms track the number of times they were 
implemented, but measures for only 7 reforms demonstrate how they have 
improved the program.

             Table 1: Fourteen Fundamental/Measurable Reforms and Their Output and Outcome Measures
----------------------------------------------------------------------------------------------------------------
                                   Year of   Measures that count frequency of  Measures that demonstrate results
  Fundamental/measurable reform    reform        implementation (output)                   (outcome)
----------------------------------------------------------------------------------------------------------------
Encourage greater use of           1993\1\  EPA has used this tool at 9-24     .................................
 alternative tools for resolving             sites each year..
 liability disputes.                          The number of settlements that
                                             EPA reached peaked in fiscal
                                             year 1997 an declined slightly
                                             the following year. Data for
                                             fiscal year 1999 were not
                                             available..
Promote ``enforcement first''--    1993\1\  EPA maintains that responsible
 getting private parties to fund             parties have funded about 70-84
 most of the cleanups.                       percent of cleanups since fiscal
                                             year 1992, the year before EPA
                                             announced the reform..
Promote more settlements to        1993\1\  EPA has achieved more settlements  .................................
 provide liability protection                after the reform (33-105 each
 for de minimus contributors                 year) than before the reform.
 (parties that contribute small               The number of settlements EPA
 amounts of waste).                          achieved peaked in fiscal year
                                             1997, significantly declined in
                                             fiscal year 1998, and only
                                             slightly increased in fiscal
                                             year 1999.
Negotiate agreements to provide    1995\1\  EPA has signed 16-28 agreements    EPA facilitated the purchase of
 liability protection for                    each year since the reform..       1,500 acres of contaminated
 prospective purchasers of                    The number of agreements EPA      property and the redevelopment
 contaminated property.                      achieved peaked in fiscal year     of hundreds of thousands of
                                             1997 and has been declining over   adjacent acres.
                                             the past 2 years..
Provide compensation for cleanup      1995  EPA has made from 20-30            .................................
 costs attributable to insolvent             compensation offers each year,
 and defunct parties (orphan                 for a total of $175.3 million..
 shares).                                     EPA has reached agreement on a
                                             total of 47 of these offers, for
                                             $88 million..
Encourage the use of special       1995\1\  EPA hs set up 18-33 accounts each  .................................
 accounts for site-specific                  year since the reform, making
 cleanup costs.                              over $570 million available for
                                             site-specific cleanups..
                                              EPA will measure the number and
                                             amounts of disbursements from
                                             these accounts beginning in
                                             fiscal year 2000..
                                              The number of accounts EPA
                                             established peaked in fiscal
                                             year 1997 and has been declining
                                             over the past 2 years..
Revise guidance on liability          1995  EPA has made a total of 16         .................................
 protection settlements for de               settlements\2\.
 micromis parties (parties that
 contribute miniscule amounts of
 waste).
Update cleanup remedy decisions    1995\1\  EPA began updating remedies as     EPA estimates the net future cost
 to take advantage of new                    early as 1983 and has updated 61-  savings from the updates
 science and technology.                     85 remedies each year since        conducted during fiscal years
                                             fiscal year 1995, the year         1996-99 could total $1.3
                                             before it announced this reform..  billion.\3\
                                              The number of remedies EPA
                                             updated peaked in fiscal year
                                             1997, declined in fiscal year
                                             1998, and remained at about that
                                             level in fiscal year 1999..
Increase the number of sites       1993\1\  EPA has completed the              .................................
 where the construction of all               construction of all remedies at
 cleanup remedies has been                   61-88 sites each year since
 completed.                                  fiscal year 1992, the year
                                             before it announced this reform.
Establish the National Remedy         1995  EPA has reviewed 9-11 cleanup      EPA estimates that its reviews
 Review Board to review high-                proposals each year.               have saved a total of $70.7
 cost proposed remedies.                                                        million to date.
Use the Superfund Accelerated      1993\1\  EPA has accomplished 12-27 non-    EPA estimates that it saves, on
 Cleanup Model (which allows the             time-critical removals each year   average, about $2,500 and 11
 use of shorter-term cleanup                 since fiscal year 1992, the year   months by combining assessments
 actions, called removals, and               before it announced this reform..  at a site.
 combined site assessment                     EPA accomplished a total of 442
 activities).                                integrated assessments and 405
                                             combined assessments through
                                             fiscal year 1999..
Fund brownfield assessment pilot   1995\1\  EPA funded a total of 305          EPA estimates that over 1,900
 projects.                                   assessment grants through          properties have been assessed,
                                             October 1999.                      120 have been cleaned up, and
                                                                                169 have been redeveloped and
                                                                                tat over 5,800 jobs and about
                                                                                $1.9 billion of private dollars
                                                                                have been leveraged at sites
                                                                                assessed with EPA funds.
Establish community advisory       1995\1\  EPA has helped to form 3-16        EPA surveyed members of
 groups.                                     community advisory groups each     communities near 7 Superfund
                                             year..                             sites and determined that 47
                                              The number of groups EPA          percent believe that EPA is
                                             established peaked in fiscal       effectively involving them in
                                             year 1997 and has been declining   the Superfund process.
                                             over the past 2 years..
Promote early and more effective      1993  EPA has awarded 4-37 grants each   EPA surveyed members of
 community involvement                       year since fiscal year 1988 and    communities near 7 Superfund
 (primarily through technical                has conducted 7-46 technical       sites and determined that 47
 assistance grants and outreach              outreach projects each year..      percent believe that EPA is
 projects).                                   The number of grants awarded      effectively involving them in
                                             since the reform peaked in         the Superfund process.
                                             fiscal year 1995 declined the
                                             next year, and has remained at
                                             about that level..
                                              The number of outreach projects
                                             established peaked in fiscal
                                             year 1998 and declined in fiscal
                                             year 1999..
----------------------------------------------------------------------------------------------------------------
\1\This was not a new activity, but EPA reemphasized or revised it as part of the Agency's administrative reform
  effort.
\2\According to EPA, the fact that so few parties have asked for a settlement means that such parties are no
  longer being threatened with lawsuits from larger parties for a share of the cleanup costs.
\3\We did not verify the accuracy of EPA's savings estimate; a 1997 industry study cautioned that these savings
  may be overstated.
Source: GAO's presentation of information from EPA.

    EPA's outcome measures demonstrate positive results for seven 
reforms. The measures indicate that two reforms have helped the agency 
move toward its goal of more cost-effective cleanups by achieving 
significant dollar savings on the types of remedies selected at sites. 
The measures also demonstrate that five other reforms have achieved 
positive results, such as an increase in the number of brownfield sites 
assessed (since assessment leads to cleanup and redevelopment) and 
feelings of greater participation in cleanup decisions expressed by 
some communities that received grants, technical assistance, or 
outreach from EPA.
    For the seven reforms that do not have outcome measures, it is 
difficult for EPA to determine how well they are working, whether they 
need revision to become more effective, and whether they are achieving 
their intended results--faster, fairer, and cheaper cleanups. For 
example, it is difficult for the agency to determine from its 
performance measures whether using alternative dispute resolution has 
led to settlements with responsible parties that are fairer, take less 
time, and reduce legal costs. It is also difficult for the agency to 
determine, just by counting how many times a reform has been 
implemented each year, the extent to which the reform has become a 
routine part of the overall program.
    EPA reform managers acknowledged that it is very difficult to set 
performance measures that directly demonstrate the extent to which the 
14 reforms are achieving their goals. The managers pointed out that a 
number of reforms, such as those addressing the remedies selected at a 
site, work together to cumulatively benefit the program and the agency 
cannot separately measure the contribution of each reform. The managers 
further acknowledged that factors other than the reforms themselves 
likely contributed to the benefits the agency attributes to some of the 
reforms. For example, an agencywide policy on the use of alternative 
dispute resolution across all EPA programs, not the Superfund reform 
alone, helped to increase the use of this technique, and the agency 
cannot measure the success of this reform alone.
    In a November 1997 internal review of the reforms, EPA acknowledged 
limitations in its performance measures and agreed that it needed to do 
more than count how many times a reform has been implemented to 
determine its results. Furthermore, when the agency has tried to 
improve its evaluation of a reform, its efforts have paid off. 
Specifically, it has learned in some instances that a reform was not 
working as well as intended and needed to be improved. For example, in 
1999, EPA completed the first phase of an ongoing effort to measure the 
effects of its community involvement reforms. One of its findings was 
that only about half of those surveyed considered the agency effective 
in involving their communities in the Superfund process, leading the 
agency to conclude that it needed to improve its implementation of 
these reforms. To its credit, EPA is taking actions to evaluate the 
performance of the reforms overall, as well as of certain individual 
reforms. The agency is about to update its 1997 internal review of the 
reforms to develop a strategy to improve their implementation. In 
addition, it is currently compiling the results of a survey it 
conducted with 36 property buyers to determine how effectively its 
agreements with these buyers to limit their liability under Superfund 
law have helped to stimulate the reuse of their properties.
    The agency recognizes that to fully evaluate the results of 
reforms, it needs input from responsible parties. One way of obtaining 
this input is by surveying parties on the reforms. However, under the 
Paperwork Reduction Act, EPA cannot survey more than nine members of 
the public without the approval of the Office of Management and Budget 
(OMB). In 1999, EPA asked OMB for general authority to conduct up to 15 
separate surveys of responsible parties' experiences with the reforms. 
OMB denied the request, in part because it did not specify how EPA 
planned to collect and analyze the data. However, OMB encouraged EPA to 
resubmit its request after it had developed a statistical data 
collection and analysis plan, among other things. EPA managers said 
they are trying to decide how to respond to OMB's suggestions, given 
the agency's limited resources for contractors to perform surveys and 
competing priorities for these resources. During March of this year, 
however, EPA did obtain general agencywide authority from OMB to 
conduct customer satisfaction surveys. This authority may be sufficient 
for the reform managers to survey responsible parties on the reforms.
    EPA's data on the 14 reforms also showed two trends indicative of 
limits on the progress achieved to date and possibly in the future, 
namely, that EPA may not be sustaining its implementation of the 
reforms and that the regions may be inconsistent in their use of some 
reforms. First, EPA's data on the number of times the 14 reforms have 
been implemented showed that for almost half of the reforms, 
implementation peaked in fiscal year 1997 and then declined in 
subsequent years. This suggests that the regions may not be sustaining 
the level of implementation achieved after the reforms were announced 
and may need additional support or incentives to sustain their 
implementation. Alternatively, other factors may be mitigating the 
effects of the reforms over time. EPA reform managers acknowledged that 
the implementation of some reforms may naturally decline at some time 
in the future, when EPA has finished constructing most remedies and is 
likely to be bringing fewer sites into the program. We acknowledged in 
two 1999 reports that the construction of most remedies at sites 
currently in the program would be completed by 2005 and that, because 
states are now taking on more of the cleanup workload, fewer sites may 
come into the program in the future.\5\ However, EPA cleanup managers 
stated that these possible future trends for the program do not explain 
the declines in implementation that we identified for fiscal years 1998 
and 1999.
---------------------------------------------------------------------------
    \5\ Superfund: Progress Made by EPA and Other Federal Agencies to 
Resolve Program Management Issues (GAO/RCED-99-111, Apr. 29, 1999), and 
Superfund: Half the Sites Have All Cleanup Remedies in Place or 
Completed (GAO/RCED-99-245, July 30, 1999).
---------------------------------------------------------------------------
    Second, EPA's data also showed that the regions varied widely in 
the number of times they used most of the reforms, possibly indicating 
inconsistency in their use of the reforms. According to the data, all 
regions appear to be giving priority to completing the construction of 
cleanup remedies. In part, this is because EPA headquarters has made 
this a top priority for the Superfund program, has monitored the 
regions' implementation closely, and this past year for the first time 
made mid-year regional budget adjustments to reward the regions that 
were achieving this goal. However, the data for other reforms do not 
appear to show consistent levels of implementation across the regions. 
For example, regions II and V have relatively large portions of the 
overall Superfund workload to manage--17 and 20 percent, respectively. 
Yet Region V implemented a significantly higher portion of the total 
non-time-critical removals and combined site assessments than Region 
II, as figure 1 illustrates. Likewise, regions II and V used special 
accounts and removals less frequently or as often as regions VII and 
VIII, yet these latter two regions had much smaller portions of the 
Superfund workload. Such regional variation could indicate that certain 
regions are not realizing the potential savings in time and costs 
expected from the reforms.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    EPA reform managers pointed out that factors other than the sizes 
of the regions' Superfund workloads may account for the variation and 
are beyond the regions' control. For example, for several reforms, such 
as those to enhance community involvement in cleanups, the regions can 
offer the reforms, but it is up to stakeholders to pursue them. Or, one 
region may have fewer sites involving multiple responsible parties, so 
that region may have fewer opportunities to use some of the reforms 
aimed at achieving faster, cheaper settlements. However, without 
determining why such significant variations exist among the regions, 
EPA cannot be sure that its reforms are being used to the maximum 
extent possible.
    Furthermore, EPA reform managers acknowledged that ensuring 
regional consistency is a constant challenge for the agency and that 
some regions were quicker than others to embrace the reforms. In fact, 
in a 1997 review of the reforms, EPA itself identified the need to 
ensure better commitment to the reforms. The EPA managers noted that 
differences in the organizational structures and leadership of the 
regions could lead to inconsistencies in implementing the reforms. 
Likewise, industry and state cleanup agency officials expressed 
concerns that some regions, and even cleanup managers within regions, 
are less willing than others to implement certain reforms. These 
officials felt, therefore, that they could not realize the full 
benefits of the reforms, such as lowering litigation and cleanup costs.
    EPA reform managers in headquarters and in the two regions we 
contacted outlined EPA's current methods to help ensure that the 
regions implement the reforms. These include the use of headquarters 
liaisons to the regions who monitor the regions' progress toward annual 
targets--the number of times the regions implement certain reforms--and 
conduct regional visits, conference calls, and training sessions to 
discuss the reforms. EPA has also issued new or updated guidance on the 
use of some of the reforms. By better targeting these methods, EPA 
could more fully achieve the reforms' goals across the regions.
EPA and Stakeholders Support Legislative Changes to Varying Degrees
    EPA and some stakeholders we contacted--officials representing 
industry, state cleanup agencies, and environmental and community 
groups--agreed on the benefits of establishing some of the 
administrative reforms in law but disagreed on the need to do so for 
other reforms. More specifically, the stakeholders preferred that 
reforms intended to provide liability protection to certain parties, 
such as prospective property purchasers, be established in law. 
Stakeholders worried that otherwise, EPA regions had too much 
discretion to decide which parties would benefit and affected parties 
did not have a firm basis to challenge these decisions. EPA managers 
explained that the agency would support legislation, if proposed, to 
provide liability relief for such parties but that the agency itself is 
not currently seeking any legislation to codify its reforms. According 
to EPA, it would support such proposals because they would (1) give 
such parties greater assurance that they would not be held liable for 
the costs of a cleanup under Superfund, (2) reduce the parties' legal 
costs, and (3) promote the development of brownfields, since the fear 
of being held liable under current Superfund law can deter parties from 
pursuing brownfield cleanups and redevelopment.
    Stakeholders and EPA both favored legislation that would provide 
liability protection for:

    <bullet>  prospective purchasers of contaminated property,
    <bullet>  landowners who were not responsible for or aware of 
contamination on their property (innocent landowners),
    <bullet>  owners of property contiguous to a contaminated site, and
    <bullet>  small municipal waste generators and transporters.

    Both EPA and the officials representing industry would also like 
the agency to be able to compensate parties more extensively for the 
shares of cleanup costs attributable to insolvent or defunct parties as 
a means of promoting faster and less costly settlements. However, EPA 
cleanup managers said that the agency could not afford to do this 
without obtaining additional funding authority for this purpose from 
the Congress. The managers said the agency continues to request 
additional funds for the Superfund program that would allow it to 
devote more resources to covering such shares of cleanup costs--$150 
million in fiscal year 2001--but have not yet obtained such funds.
    EPA and stakeholders did not agree on the need for other 
legislative changes. For example, EPA did not agree with the executive 
director of the organization representing small businesses on the need 
for further legislative authority to protect such businesses. The 
agency maintains that its administrative reforms aimed at removing 
small waste contributors from lengthy settlement negotiations, 
protecting them from litigation, and adjusting their settlement costs 
on the basis of their ability to pay provided these businesses with 
ample relief. The executive director acknowledged that these reforms 
were helpful but said that some member businesses still report 
incurring high legal costs that threaten their financial viability. 
Therefore, these businesses would like the liability protection and 
other benefits of the reforms established in law to make them less 
discretionary and further reduce costs.
    EPA and stakeholders also differ on how much liability relief 
should be extended to parties that conduct cleanups under state 
programs. In general, officials representing industry and the states 
explained that the fear of being held liable under the current 
Superfund law deters parties that would voluntarily clean up sites 
under state programs, especially brownfield sites.\6\ EPA has 
maintained that it cannot provide parties that clean up a site under a 
state program with full relief from Superfund liability. But the agency 
can provide these parties with assurances that it no longer has any 
interest in the site unless it presents an imminent and substantial 
endangerment to public health or the environment in the future. The 
industry and state officials believe that this qualified relief from 
liability is not sufficient to overcome barriers to cleanups and that a 
legislative solution may be necessary.
---------------------------------------------------------------------------
    \6\ State voluntary cleanup programs offer parties incentives, such 
as state liability protection, to voluntarily address waste sites.
---------------------------------------------------------------------------
    Several bills that would exempt various parties from liability and 
therefore would limit the potential sources of funding for cleanup 
costs have been introduced in the Congress in recent years. While some 
proposed bills to reauthorize the Superfund program would reinstate the 
expired Superfund taxes, others would not. The Congress has not passed 
any of these bills.

Conclusions
    EPA claims and stakeholders agree that the Superfund program is 
working better and that, at least collectively, the administrative 
reforms have played some part in this improvement, but the agency has 
not measured the impact of most reforms. This limits the agency's 
ability to determine how well the reforms are working and where it may 
need to adjust its reform efforts. EPA's ability to better measure the 
results of its reforms could be further limited if the agency does not 
obtain important data and input from the responsible parties that are 
conducting a majority of cleanups, as well as other key stakeholders, 
such as community and environmental groups. Furthermore, without 
sustaining the most important reforms and ensuring that all regions are 
implementing them to the maximum extent possible, the agency is not 
assured that it is fully achieving potential benefits, such as saving 
significant cleanup dollars and cleaning up sites more quickly. 
Therefore, as the agency updates its internal review of the reforms and 
develops a reform strategy, it has the opportunity to consider ways 
that it could better (1) measure the results of the most important 
reforms and (2) verify that it does not have a problem with 
inconsistent regional implementation for some reforms.

Recommendations
    To achieve the maximum benefits possible from the Superfund 
administrative reforms, the Administrator, EPA, should direct the 
Assistant Administrator for Solid Waste and Emergency Response, who 
manages the Superfund program, to address, in EPA's internal review and 
update of the reforms, ways in which the agency can:

    <bullet>  cost-effectively obtain additional data--for those 
reforms with the greatest potential for improving the program--that 
would help it better assess the reforms' results, including continuing 
to pursue authority from OMB to solicit input from private parties and 
other key stakeholders on the success of the reforms, and
    <bullet>  target incentives or other strategies as necessary to 
sustain the implementation of some reforms and better understand 
whether regional variation in their use reflects inconsistencies that 
need to be addressed.

Agency Comments
    We provided copies of a draft of this report to EPA for its review 
and comment. EPA's comments are reproduced in appendix IV. EPA said 
that it would evaluate our recommendations and include them in its 
Superfund reforms strategy, as appropriate. However, EPA had three 
principal concerns about our findings. While we acknowledge the 
agency's position on these issues, as discussed individually below, we 
continue to believe that our findings were soundly developed and fairly 
presented. Therefore, we did not change our report in response to these 
concerns. Specifically:

    <bullet>  The agency regards all 62 reforms as important and 
believes that they have improved the program, even if the precise 
results of many cannot be measured. EPA said that it had designated 20 
of the 62 reforms as fundamental because they had the biggest impact, 
individually, on the program, but that many of the remaining 42 reforms 
work together with the fundamental reforms to improve specific aspects 
of the program, such as remedy selection. We had already noted in the 
report that the agency considered all reforms to be important and 
beneficial to the program and that the agency believed certain reforms 
worked together to improve the program, even though the agency could 
not measure their individual contributions to the improvements.
    <bullet>  The agency disagreed with our finding that several of the 
reforms it designated as fundamental have not produced measurable 
outcomes. The agency also stated that it is difficult to measure 
progress toward certain goals, such as greater fairness in the program 
and lower litigation costs, but there are a number of indicators of 
this progress. In addition, EPA said that it has been unable to obtain 
the authority from OMB to survey private parties on the reforms' 
accomplishments. In assessing these accomplishments, we asked the 
agency to provide us with any data that it had to demonstrate results. 
We took these data and used two criteria to designate whether the data 
represented output or outcome performance measures: (1) the standard 
definition under the Results Act that an output measure counts 
activities undertaken while an outcome measure assesses the results of 
a program activity compared to its intended purpose, and (2) the extent 
to which the performance measure directly assessed progress toward or 
achievement of EPA's stated goals for a reform. Subsequently, we found 
that our designation of EPA's performance measures as measuring either 
activities conducted or results achieved was consistent with the way 
the agency itself characterized them in its issued work plan for 
Superfund, generated in response to the Results Act. Furthermore, we 
had already acknowledged in the report some of the difficulties the 
agency faced in measuring progress toward the reforms' goals and 
attempting to obtain authority to ask stakeholders for important data 
that the agency needed to measure the reforms' results.
    <bullet>  The agency maintains that it has sustained a high level 
of commitment to implementing the reforms. Furthermore, the agency 
stated that the trend data cited in the report indicating possible 
declines and regional variation in the implementation of some reforms 
over the past several years do not demonstrate a decrease in the 
agency's commitment but could reflect the impact of other factors. 
These include factors such as annual differences in the types and 
number of cleanup activities being conducted in a particular region, or 
an overall decline in the cleanup workload as more sites progress 
through the cleanup process. These factors could also include ones that 
the agency cannot control, such as different levels of interest among 
stakeholders in using community advisory groups or technical assistance 
grants. We had already acknowledged in the report that the trends 
showing variation in implementing the reforms could be due to a number 
of factors. One of these factors was not, however, an overall decline 
in the cleanup workload. As we point out, the agency itself had 
admitted that such a decline could affect reform accomplishments in the 
future, but does not explain the decrease in accomplishments over the 
past several years. Furthermore, our point is that without good 
performance data, the agency cannot know if certain trends indicate 
implementation problems that the agency needs to address or are due to 
factors outside the agency's control. We showed that when the agency 
has obtained data from stakeholders on the reforms' accomplishments, it 
has learned valuable information about implementation problems and 
taken subsequent action to address them. Therefore, we believe that by 
focusing on the most critical reforms and significant variation in 
their implementation and verifying the root cause of this variation, 
the agency could achieve similar improvements in these reforms.
    In addition to these overall comments, EPA provided technical and 
clarifying comments that we incorporated in the report as appropriate.
    Unless you announce its contents earlier, we plan no further 
distribution of this report until 30 days after the date of this 
letter. At that time, we will send copies of the report to appropriate 
congressional committees and interested Members of the Congress. We 
will also send copies of this report to the Honorable Carol M. Browner, 
Administrator, EPA; and the Honorable Jacob Lew, Director, Office of 
Management and Budget, and we will make copies available to others on 
request. Please contact me at (202) 512-6111 if you or your staff have 
any questions. Key contributors to this report are listed in appendix 

V. Peter F. Guerrero Director, Environmental Protection Issues.
    Senator Inhofe. The current Administration has testified 
before Congress, using in my opinion, exaggerated claims and 
misleading rhetoric to prevent bipartisan supporters from 
enacting meaningful Superfund reform. Just last fall, our 
witnesses with us today, Tim Fields, stated in testimony, and 
I'm quoting now, ``EPA has significantly changed how the 
Superfund program operates through three rounds of 
administrative reforms which have made Superfund a fairer, more 
effective and more efficient program as a result of the 
progress made in cleaning up Superfund sites in recent years, 
program improvements resulting from the administrative reforms, 
there is no longer a need for comprehensive reform.''
    However, the GAO stated in its recent report, and I'm 
quoting again, ``EPA cannot directly link the majority of its 
reforms to improvements in the program.''
    This flatly contradicts the statements that have been made 
by the Administration. And I really believe that we're going to 
have to have comprehensive Superfund reform. And I do know 
this, that when the Administration changes, if it changes the 
way that I would prefer and the way that Senator Lautenberg 
would prefer, I would think that we would have a chance at 
having comprehensive reform.
    But if we start cherry picking, taking out these areas that 
should be in one big bill, I think it's going to make it that 
much more difficult for the ultimate reform. So Mr. Chairman, I 
look forward to today's dialog on brownfields. And I'm also 
looking forward to further discussions on comprehensive reform 
of Superfund.
    Senator Chafee. Thank you, Senator.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Mr. Chairman. I'm 
pleased that after months of hard work that we have produced a 
bipartisan plan that will clean up and redevelop the abandoned 
sites known as brownfields. I listened to the Senator from 
Oklahoma and he and I, I'm pleased to hear that he wants a 
Democratic Administration. He said that we both agree that we 
need change here.
    Senator Inhofe. I appreciate your new position, then.
    [Laughter.]
    Senator Lautenberg. Senator Inhofe, I think, is going to be 
giving me a big going away party. And wouldn't you be better 
off to save comprehensive Superfund review for that date, and 
I'll leave my notes and everything so you can work off those.
    But I agree that comprehensive Superfund reform is 
necessary. We might differ on which items need reform. But 
nevertheless, I think it's appropriate for review. However, 
honestly, I think that what we see in front of us, a bipartisan 
bill, and I thank Senator Chafee and Senator Smith, Senator 
Baucus, for their hard work on this legislation.
    This is cosponsored by Senator Helms and Senator Kennedy 
because I think it's fair to say that people are agreeing on 
the need for doing something now. Getting brownfields into 
play, stop letting these sites lie fallow and non-productive, 
and a blight on the communities that they're in. Not only do we 
miss the positive effect, but we also create a negative effect.
    So I'm hopeful that we can proceed with this. And again, I 
salute the Senator from Oklahoma's interest in full review, I 
do.
    Mr. Chairman, brownfields threaten the health of our 
citizens and the health of our economy. And as I said, they're 
eyesores. They lead to abandoned inner cities and discouraged 
morale and increased crime and loss of jobs and declining tax 
revenues.
    I was born in one of those cities in New Jersey that had a 
glorious industrial past, Paterson, New Jersey. Alexander 
Hamilton had a presence there, lots of good things happened 
there, in those days. But now, they've got brownfields sites, 
as does Hackensack, and I could list all the communities in New 
Jersey. We have a distinguished mayor from Elizabeth who's 
going to be in the next panel. And that city, too, had an 
incredible industrial past, with Singer Sewing Machine and 
great companies producing jobs for the residents.
    But a lot of sites are laid fallow now. And Elizabeth's had 
a fantastic success in establishing a retail site on what was 
contaminated soil at one point. We have had to provide a 
turnpike exit for them for the traffic and the interest that 
was generated.
    So if we clean up brownfields, we curb urban sprawl, we 
curb the loss of farm land and we curb the increased traffic 
and air pollution and loss of historic districts and older 
urban centers. We prevent that from continuing and we 
revitalize those places. And once they're cleaned up, made 
useful, they represent tremendous potential and new jobs and a 
cleaner environment. Now that we have a bipartisan plan in 
front of us to achieve those goals, we ought to move on ahead.
    S. 2700 provides critically needed funds to assess and 
clean up abandoned and under-utilized brownfields sites. It 
provides legal protection for innocent parties, people who go 
into these sites with the full intent of doing something 
productive. And they ought to be protected and not open to 
exposure that is far greater than any possible reward that they 
might get.
    So we want to take care of the contiguous property owners, 
invite them to participate, prospective purchasers and innocent 
landholders. This legislation also provides for funding and 
enhancement of State cleanup programs, including limits, where 
appropriate, on enforcement by the Federal Government at sites 
cleaned up under a State response program. But allowing the 
Federal Government to come in where a site poses a serious 
threat. This provides a balance of certainty for prospective 
purchasers and developers.
    Additionally, this bill creates a public record of 
brownfields sites, enhances community involvement in site 
cleanup and re-use, and generally provides for deferral of 
listing eligible sites on the NPL if the State is taking action 
at the site. So we avoid having to enlarge that list, which is 
cumbersome, effectively being worked on, but quite an 
assignment to deal with.
    Mr. Chairman, this bill promises a new focus on 
revitalizing downtown areas, which will reduce urban sprawl, 
lower tax rates, protect park land, open space. And coming from 
the most densely populated State in the country, I understand 
the importance of protecting open spaces. We know from 
experience that cleaning up brownfields produces positive 
results. We just look at our successes over the past few years. 
Grants from EPA to aid in cleaning up brownfields sites have 
helped generate more than 5,800 jobs and about a billion in 
revenue.
    But more remains to be done, as we'll soon hear from our 
witnesses. Brownfields successes benefit everybody, 
environmentally, economically. And that's why this legislation 
has strong support from both Republicans and Democrats. Mr. 
Chairman, in the 1960's, this country turned its attention away 
from downtown areas, started focusing on the suburbs. And we 
see now what we've got, our highways are clogged, there are 
overcrowded airports, increased pollution because people have 
to travel ever larger distances. It's time to turn that trend 
around, revitalize our cities and our rural areas. That's what 
this legislation is attempting to do.
    So I welcome our distinguished witnesses, again, especially 
the mayor from one of my own home towns in the State of New 
Jersey. Mr. Bollwage, the Mayor of Elizabeth, knows very well 
that I lived in a few communities in New Jersey, as my father 
and mother struggled to make a living during the depression 
years by owning a little store here and a store there, and not 
rarely ever succeeding. But I got to know the towns, and I 
guess it was a precursor to my running for office 1 day, 
because I can claim about 12 towns as my hometown.
    [Laughter.]
    Senator Lautenberg. So we thank you, Mr. Chairman. Mr. 
Chairman, I look forward to working with all the members of the 
environmental community to move this bill through legislative 
process onto the President's desk. And I commend you for 
kicking this off.
    Senator Chafee. Thank you, Senator.
    Senator Baucus.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman.
    Mr. Chairman, we don't have very many days left of session. 
I very much hope that we can get this brownfields bill through 
markup here, committee on the Floor, passed and signed. There 
are a lot of people in our country, as we know, wonder why in 
the world can't Congress do something that makes a difference 
to me here at home. There are brownfields needs, pent-up demand 
all across the country. They're in your State, Mr. Chairman, in 
Rhode Island, they're certainly in my State, Montana, and all 
over.
    And there are instances where community leaders, private 
and public sector, worked hard to put all the pieces together, 
different people volunteering and committing different 
resources to develop a brownfields site. They can't do it. They 
can't do it because we haven't cleared up the liability 
question and we haven't passed legislation that basically 
enables people at home to do what they want to do.
    I understand that there are differences within the 
legislation. Not a lot. I think they are differences we could 
frankly work out. And a good indication of that is this is so 
bipartisan, I guess 15-18, Republicans same number of 
Democratic Senators. There is strong support on both sides of 
the aisle. And people want this.
    Now, I also know that some members of this Senate, and I 
understand it, think perhaps this should be linked to a larger 
Superfund reform, I understand that, Senator. I think it's 
important to remind ourselves we've been trying to pass 
comprehensive Superfund reform for four Congresses in 7 years. 
We haven't done it yet. I'm not so sure we're going to do it 
quickly.
    And my really basic belief is that we get too hung up 
around here, wrapped around the axle, and linking too much 
together. It's like we're trying to make a perfect world or no 
world. Of course, we all know the more we try to do that, the 
more we do nothing. A, you can't let perfection be the enemy of 
the good, second, everything isn't really linked that much. We 
should take things one by one as they come up.
    So I hope that we can pass brownfields legislation. The 
time is here. And then we can take up Superfund, comprehensive 
Superfund reform, the rest of Superfund and debate it on its 
merits. And sometimes measures pass, sometimes measures fail. 
That's the democratic way, that's the process.
    But we have such a responsibility here to do something that 
is so needed. I'm thinking now of a community in my home State, 
Lewistown, Montana, it's called Brewery Flats, where just so 
many different groups have contributed to help clean up a site. 
It's a railroad site, switching tracks, I won't say a yard, 
because it's a small town. But all kinds of people have come 
forward with new ways to help. The Society of American 
Foresters provided trees and shrubs, school kids planted 
hundreds this last spring. In addition, the local community and 
some of the private sector have volunteered their 
contributions.
    But they're stuck. They can't convert this abandoned 
railroad site into something that's viable for the community 
because of the liability problems. I plea, frankly, to the good 
sense of all of us to just kind of keep open minds and come 
together and pass something that's, you know, it's not perfect, 
but it's good. And good here is a lot better than nothing.
    I'm also reminded of an experience of mine this last 
weekend in Montana. We in Montana are in pretty significant 
dire economic straits. Our per capita income is down at the 
bottom of the barrel, we rank first in the Nation in the number 
of jobs per household, because people just have to have that 
many jobs to make ends meet. Times are not good.
    And so I decided, what the heck, I would hold this economic 
development conference in Great Falls, Montana, this last 
weekend. I decided to really try to do my doggonedest to make 
it right.
    One of the most important components is totally apolitical. 
I went overboard to make sure the Republican Governor, 
Republican senators, the Republican leadership, as well as the 
Democratic leadership in the State legislature was there, equal 
billing or no billing. This was totally non-partisan, totally. 
And I made sure I said, anybody who wants to make a political 
statement, I'm cutting them off at the knees. Nobody's going to 
make anything that's at all political.
    And I tell you, you cannot believe how, the energy and 
enthusiasm in this conference that finally, finally, finally, 
we in Montana may be starting something that's going to work, 
all together. My view is that frankly, in matters like this, 
Superfund, shouldn't blame anybody, nobody should take credit, 
we should just do it. The time for blame and credit is 
elections. Once people are elected, just get the job done.
    And we're all elected here. This is not a campaign, but 
just get the job done. The job is to pass some legislation 
that's going to help a lot of people locally do what they want 
to do. I just strongly urge us to do it.
    Other issues will come up next year. Who knows who's going 
to be our President, who knows what's going to be elected to 
what offices. That's next year. Let those problems take care of 
themselves next year. This is this year. This is now. And 
there's not a lot of time left. And I very much hope, Mr. 
Chairman, that we can get it done.
    Senator Chafee. Thank you, Senator.
    The Senator from Iowa would like to introduce a member of 
the second panel. In respect to your time, I'll allow you to do 
that now, although Mayor Daniels will be speaking at a later 
time.
    Mayor----Senator Grassley.
    [Laughter.]

            STATEMENT OF HON. CHARLES E. GRASSLEY, 
              U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. First of all, thanks to the committee for 
allowing a non-committee member to do this. Like Senator 
Lautenberg, I'm happy and honored to introduce a distinguished 
mayor of my State, the mayor of Des Moines. It's Iowa's capital 
city and our largest city. And the birthplace of Senator 
Inhofe, and Inhofes still live there as well.
    And to also support the legislation, and I've already 
cosponsored it, but I can reaffirm my cosponsorship of it and 
my support of it. I think Mayor Daniels and the City of Des 
Moines have done a very good job at promoting economic 
development, especially excelling at the job of utilizing and 
redeveloping brownfields space. Currently the city is in the 
process of redoing a downtown area for redevelopment as an 
urban village, the River Point West project. The mayor will 
elaborate on that.
    He is here testifying before the committee not only for his 
own beliefs, but also for the National Association of Local 
Government Environmental Professionals. I'm proud to be a 
cosponsor of this legislation, and I think brownfields 
development improves the quality of life for everyone. And 
revitalizing these abandoned properties enhances the character 
of downtown areas, increases tax revenue, creates jobs, reduces 
health and environmental threats and preserves open spaces.
    I'm going to put the rest of my statement in the record, 
Mr. Chairman, so you can move on quickly. But thank you very 
much, and I thank Mayor Daniels for coming, not only to 
represent his professional organization, but also for the work 
he does as mayor of Des Moines. Thank you.

    [The prepared statement of Senator Grassley follows:]

 STATEMENT OF HON. CHARLES E. GRASSLEY, U.S. SENATOR FROM THE STATE OF 
                                  IOWA

    Thank you, Mr. Chairman, and other members of the committee, for 
the opportunity to come before you to introduce the distinguished Mayor 
of Des Moines, Preston Daniels, and to voice my support for the 
Brownfields Revitalization and Environmental Restoration Act of 2000.
    Preston Daniels is the mayor of the capitol and largest city in 
Iowa. Mayor Daniels and the City of Des Moines have done a good job in 
promoting economic development. They have especially excelled at the 
job of utilizing and redeveloping brownfield space. Currently, the City 
is in the process of cleaning up a downtown area for redevelopment as 
an urban village, the Riverpoint West project. I am sure that the Mayor 
will elaborate more on this effort. This afternoon, however, he is here 
testifying before the committee on behalf of the National Association 
of Local Government Environmental Professionals.
    I am proud to be a cosponsor of this bipartisan legislation. 
Brownfields development improves the quality of life for everyone. 
Revitalizing these abandoned properties enhances the character of 
downtown areas, increases tax revenue, creates jobs, reduces health and 
environmental threats, and preserves open space.
    Throughout my state, communities are interested in, or have 
utilized the Brownfield program to assess and clean up abandoned areas. 
I have had the opportunity to visit many of the sites and have heard 
from numerous Chambers of Commerce regarding their interest in future 
assessments and clean-up initiatives.
    This legislation would increase the amount of Federal money 
available for these cleanups. It would also encourage developers to 
focus on previously used properties instead of undeveloped land by 
limiting the liability faced by these potential land developers and 
purchasers. Many pieces of valuable property in Iowa sit untouched and 
unrealized because of the liability risk they pose.
    Furthermore, this legislation takes a common sense approach by 
empowering states. The states would have significant regulatory control 
of brownfield development while limiting Federal involvement in 
projects to only those cases with serious problems. This will protect 
the environment and cut through the Federal red tape that leaves 
brownfield sites untouched.
    Thank you again for allowing me to introduce the distinguished 
Mayor of Des Moines and for voicing my support for this legislation.
    Senator Chafee. Thank you, Senator Grassley.
    At this time I would like to introduce our first witness. 
Testifying on behalf of President Clinton is Mr. Tim Fields, 
the Assistant Administrator of EPA's Office of Solid Waste and 
Emergency Response.
    Thank you, Mr. Fields, for appearing before the 
subcommittee this afternoon. And I would ask that you limit 
your testimony to 5 minutes, and also limit the members' 
questions to one per round, since we do have a full afternoon.
    Welcome, Mr. Fields.

  STATEMENT OF TIMOTHY FIELDS, JR., ASSISTANT ADMINISTRATOR, 
      OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Fields. Thank you, Mr. Chairman. It's a pleasure to be 
here with you and other members of this committee and 
subcommittee. It is truly a pleasure to be here with other 
witnesses who will be coming in the panels after me to talk 
about S. 2700.
    It's a pleasure to appear again before the subcommittee, 
particularly to discuss the targeted bipartisan brownfields 
bill. We regret that our testimony did not arrive until today. 
And we will obviously be ready to respond to any questions 
about that testimony that this subcommittee may have.
    We've waited a long time, Mr. Chairman, for this day. Not 
since the 103d Congress have we had the opportunity to discuss 
America's bipartisan brownfields legislation with the Senate. I 
particularly want to thank you, Mr. Chairman, Senator 
Lautenberg, Senator Baucus, Senator Smith and others who have 
worked hard to come together to bring together this bill, a 
good bipartisan brownfields bill.
    And we congratulate you on the 40 cosponsors that you have 
already attained for this bill.
    The Clinton Administration has been in the forefront of 
encouraging the cleanup and redevelopment of brownfields for 
the last 5 years. The Administration's brownfields initiative 
is targeted toward working with communities to safely clean up 
and redevelop contaminated brownfields properties. The 
Administration is committed to providing the tools that 
communities need to address the problem of abandoned, 
contaminated brownfields properties.
    On behalf of the Clinton Administration, I commend the 
members of this subcommittee and the committee overall for your 
bipartisan efforts to develop a good, solid brownfields bill, 
S. 2700. The Clinton Administration supports S. 2700. We 
appreciate the efforts that you have gone to in developing a 
bill that addresses the concerns of American communities. S. 
2700 authorizes grants and loans to identify, assess and clean 
up brownfields properties. We particularly appreciate the 
flexibility given to EPA and communities in implementing those 
grant programs.
    The bill also provides liability protection for prospective 
purchasers, innocent landowners and contiguous property owners. 
We feel these provisions will do a great deal to encourage the 
cleanup and redevelopment of brownfields properties across 
America.
    I want to thank you for working with us to meet our 
concerns on the issue of finality. As you can imagine, the 
Administration feels very strongly about the important role of 
Federal enforcement authority in providing a consistent, 
nationwide safety net to protect public health and the 
environment. This Federal safety net is the fundamental 
cornerstone of Federal environmental statutes.
    We appreciate the additions to the bill that require States 
to publish a public list of cleanup sites before application of 
the Federal enforcement bars is being authorized. In addition, 
we support the requirement that States enter into a memorandum 
of agreement with EPA or be working toward adopting minimum 
State cleanup program criteria before receiving program 
funding. I am pleased that eh Administration can support this 
bill. However, we do believe that there are improvements that 
can be made to the bill, and the Administration stands ready to 
work with this committee to effectuate those improvements.
    The Administration continues to believe that States should 
be required to demonstrate that their programs satisfy minimum 
program criteria before Federal enforcement bars apply. 
Further, there is currently no mechanism in the bill to ensure 
active public participation in State cleanups or provide 
assurance through State review or approval that site cleanups 
are adequate.
    We also believe that the provision that requires States to 
publish a public list of sites should be strengthened, although 
we applaud that being there, by having the list updated more 
frequently and establishing a link between the enforcement bar 
and the sites that are published on the list.
    Further, the provision that governs the circumstances which 
Federal enforcement is appropriate qualifies or modifies the 
imminent and substantial endangerment standard in most 
environmental laws. To avoid costly and unnecessary litigation 
we believe would be preferable to retaining the current CERCLA 
Section 106 standard of imminent and substantial endangerment.
    Finally, brownfields range from huge former industrial 
facilities to the thousands of abandoned small corner gas 
stations across America. We think brownfields legislation 
should encourage the cleanup and redevelopment of a full range 
of contaminated brownfields properties.
    Mr. Chairman, the Administration has identified other 
modern technical issues that we will be communicating to the 
committee as you proceed to markup. We do support this bill. We 
look forward to working with you and other members of the 
subcommittee to enact good bipartisan brownfields legislation 
this year that the President can sign.
    We thank you for the opportunity to appear today. And I'll 
be pleased to answer any questions that you might have.
    Thank you very much.
    Senator Chafee. Thank you, Mr. Fields, and thank you for 
the Administration's support of this bill.
    As we heard Senator Baucus give an impassioned plea to pass 
this legislation this year, and we also heard from Senator 
Inhofe some of the impediments to the passage this year, my 
question would be, to what extent do you think the 
Administration would go to address some of the non-brownfields 
issues of Superfund reform, if we did need to make some 
progress on some other elements of Superfund legislation? Would 
the Administration be inclined to lend a helping hand to some 
of those other elements, non-brownfields elements of the 
Superfund legislation, natural resources damages, and some 
other areas of the law that might be important for passage this 
year of brownfields legislation?
    Mr. Fields. Mr. Chairman, we think you and this 
subcommittee are on the right course. We believe that targeted 
brownfields legislation is appropriate. We do not support 
comprehensive reform of Superfund law. We do not believe that 
there is a need for comprehensive reform at this time. We 
believe the administrative reforms that have been implemented 
have changed this program in a fundamental way.
    The General Accounting Office report that Senator Inhofe 
mentioned, for example, we read it completely differently than 
he did. The June 8th, 2000 report from General Accounting 
Office, the quote said that EPA claims and stakeholders, namely 
industry, State officials, local government officials and 
community representatives all agree that the Superfund program 
has improved and the administrative reforms have collectively 
contributed to this improvement. Those stakeholders all agree 
that the reforms have improved the operation of the program, 
the Superfund program is working. That is what the report says.
    So we do not believe that comprehensive reform of Superfund 
legislation is necessary. We believe that targeted brownfields 
reform like embodied in S. 2700 is something we do support. We 
are also, though, willing to look at, as we've said in the 
past, other areas of reform, not necessarily in this bill. 
We've in the past supported liability relief for generators and 
transporters of municipal solid waste. We have supported as an 
Administration the reinstatement of the Superfund taxes.
    So there are other elements of Superfund legislation that 
we would be willing to look at. But we do not in any way 
support comprehensive reform of the Superfund statute like some 
would espouse. We do not support changes to remedy selection. 
We do not support changes to natural resource damages and other 
issues that people would want to raise. We believe that 
targeted brownfields legislation that this committee is 
supporting and bringing before us today is the way that this 
Administration believes the Congress ought to go.
    Senator Chafee. Thank you, Mr. Fields. I'll followup with 
it. Just hope you keep an open mind as we proceed on that 
course. And it seems like your course is set pretty solidly in 
opposition to addressing some of the other elements of 
Superfund legislation. But perhaps as we go forward, we could 
have some discussions on that.
    Senator Lautenberg.
    Senator Lautenberg. Mr. Chairman, in the interest of time, 
I think Mr. Fields' statement was fairly concise. We are 
pleased to have Administration support. We would encourage 
Energy in that connection.
    And I pass now so that we can get to the next panel.
    Senator Chafee. Thank you. Senator Baucus.
    Senator Baucus. Briefly, Mr. Chairman, thank you very much.
    One, I want to thank you very much, Mr. Fields, for your 
help in Libby, Montana.
    Mr. Fields. You're welcome, sir.
    Senator Baucus. As you well know, there is a horrendous 
asbestos problem in Libby. And EPA's done a great job.
    Mr. Fields. We thank you, Senator, for your leadership in 
the situation in Libby, Montana. You've done a great job. That, 
as you know, is a national issue, and we applaud the leadership 
you've shown there.
    Senator Baucus. I appreciate that. I throw the bouquets 
back.
    [Laughter.]
    Senator Baucus. EPA has been just super. Sometimes people 
complain about the Federal Government. I always go back to 
particularly what EPA's doing in Libby. It's first rate. I know 
you've heard me mention Paul Paranard, your man on the ground 
there. He's aces.
    Mr. Fields. Thank you.
    Senator Baucus. I don't know anybody who works in public 
service who I can compliment more highly than Paul. Those of 
you in the audience, Paul Paranard is the on the ground 
coordinator in Libby, Montana. He's a guy who's got tattoos, 
he's got a ring in his ear and he comes to meetings with his 
black shirt on, and people look.
    [Laugher.]
    Senator Baucus. He's so smart. And he knows his issues so 
well, and he's so committed and dedicated, he bleeds for Libby 
people, the solution there. It's just made a huge impression, a 
positive impression of people in EPA. You're to be commended.
    Could you just go into a little more, very briefly, Mr. 
Fields, and I agree with you, that administrative reforms, the 
Administration has put and set, particularly EPA with respect 
to Superfund, have really gone a long way to ``reform'' 
Superfund. Just flesh it out a little bit, please.
    Mr. Fields. Sure, Senator Baucus. The reforms have allowed 
us to move over the last several years from, almost 4 years ago 
now, we were doing on the average of about 65 construction 
completions a year. We've now gone to 85 a year for each of the 
last 3 years, and we're targeted for 85 again in fiscal year 
2000. That is a tremendous increase in the pace of cleanup.
    So the program is working faster. There's a 20 percent 
reduction in the time it takes from a site going on the 
Superfund list until construction is complete.
    Costs have been reduced by 20 percent in the Superfund 
program. We've saved more than $1.4 billion in cost remedies by 
the institution of updating remedies based on new science and 
technologies over the last several years. We've done a lot to 
provide more fairness to the program by allowing de minimis 
parties, more than 21,000 being settled out and given 
contribution protection. We've implemented reforms to make sure 
our remedies are looked at. The National Remedy Review Board 
has looked at remedies and saved tens of millions of dollars in 
Superfund cleanup at many sites across the country.
    So by all standards, I think, and the General Accounting 
Office report I referred to, the stakeholders who were 
interviewed for that report all agree that the Superfund 
program has been fundamentally changed. It is a program that is 
working now. The Administration is working with all the 
stakeholders involved, States, local government, the 
communities, the private sector, to effectuate cleanups. More 
than 70 percent of the cleanups are still being done by 
responsible parties.
    So by all accounts, we think the Superfund program is on 
good foundation, working well. Therefore, we do not need a 
comprehensive fix to the Superfund statute.
    Senator Baucus. I appreciate that. Would the President, in 
your judgment, would EPA recommend that the President sign this 
bill if it were presented to him unamended?
    Mr. Fields. That's a tough question, Senator. Obviously, 
hypothetically, we'd say we support the bill. We don't know 
what's going to happen in the House. My understanding is the 
House is drafting brownfields legislation, targeted brownfields 
legislation as well. I assume there will be some tweaks between 
the House and the Senate as you all come together regarding a 
bill that would come out of the Senate and the House.
    But yes, we do support this bill, and it is the kind of 
bill we would recommend the President sign. We have endorsed 
other bills in the past, like S. 20, that Senator Lautenberg 
was heavily involved in, H.R. 1750. But yes, this is a bill 
that we do support. And we would want to work with this 
committee during markup to try to make some improvements to it. 
But it is the kind of bill that we believe embodies what the 
Clinton Administration has been about in the brownfields arena 
for the last 5 years.
    Senator Baucus. Thank you, Mr. Fields. Appreciate it very 
much.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator Baucus.
    Thank you, Mr. Fields, for your testimony and your 
participation in the drafting of this bill.
    I do understand we have some votes, two votes. We will 
adjourn for a short break and indulge your patience and shall 
return.
    [Recess.]
    Senator Chafee. Again, I apologize for any discourtesy in 
the break. You have the solace of knowing there were important 
voters on Medicare and Social Security lock box, now safe for 
future generations.
    I'd like to invite the second panel to the table. The 
second panel includes State and local officials. Mayor Preston 
A. Daniels of Des Moines, previously introduced by Senator 
Grassley. And he'll present testimony in behalf of the National 
Association of Local Governmental Environmental Professionals. 
And Mayor Bollwage of Elizabeth, New Jersey, introduced by 
Senator Lautenberg, will testify on behalf of the United States 
Conference of Mayors. And Jan Reitsma, Director of Rhode Island 
Department of Environmental Management, will offer the State's 
perspective.
    Welcome, gentleman. And let's start with Mayor Bollwage, 
please.

STATEMENT OF HON. J. CHRISTIAN BOLLWAGE, MAYOR, ELIZABETH, NEW 
                             JERSEY

    Mayor Bollwage. Thank you very much, Senator Chafee. I'm 
Chris Bollwage, the Mayor in Elizabeth. I am pleased to appear 
today on behalf of the U.S. Conference of Mayors, a national 
organization representing more than 1,050 U.S. cities with a 
population of 30,000 or more. Within the Conference, Senator, 
I'm on the advisory board for the organization as well as the 
cochair of the brownfields task force.
    Mr. Chairman and Senator Lautenberg and other members of 
the committee, appearing here this afternoon is a great honor 
in order to help facilitate the bipartisan brownfields 
proposal, the Brownfields Revitalization and Environmental 
Restoration Act of 2000, S. 2700. At the Conference's 68th 
annual meeting in early June, we adopted a new policy statement 
conveying our support for S. 2700. I've attached a copy of the 
statement to my testimony.
    This legislation offers the best opportunity for successful 
legislative action in the Senate this year, and hopefully final 
enactment of the legislation this year. It seems that it was 
just the other day that I appeared before you, Senator, and 
urged the panel for a bipartisan agreement. You've done exactly 
that, and we applaud your efforts in crafting S. 2700.
    And Senator, as you remember, I had to leave in a hurry 
that day. And I apologize for my hasty retreat. I was appearing 
before my local PBA for their endorsement that evening for an 
election that I had 3 weeks later, which I was successful in. 
So as you know, all politics is local, and I really had to get 
back for that PBA endorsement. I thank you for your patience in 
letting me come back.
    Senator Chafee. Welcome.
    Mayor Bollwage. Mr. Chairman, we believe the legislation 
before you is the right way to get started on these issues. It 
delivers much needed financial tools, and it sets forth a 
policy framework that we believe will help further local and 
State efforts to recycle America's land. We believe the time 
has come to enact these changes into Federal law, and let's 
begin by reporting this legislation promptly to the Senate and 
take it up on the entire Senate Floor.
    Specifically about S. 2700, why we the mayors believe it 
warrants broad Senate support, this legislation addresses the 
three key issues: resources, liability relief and further 
clarification of State and Federal roles at brownfield sites 
we've identified in our most recent statement before this 
committee. Senator, you have my specific comments on these 
areas, and my full statement. I would just like to underscore 
the point that S. 2700 addresses these issues in a manner that 
has garnered support from both public and private sectors.
    Mr. Chairman and members of the committee, let me conclude 
by again reiterating our support for your efforts, Mr. 
Chairman, in acting in a bipartisan way in this legislation. 
The legislation of this committee and your staff have worked 
extremely hard to craft a legislative package. And as the 
mayors of this Nation, we thank you.
    It is time to move the Nation to the next level on 
brownfields. Congressional action on these important issues is 
long overdue. And I thank you for this opportunity to appear 
before the committee here today. Thank you, Senator.
    Senator Chafee. Thank you, Mayor. Thank you for your 
support. Us mayors have to stick together.
    Mayor Bollwage. That's right, Mayor.
    [Laughter.]
    Senator Chafee. And I now welcome Mayor Daniels.

 STATEMENT OF HON. PRESTON A. DANIELS, MAYOR, DES MOINES, IOWA

    Mayor Daniels. Mr. Chairman, and I do want to thank you for 
that earlier promotion of my Senator to the ranks of Mayor.
    [Laughter.]
    Senator Chafee. Yes, duly noted. It will help him with his 
decisionmaking in the future, I'm sure.
    [Laughter.]
    Mayor Daniels. I am pleased to be here today to testify on 
behalf of the National Association of Local Government 
Environmental Professionals, or NALGEP. NALGEP represents 135 
localities, including many of the leading brownfields 
communities in the country, such as Providence, Trenton, 
Richmond, Chicago, Los Angeles, Salt Lake City, Dallas, 
Cuyahoga County and Des Moines, just to name a few.
    NALGEP has been actively working with local governments in 
brownfields issues for many years. My written testimony 
provides details on a range of Federal initiatives or 
incentives that are needed to promote brownfields 
revitalization in local communities across America.
    In this verbal testimony, I wish to send the 
straightforward message that local governments need Federal 
brownfields legislation. And S. 2700 provides a valuable, 
positive approach that meets those local needs.
    The City of Des Moines is impacted by brownfields. And we 
seek a partnership with the Federal Government to revitalize 
these brownfields and create new opportunities for our 
citizens. With the business community, EPA and other key 
Federal and State agencies and civic groups, we are turning our 
brownfields into water fronts and mixed use developments, new 
manufacturing and open spaces and parks.
    Revitalizing our brownfields can keep Des Moines a livable 
city, empower distressed communities and avoid the sprawling of 
the region into the areas of precious farmland.
    Des Moines' priority now is the revitalization of an area 
called River Point West. River Point West is a 300 acre site in 
Des Moines' central business district. It's situated on the 
Raccoon River in a census track with 38 percent poverty rate. A 
number of industrial activities that have taken place at River 
Point West over the years and terrible flooding have left the 
site polluted and unproductive, right in our downtown.
    Des Moines will revitalize this place into a mixed use 
urban village, with 1,000 residential units, 850,000 square 
feet of office and retail space, parks and open space along the 
river. The city has performed a phase one assessment and is 
ready to perform phase two assessments on another 175 acres.
    When completed, this revitalization will create 1,000 jobs 
and increase the tax base twelvefold to over $140 million. But 
Des Moines needs much more help to get the River Point West 
revitalization done. Mostly we need Federal resources for 
cleanup to leverage the other public and private sector moneys 
that we will raise for this site. And the same story can be 
told in localities across this Nation.
    S. 2700 provides important tools that will help local 
communities revitalize their brownfields, including critical 
funding for localities for site assessments, cleanups, grant 
and local cleanup loan funds. Liability protection for innocent 
parties, and authority for State brownfields programs to take 
the lead in brownfields cleanup, while preserving EPA's ability 
to provide a safety net for the public health and environment 
in those exceptional circumstances.
    Together these provisions represent a strong legislative 
approach that will go a long way toward meeting the needs of 
America's local communities in this top revitalization 
priority.
    NALGEP wishes to raise two other important issues for local 
communities. First, Federal legislation should ensure that 
brownfields funding can be provided to localities to address 
brownfields impacted by petroleum, or by lead and asbestos in 
buildings. Under current law, these pollutants are excluded 
from Federal brownfields assistance. These contaminants are 
some of the most difficult problems facing local communities. 
Abandoned gas stations, housing with severe lead paint hazards, 
and buildings contaminated with asbestos blight communities 
across America. Brownfield sites with these pollutants should 
be eligible for funding and for liability from relief for 
innocent parties.
    Second, I want to emphasize the importance of bringing 
together all the Federal agencies that can play a role in local 
brownfields. Brownfields are not an EPA only issue. HUD, the 
Economic Development Administration, the Department of 
Transportation, the Army Corps of Engineers and other Federal 
agencies will all contribute important resources to local 
brownfields projects. Congress should strengthen the ability of 
these agencies to help communities like Des Moines.
    For example, Des Moines seeks to work with the Corps of 
Engineers to clean up contamination and prevent the flooding in 
the River Point West area. I understand that both the 
Administration and Senator Chafee have put forth proposals to 
enhance the role of the Corps in brownfield cleanup along the 
Nation's waterways. These are positive and needed proposals, 
and we believe it will make a big difference for our city and 
many other communities.
    In the words of Senator Robert Kennedy, give me a place on 
which to stand and I shall move the earth. The people of 
America, the people of our community, people in this Congress 
are standing up on this Nation's brownfields, in our streets, 
in our neighborhoods, and we're shouting, let's move the earth. 
Let us take these places that have been abandoned, let us turn 
them back into jobs, businesses and parks, and homes. Let us 
show that we can bring businesses and people and environmental 
groups and city hall and the Federal agencies together toward a 
common, exciting goal.
    I thank you very much.
    Senator Chafee. Thank you, Mayor Daniels, for your support 
and for your constructive criticism for the areas that still 
need to be addressed, and your enthusiasm for the bill. Well 
said.
    As we mentioned earlier, the three witnesses so far have 
been singing the praises of the bill. We tried to get some 
witnesses in opposition. But really, the bill by itself has 
pretty much unanimous support. The problem is going to be 
addressing it in the framework of comprehensive Superfund 
reform and whether we can just address brownfields on its own. 
So that's the struggle that lies ahead.
    Mr. Reitsma, welcome. How was the trip down?
    Mr. Reitsma. It was quick.
    [Laughter.]
    Senator Chafee. Good. Welcome. What time did you get here?
    Mr. Reitsma. Just about an hour before the hearing.
    Senator Chafee. Good. Welcome.

STATEMENT OF JAN H. REITSMA, DIRECTOR, RHODE ISLAND DEPARTMENT 
                  OF ENVIRONMENTAL MANAGEMENT

    Mr. Reitsma. Thank you again, Mr. Chairman. My name is Jan 
Reitsma, I'm the Director of the Rhode Island Department of 
Environmental Management. I bring greetings from the Ocean 
State and regrets from Governor Lincoln Almond, who was not 
able to be here himself to express his strong support for this 
bill, Senate Bill S. 2700, on brownfields.
    I would like to start by commending you, Mr. Chairman, and 
the other members, for crafting a brownfields bill that has 
strong bipartisan support and that addresses many of the 
concerns that we have had in the State with the Superfund 
program. We're also very proud in Rhode Island to see that the 
tremendous efforts invested in cleaning up this country's 
contaminated sites by our late Senator, John Chafee, is being 
continued by this subcommittee and by you, Mr. Chairman.
    In Rhode Island, as in other States, we view brownfields as 
a challenge, as well as a tremendous opportunity. Governor 
Lincoln Almond has consistently promoted brownfields 
redevelopment as a key economic as well as environmental 
priority.
    There is a great need to clean up many old industrial sites 
in the States that present a risk to the environment or to 
public health. But the cleanup of these sites has become much 
more than that. It is our chance to restore urban communities, 
revitalize their economies, improve their quality of life, make 
better use of existing infrastructure, as well as preserve open 
space, our working landscapes and the diverse character of our 
communities. In short, brownfields redevelopment is one way to 
get real about smart growth.
    By way of background, Rhode Island adopted its own site 
remediation program in 1993 essentially because the traditional 
Superfund approach simply did not allow us to address sites as 
quickly as we were discovering them. We established a 
relatively flexible process for identifying, investigating and 
remediating sites which quickened the pace of our cleanups.
    Then in 1995, Governor Almond introduced the Industrial 
Property Remediation and Reuse Act, or the Rhode Island 
Brownfields Bill, which was passed into law with overwhelming 
support by the legislature. This gave us new tools, such as the 
ability to negotiate settlements, including covenants not to 
sue, with parties who were willing to perform the cleanup.
    Our State law not only provides liability relief to 
innocent parties, but also allows us to settle with responsible 
parties who are willing to cooperate. As a result of these 
statutory and additional regulatory changes, 48 sites have been 
cleaned up and redeveloped, 532 acres have been returned to 
productive use, 1,010 jobs have been created, and $76.9 million 
is being generated annually in property and income taxes. Now, 
we are a small State, but for a small State, those are big 
numbers.
    And although we are proud of this success, we know that we 
could be doing a whole lot better. And we are very excited that 
this bill promises changes at the Federal level that will in 
fact help us do our job better. Too often, we still find that 
the flexibility and the liability relief we can offer as a 
State just is not good enough for certain parties who are 
scared away by the double jeopardy issue, the possibility that 
EPA may decide after the fact that the agreement reached with 
the State is not good enough.
    This bill addresses that by providing for finality of the 
State's decision subject to certain criteria the State program 
has to meet. We believe those criteria are reasonable.
    Together with the liability relief provisions for innocent 
parties, this finally should put to rest the double jeopardy 
issue, provide certainty instead, facilitate and expedite the 
completion of projects that are currently underway, and attract 
many more participants to our program, so we can initiate, 
cleanup and have restoration at many more sites.
    This is, we believe, by far the most important thing the 
Federal Government can do at this time to help us States do our 
job.
    Another key aspect is that the bill recognizes the 
importance of brownfields, not just for commercial 
redevelopment, but also as sites that can be restored as 
natural resource areas, buffers that protect our water quality, 
greenways, public access for fishing and other water 
recreation, and urban parks. Such restoration can contribute 
significantly to the quality of life and revitalization of our 
urban communities. And brownfields present opportunities that 
are otherwise very scarce, unaffordable or both in most urban 
communities these days.
    But since these restoration projects do not typically 
generate a revenue stream that can be used to pay off loans, it 
is important that grants are available to fund or at least jump 
start them. The funding proposed by this bill is modest, we 
believe, but it is a very important step toward realizing the 
full potential of our brownfields programs.
    On the topic of funding, this bill proposes to make loans 
and grants available not just for investigation and 
inventories, but also for the actual cleanup work. This too, in 
our experience, can make a critical difference between a 
project going forward or languishing for many more years.
    I should mention in fairness that we have received very 
significant funding from the Federal Government which has been 
critical to our success. We have been lucky to have received 
grants to be designated in Providence as a showcase community.
    As I said, it's critical to our success. But the importance 
of that success and the importance of that assistance will 
increase exponentially when the provisions of this bill become 
law, attracting more private sector participants, supporting 
the role of local governments, so they can partner more 
effectively with us at the State, allowing funds to be used for 
actual cleanup and making funds available for greenspace 
restoration projects in addition to commercial development.
    In short, in Rhode Island, we strongly support Senate Bill 
S. 2700. It does not solve all the issues and concerns that 
have been raised by the Superfund program, nor should it have 
to. It would give us in Rhode Island and in other States much 
needed additional backup tools, flexibility to carry out our 
brownfields program at the State and local levels. These are 
improvements that can be made now. They should not be held 
back, we believe, pending more comprehensive Superfund reform.
    On behalf of Government Almond and all of us in Rhode 
Island who work on environmental protection and economic 
revitalization, I urge you to support this bill. And again, 
thank you for the opportunity to testify.
    Senator Chafee. Thank you, Jan, for coming all the way 
down. Appreciate it very much. Thank you for your support and 
your testimony.
    Mayor Daniels, are you here on a day trip also?
    Mayor Daniels. Day trip, and it will be midnight by the 
time I get back home.
    Senator Chafee. Well, thank you. That's the sacrifice you 
made to be here.
    Mayor Bollwage, did you come by train again this time?
    [Laughter.]
    Mayor Bollwage. I did, Senator. I understand from your 
staff person, Senator, that Senator Lautenberg has used my 
hasty departure as a reason for speeding Amtrak service to 
Washington.
    [Laughter.]
    Senator Chafee. Well, you were successful in your election. 
That's important.
    Mayor Bollwage. Thank you, Senator.
    Senator Chafee. Senator Lautenberg, any questions?
    Senator Lautenberg. Thank you.
    Mr. Reitsma, do you know that your name is a fairly popular 
one in the part of New Jersey that I was born in, an old Dutch 
colony?
    Mr. Reitsma. I'm aware of that, yes.
    Senator Lautenberg. There was a dairy named Reitsma's. How 
did we let you get to Rhode Island?
    I listened to the testimony in the other room. I apologize 
to the two mayors, my friend Mayor Bollwage and Mayor Daniels, 
for not being in the room when you were testifying. But I did 
hear what you said.
    I was curious about, what changed, Mayor Bollwage, in terms 
of the mayors' view on financing? There wasn't the enthusiasm 
in the past that I saw for the brownfields legislation as it 
was originally developed. And now, it's being fairly 
enthusiastically supported in the Conference of Mayors.
    Mayor Bollwage. Senator, on the funding, this legislation 
provides communities with considerable flexibility, which is 
important to the Nation's mayors in securing resources for both 
assessments and cleanup activities, allowing communities to 
seek site-specific resources or to support continuing local 
programs. It also provides the authority to access both grants 
and loan capitalization funds to meet the varying conditions.
    It also provides assurances that the distribution of these 
funds will serve more urban as well as rural needs, Senator. I 
have put this in my testimony in the long form. But I think the 
funding, to the Nation's mayors, by providing various means to 
communities to seek assistance directly, or in partnership with 
other communities in their area through the State, is another 
strong mechanism that this bill provides.
    It also provides flexibility to communities to use a 
portion of these resources to monitor the health of the 
populations in affected areas and monitoring the enforcement of 
institutional controls. Senator, I've also been appointed to a 
committee that is trying to develop a brownfields policy school 
at Rutgers University. And Dr. Michael Greenberg asked that I 
speak last week at the National Academy of Medicine and 
Science, to talk exactly about this issue and how brownfields 
redevelopment could affect the health of the urban communities. 
And this bill addresses those areas in the funding portion of 
the bill.
    Senator Lautenberg. That's good. I understand that you've 
made non-commercial uses of some of these former sites, a 
couple of athletic fields. We focused on some of these types of 
uses in S. 2700 and tried to address concerns raised by local 
governments. Do these special provisions allowing non-
commercial, non-conventional uses of these sites add something 
to the value of this legislation, in your view?
    Mayor Bollwage. That's another reason the Nation's mayors 
are strongly supportive of this, Senator, is that this bill 
also facilitates the opportunity to create more open space and 
create more recreation. In the City of Elizabeth, we took a 
former plastics sites, using Green Acres money on a State 
level, and have converted it into two new little league fields. 
We've taken a waterfront parcel that was vacant for 50 years 
and have built two new soccer fields. We have taken another 
site and are currently in the process of putting state-of-the-
art basketball courts next to the soccer fields.
    So recreation combined with this brownfields plus Green 
Acres funding in our State will allow more of our cities to 
create open space opportunity for the residents of New Jersey.
    Senator Lautenberg. Mayor Daniels, some people have the 
impression that brownfields is largely a northeastern, urban 
issue. And I don't want to suggest that Des Moines is a small, 
rural city. It isn't. But it is in a significantly rural State. 
Do you think that it's fair to say that this wouldn't have the 
same value to communities away from the industrialized urban 
centers of the country as they would in those locations? Does 
it mean much to a place like Des Moines and surrounding areas 
to be able to convert some of these sites now that are not 
doing much or not doing anything except maybe scaring people? 
Is there a value in your kind of community to having these 
sites able to be converted under the scheme that we've outlined 
in S. 2700?
    Mayor Daniels. I'd say definitely yes. I think that's a 
very well-preserved misnomer, that communities the size of Des 
Moines and communities smaller than Des Moines would not seek 
value or find value in this kind of legislation. On the 
contrary, here we have urban sprawl that will rival many 
communities. We have the positive aspects of being able to 
utilize legislation like this early before our sprawl can 
become so wide, consuming, that there's no value in dealing 
with urban sprawl any longer.
    We can take over 300 acres in downtown Des Moines, which 
currently is not being utilized, simply laying there and 
growing weeds, we have a chance to make that downtown living 
destination. As I've said, maybe we're not a New York City, we 
may not have a 24 hour city, but by gosh, we can do an 18 hour 
city that will thrive and do very well. And this helps deliver 
that to us.
    It helps again in ways that were just mentioned in 
integrating activities that we have. We have a waterway, we 
have a major park, a lake that we're revitalizing that sits 
directly across from this area that I'm talking about 
developing. So we can make an integration and move that 
directly across the river with the open space into a living 
area and retail area.
    Senator Lautenberg. And Mr. Reitsma, I don't know whether 
you had talked about a grant that was recently given by the 
Rhode Island Economic Development Corporation and your agency. 
There was a million dollar grant set up for statewide revolving 
loan fund to provide cleanup money.
    What kinds of things are you looking to do with those 
funds? Are they largely commercial, conventional uses? What 
kind of uses are planned for that?
    Mr. Reitsma. Right now, our focus has been largely on the 
commercial redevelopment. But as I mentioned, we are very 
excited by the possibility of broadening the scope of this 
program to include things like greenspace projects as well. We 
have along the Winnasquitucket River, which is a very urbanized 
watershed in Rhode Island, some serious problems with older 
industrial sites that have been abandoned for some time, places 
like you referred to that people may be scared to go to these 
days.
    We have had a greenway project along that river for some 
time that needs to go through these sites. We would be very 
happy to be able to use some of these moneys, both to do a 
commercial redevelopment, but to combine that with some of 
these greenspaces, greenways projects, and having the 
flexibility to use the moneys for both purposes is very 
important to us.
    Senator Lautenberg. Mr. Chairman, I've concluded with 
questions. But it seems to me that there are so many 
opportunities to obtain value from these funds with the kinds 
of uses that I'm sure even the group of us here have not 
thought about. I've seen it used so effectively in Hackensack. 
I don't know, Mayor Bollwage, whether you know the retail site 
on the Hackensack River. Boy, this place, it was nothing.
    And I know these areas intimately, I pass that way all the 
time. And now, 400 people working there, and shoppers coming in 
and life, and revenues coming to the city and good prices 
available, by the way, to the residents that otherwise might 
not be obtained if there wasn't such good competition.
    With the help of these mayors, Mr. Reitsma and others who 
have spoken thus far, I'm encouraged the record will reflect 
that this S. 2700 is a really good way to approach the problem, 
and to offer a solution that can be fairly quickly accomplished 
and at the same time add dimensions of life quality to these 
communities, whether rural or urban, that make a difference in 
the way people view not only their town, but themselves and the 
whole environment surrounding what amounts to community 
participation.
    So I thank you very much, all of you. Thank you, Mr. 
Chairman.
    Senator Chafee. Thank you, Senator Lautenberg. Thank you, 
Mr. Reitsma, Mayor Daniels, Mayor Bollwage, for your testimony 
and the time you took to be here in support of the bill. 
Senator Baucus said it's rare we get to do something so 
positive such as this. And he said he pleaded with you to pass 
it this year, and that's where we're going to put every bit of 
our energy into doing, to help you and your communities and 
States. So thank you once again.
    Mayor Daniels. Thank you, Senator.
    Mayor Bollwage. Thank you very much.
    Senator Lautenberg. There's a copy of the legislation for 
Mayor Bollwage, on the high speed rail service.
    [Laughter.]
    Mayor Bollwage. Thank you, Senator. I'll see you back home.
    Senator Chafee. We'll take a 2-minute break while we change 
panels.
    Welcome. Thank you for taking your time to be here. We look 
forward to your testimony.
    This third panel consists of Mr. Kevin P. Fitzpatrick, 
President of AIG Global Real Estate Investment Corporation, on 
behalf of the Real Estate Roundtable. Welcome. Mr. Alan Front, 
Senior Vice President of the Trust for Public Land. Welcome. 
Mr. William McElroy, Vice President of Zurich U.S. Specialties, 
on behalf of the American Insurance Association. Welcome. And 
Ms. Vernice Miller-Travis, Executive Director of the 
Partnership for Sustainable Brownfields Redevelopment. Welcome.
    Let's start with Ms. Travis. Welcome.

    STATEMENT OF VERNICE MILLER-TRAVIS, EXECUTIVE DIRECTOR, 
     PARTNERSHIP FOR SUSTAINABLE BROWNFIELDS REDEVELOPMENT

    Ms. Travis. Thank you, Mr. Chair. Thank you so very much.
    Good afternoon. As you said, my name is Vernice Miller-
Travis, and I currently serve as the Executive Director of the 
Partnership for Sustainable Brownfields Redevelopment based in 
Baltimore, Maryland.
    The Partnership for Sustainable Brownfields Redevelopment 
is a national, multi-State, non-profit organization comprised 
of the leading organizations and institutions involved in the 
brownfields redevelopment effort. As the focus of the 
brownfields redevelopment effort moves from the Federal 
Government to States and local communities, the partnership 
will serve as a resource for governments, community groups, 
corporations and developers as we move into the new millennium.
    I also serve as a member of the National Environmental 
Justice Advisory Council, where I chair the Waste and Facility 
Siting Subcommittee. Through my participation in NEJAC, I have 
worked closely over a period of several years with EPA's Office 
of Solid Waste and Emergency Response in the development of 
this national brownfields action agenda. I was there at the 
beginning, and I'm proud to say I am still there as a partner 
with EPA.
    In my previous appearances before this subcommittee, I 
represented the Natural Resources Defense Council and the 
environmental justice community. Today I'm pleased to add my 
voice to the chorus of those who support this legislation. I 
would also like to take this opportunity to introduce Ms. 
Donele Wilkins, Founding Director of Detroiters Working for 
Environmental Justice. Ms. Wilkins is one of the leading 
environmental justice advocates in the State of Michigan, and 
serves on the Detroit Brownfields Redevelopment Authority. She 
is submitting her own comments about this legislation for your 
consideration, representing the perspectives of community 
residents at or near brownfield sites.
    Today I am truly pleased to be able to speak affirmatively 
about S. 2700 and its provisions, as opposed to speaking 
against the legislation which has been my posture in all my 
previous appearances before this body.
    I do have a few areas of concerns, but I do want to say 
that I feel a level of excitement at being able to finally, in 
my 7 years of work around comprehensive Superfund reform and 
brownfields, of finally being able to join in with the efforts 
that Congress has made to support brownfield redevelopment and 
revitalization. This is really a new day and we've turned a 
corner, and I thank you so much for the opportunity presented 
in this legislation.
    My general review of the legislation in consultation with 
embers of the board of the Partnership for Sustainable 
Brownfields Redevelopment as well as consultation with several 
other brownfields stakeholders across the country is that S. 
2700 is a well crafted, useful, creative approach to 
brownfields redevelopment. That being said, I want to raise a 
few general concerns, most of which are contained in my written 
testimony. But one in particular, my biggest area of concern is 
the blanket delegation of enforcement authority for brownfields 
redevelopment to State voluntary cleanup programs.
    The legislation assumes that all States have the resources 
to implement a vigorous voluntary cleanup program that can 
assume the enforcement responsibilities that EPA has heretofore 
held. For a variety of reasons, this assumption is not 
accurate. All States are not equal in terms of the resources 
available to them to implement and maintain strong voluntary 
cleanup programs.
    Some States, as a matter of political philosophy, are 
opposed to vigorous enforcement actions that they believe will 
diminish the interests of private developers in purchasing and 
redeveloping brownfields sites within their States. In these 
States, local communities, especially low income and 
communities of color, are facing an uphill battle when trying 
to get State and local agencies to balance economic development 
considerations with the need for environmental and public 
health considerations.
    To address this particular concern, I suggested the 
legislation include language that States would have to 
demonstrate to EPA the existence and effectiveness of a State 
voluntary cleanup program before the State could receive 
delegated enforcement authority for a brownfields program. 
Through this process, the State would need to certify that they 
indeed have an established program of corrective action, to 
clean up and redevelop brownfields sites. The State would also 
need to demonstrate that their corrective action program has 
been and can be implemented consistently across the State in 
all communities, regardless of race, ethnicity or economic 
status.
    Time does not permit, but I can tell you stories about 
where that is not in fact the case in many, many States, my 
home State of New York being one of them.
    Title II of the bill, Brownfields Liability Clarifications, 
is perhaps the most creative and forthright legislative attempt 
to address innocent third party and prospective purchasers in 
the chain of liability while maintaining and preserving the 
principle of strict joint and several liability, a phrase which 
I'm happy to say, as I move on to a new stage in my career, 
soon I will never have to mention that term again, strict joint 
and several liability.
    The proposed amount of the appropriation of Federal moneys 
to accompany this bill is a welcome increase in proposed 
Federal brownfields dollars, as is the definition of eligible 
entities who can access these dollars and the expanded 
definition of what is an eligible recipient activity or use. 
The section of the bill entitled mechanisms and resources to 
provide meaningful opportunities for public participation and 
mechanisms for approval of a cleanup plan are especially 
appreciated as delineated sections of this legislation.
    Last, the language included in section 128, brownfields 
revitalization funding, which basically talked about 
greenspaces, open spaces, park land, is a welcome addition to 
the legislative thinking about what constitutes a beneficial 
re-use of a brownfields site. It also affirms the perspective 
that a beneficial re-use can be something other than a 
commercial or industrial re-use of a brownfields site.
    Additionally, Subsection B, the extent to which a grant 
will meet the needs of a community, is the first legislative 
attempt to codify the needs of local communities as a paramount 
consideration in the brownfields redevelopment arena. We are 
truly, truly thankful for many of the provisions that are 
contained within this bill.
    I have specific comments, section by section, which you and 
your staff will go through, I'm sure. But I just wanted to add 
one more piece in terms of the actual body and language of the 
bill. Section 129, State response programs, Subsection 1 on 
enforcement and public record talks about the need of using 
institutional controls and how they can be a good part of a 
brownfields program.
    I suggested somewhat of a change in the language, that the 
public record shall identify whether or not the site on 
completion of the response action will be suitable for 
unrestricted use and if not, shall identify the institutional 
controls relied on in the remedy and how the institutional 
controls will be enforced and monitored over time.
    Communities have profound concerns about the blanket use of 
institutional controls and the fact that from one 
administrative change to another at the gubernatorial or local 
legislative level, no one is there to monitor the use of 
institutional controls and how in fact they are enforced over 
time. Lest we forget, Love Canal had an institutional control 
and a deed restriction which no one ever saw and no one ever 
promulgated to protect those communities.
    Last, on the question of the need for comprehensive 
Superfund reform, as a precursor to legislative action on 
brownfields, I believe that that is a misguided thought at 
best. Currently in New York State, there is a absolute 
legislative morass that has engulfed the Governor, the State 
legislature, the development community and the environmental 
community in not being able to break through a balance between 
the need for brownfields legislation versus a complete review 
of the Superfund program in the state of New York and the 
State's voluntary cleanup program.
    I do not believe that they will be moving through that 
morass into legislative action. Hopefully they will look to the 
efforts that you have made here as a direction that they can go 
in to see their way clear.
    The environmental justice perspective on brownfields 
redevelopment is that these sites must be viewed as a component 
of a broader economic and community revitalization strategy, a 
strategy that seeks to rebuild and revive these long dormant 
communities into healthy, safe and economically viable areas. 
That is what we mean by the term sustainable brownfields 
redevelopment.
    Back home in our respective communities, we are witnessing 
brownfields programs and projects that promote economic 
opportunities for entities other than the long suffering 
residents of these communities and the small business owners in 
our Nation's most economically, environmentally deprived 
communities, where the bulk of the brownfields sites are 
located.
    We are also witnessing successful brownfields projects that 
have mushroomed into wholesale gentrification of our 
communities. For example, in Jersey City, New Jersey, with the 
Newport Mall, development in downtown Detroit, and in fact, in 
my own home community, the 125th Street commercial corridor 
where Disney now has been brought to 125th Street, and oh, we 
are not all happy.
    We believe that real economic development is that which 
enhances the quality of life of community residents and 
improves economic opportunities for community businesses. We 
believe that the issue of sustainable brownfields redevelopment 
is crucial to pursuing a different path toward community 
redevelopment and revitalization in this new century. Sound and 
sustainable brownfields redevelopment is one of the critical 
issues of our time, and this bill takes a significant step in 
the right legislative direction.
    Finally, it is clear to me that the crafting of this bill 
was achieved through major bipartisan give and take and 
consensus building. Please know that your staff efforts and 
your Congressional leadership are very much appreciated, and we 
look forward to your continued support on brownfields 
redevelopment and community revitalization.
    Thank you for the opportunity to share my thoughts about S. 
2700.
    Senator Chafee. Very good thoughts, Ms. Travis, indeed. 
You're knowledgeable on this issue.
    Ms. Travis. Thank you.
    Senator Chafee. How long have you been working on it?
    Ms. Travis. Probably my entire professional career on 
community economic development and revitalization. I'm from 
Congressman Rangel's congressional district in New York, I 
lived there for 40 years and now I live here in Prince George's 
County, Maryland. So my life has sort of been the issue of 
brownfields redevelopment.
    Senator Chafee. Good. Thank you very much for your 
participation and support.
    Ms. Travis. Thank you.
    Senator Chafee. Let's hope we can get it passed this year, 
so you won't have to talk about joint and several----
    Ms. Travis. Strict joint and several.
    Senator Chafee. Yes, strict joint and several liability.
    [Laughter.]
    Senator Chafee. Mr. McElroy.

  STATEMENT OF WILLIAM MC ELROY, VICE PRESIDENT, ZURICH U.S. 
                          SPECIALTIES

    Mr. McElroy. Thank you, Mr. Chairman. It's an honor and a 
pleasure to be here today to speak in support of S. 2700. I'm 
grateful for that opportunity.
    My name is William McElroy. I'm here as a representative of 
the American Insurance Association.
    AIA is a trade association of 370 major property and 
casualty insurers in both the commercial and personal lines 
area who account for over one-third of the property and 
casualty insurance marketplace in the United States.
    I'm also the Vice President of Zurich U.S. Specialties, a 
leading specialty lines insurer, where I'm responsible for the 
environmental risk profit center. One aspect of our 
environmental risk underwriting practice involves providing 
insurance coverage to real estate developers.
    Some of our customers are actively engaged in brownfield 
redevelopment as part of their business strategy. Member 
companies of Zurich U.S. have insured hundreds of brownfield 
and other environmentally sensitive real estate projects from 
Massachusetts to California. These are varied in scale from 
former gas stationsites that are now restaurants to the 
privatization of former military facilities, such as the 
current civilian redevelopment of the Presidio in San 
Francisco.
    While we are proud of the work on these projects, they are 
but a fraction of the tens and hundreds of thousands of sites 
around the country. It is likely that the first projects to be 
successfully accomplished are the most obvious and potentially 
most profitable ones. The key provisions of the bill provide 
targeted funding and administrative support to help State and 
local governments identify, classify and market the more 
problematic properties, sites that might otherwise go unnoticed 
to developers.
    In some cases, with grants providing direct funding for 
cleanup activities in local governments, it will permit 
projects to succeed when the economics of the project would not 
support funding remedial measures necessary to protect human 
health and the environment.
    Title II of the bill appears to us to be an appropriate and 
measured response to recognizing new site owners and their 
willingness to provide new values to the community. It further 
draws the distinction between owners of tainted properties and 
the unfortunate neighbors of contaminated properties whose land 
has been impacted by these environmental conditions. Moreover, 
it provides clarification to the concept of innocent ownership 
already embraced within the intent of previous legislation 
amending CERCLA.
    This should help would-be buyers of brownfield properties 
acquire stable financing to implement their plans. Great care 
has been taken in the crafting of the bill to ensure that this 
protection is not provided to people who knew or should have 
known of site contamination have not taken proper action when 
these conditions became apparent. This will ensure that sound 
and informed judgment be employed by the sponsors of 
redevelopment projects.
    Title III of the bill makes the provision for funding 
insurance trust funds or pools to foster brownfields 
redevelopment. I must note that there is already a growing 
private sector market for environmental insurance available to 
real estate developers. While we recognize that the private 
insurance industry does not have all the answers to this 
problem, there is a history of public sector entry into the 
field through so-called LUST Trust funds that is highly 
questionable.
    In addition to stifling the private insurance marketplace, 
some of these programs have operated in a manner that lacks the 
very financial responsibility they seek to foster. In the 
implementation of this provision, great care must be taken to 
assure that Government-funded insurance programs are not 
permitted to compete or discourage a vibrant private insurance 
market.
    We believe this bill can help unlock the market value 
hidden in certain environmentally impacted sites and in so 
doing, these otherwise valuable properties can re-enter and 
remain in the stream of commerce where they will generate the 
economic growth on which our communities depend. And we applaud 
your bipartisan efforts in making this a reality through S. 
2700.
    Thank you.
    Senator Chafee. Thank you very much, Mr. McElroy.
    Mr. Front.

 STATEMENT OF ALAN FRONT, SENIOR VICE PRESIDENT, THE TRUST FOR 
                          PUBLIC LAND

    Mr. Front. Thank you very much, Mr. Chairman, and I am Alan 
Front, representing the Trust for Public Land.
    If I may, I'd like to cast some appropriate laurels back 
across the witness table to the two of you sitting on the dais. 
In our work in Rhode Island, on the previously mentioned 
Winnasquitucket Greenway and elsewhere, we have seen, Senator, 
your commitment to exactly the principles of environmental 
justice, of brownfields cleanup, of open space protection that 
this legislation embodies.
    And in our long work in New Jersey, from the highlands to 
the meadowlands to the pinelands to all the other lands, and 
the refuges and the inner city of Newark, we have long 
recognized, Senator Lautenberg, that your commitment and your 
care and your effectiveness in defense of both the built 
environment and the natural environment is really unparalleled.
    So we're not surprised, but we are certainly gratified that 
the two of you, working with Senator Smith and Senator Baucus 
and your wonderful staffs, have put together legislation that 
we're very pleased to embrace today.
    Much has already been said about the importance of 
protecting, reclaiming brownfields, the salutary effects of 
brownfields restoration on local economies, the need to pass S. 
2700. So if I may, I'd like to associate myself with the 
remarks of almost everyone else who has spoken thus far today.
    And then I'd like to offer a brief and somewhat different 
perspective as the conservation green hat at the witness table 
today, a perspective that's born of our longstanding commitment 
to the urban sector, our Green Cities initiative, which is 
focused on brownfields and other urban parks work, our founding 
and spinning off of one of the Nation's first brownfields 
recycling non-profits. And from that perspective, from those 
labors in the vineyard of brownfields, we have seen the 
inexorable connections between open space protection, 
development and redevelopment and brownfields reclamation.
    We have had deep and longstanding experience in 
brownfields. In fact, as we've worked in the urban sector more 
and more of the properties that we've come across and looked to 
protect have had some sort of brownfield association. And so 
again from that perspective, I have submitted a more detailed 
statement and also would like to offer for the record, I feel a 
bit like Senator Joe McCarthy, but I have here a letter with 
the names----
    [Laughter.]
    Mr. Front.----of a number of other supporters who are not 
yet on your list, but hopefully will be added after this 
hearing.
    But having submitted that material, I'd like to touch 
briefly upon just three major points that I hope that you will 
consider as you consider S. 2700 and as we hope you advance it 
toward enactment.
    First, from an oil tank farm in Pensacola, Florida to an 
abandoned rail yard in Santa Fe, New Mexico, to the derelict 
sports stadium outside of Cleveland, Ohio, there are a number 
of brownfields, a host of brownfields across the country whose 
most appropriate disposition is ultimately as park land. Many 
of you all know that there have been a number of local bond 
issues and voters continue to vote to fund acquisition and 
development of those sorts of places. We have seen private 
philanthropy increase. The environment committee just 
considered a couple of weeks ago legislation known as CARA that 
would provide a meaningful Federal commitment ongoing for open 
space protection.
    But what has been more elusive as we have had all of these 
tools for open space conservation, what's been more elusive is 
the formula for assessment and cleanup of brownfields. We have 
long hoped for some Federal mechanism, a fitting Federal 
investment in brownfields cleanup, in brownfields assessment. 
And especially with its commitment to open space protection and 
to underserved communities, S. 2700 certainly answers that 
prayer.
    Second, I'd like to touch upon sprawl for just a moment. 
There are certainly a number of brownfields that are most 
appropriately redeveloped to add to housing stock, to add to 
commercial vitality, to bring jobs and homes to people in 
communities that are brownfields affected. And those are the 
most appropriate uses for those properties.
    At the same time, beyond the cleanup environmental value, 
there's another environmental value to those restoration and 
redevelopment projects. And that environmental value is to help 
stem the tide of sprawl. According to the Department of 
Agriculture, since I began talking to you over these last 4 
minutes, according to the yellow light, 20 some odd acres of 
greenspace have vanished. Since you began this hearing this 
afternoon, almost 800 acres of greenspace have been laid claim 
to by development. Maybe appropriate development, but 
development that maybe could have been refocused elsewhere, 
other places where infrastructure was already in place, other 
places that already been developed once and would be best 
developed twice.
    That's what this bill encourages. And so again, S. 2700 
provides a wonderful tool to help prevent sprawl.
    Last, I know the saying is, it's the economy. I guess that 
saying has another word, but it's not accurate or appropriate 
to mention. It is the economy. Brownfields cleanup is about 
economic growth. And in fact, conservation of brownfields is 
about economic vitality, bringing a new face and new life to 
disadvantaged communities. And we have seen it over and over 
again. We've seen it in the Los Angeles River, we've seen it on 
the Miami River, the Portland, Maine waterfront and the 
Portland, Oregon waterfront. All of these places, conservation 
of previously contaminated or abused or abandoned or idle 
properties has brought new economic vigor to communities that 
previously lacked exactly that sort of benefit, exactly that 
sort of conservation boost to their own community life.
    And so, for reasons of sprawl control, for reasons of 
economic investment, for reasons of economic and social justice 
and certainly from that green hatted perspective, for reasons 
of open space conservation, the funding mechanisms, the tools 
that S. 2700 provides are a very welcome addition to the tool 
box that already exists. It's a wonderful Federal joining of 
the partnership that already exists. And we appreciate all of 
your help in making it happen.
    Thank you very much.
    Senator Chafee. Thank you, Mr. Front, for your kind words 
and your support.
    Which Cleveland sports stadium is a brownfield site, out of 
curiosity?
    Mr. Front. It's the Richfield Coliseum, which was a huge 
tower of asbestos and concrete that we knocked down and added, 
with the Park Service's help, to the Cuyahoga National 
Recreation Area, now it's restored as meadow.
    Senator Chafee. Thank you.
    Mr. Fitzpatrick, welcome.

 STATEMENT OF KEVIN P. FITZPATRICK, PRESIDENT, AIG GLOBAL REAL 
   ESTATE INVESTMENT CORPORATION AND CHAIRMAN, ENVIRONMENTAL 
     POLICY ADVISORY COMMITTEE, THE REAL ESTATE ROUNDTABLE

    Mr. Fitzpatrick. Thank you. Thank you, Chairman Chafee and 
Senator Lautenberg.
    As you mentioned, I'm Kevin Fitzpatrick, I'm President of 
AIG Global Real Estate, which is a member company of American 
International Group, the insurance and financial services 
company. Today I'm here speaking on behalf of the Real Estate 
Roundtable.
    Its members have long advocated Federal policy reforms that 
will facilitate, rather than undermine, the efforts of local 
communities across the country to advance smart growth. The 
Brownfields Revitalization and Environmental Restoration Act of 
2000, or S. 2700, includes just these kinds of policy reforms. 
We have done a good job in this country of encouraging 
recycling in the area of consumer goods, such as plastic, 
bottles and paper. In our view, it is time that we made the 
same national commitment to recycling our Nation's blighted 
urban and rural brownfields properties. S. 2700 provides the 
real estate industry and its partners in State and local 
governments with a detailed road map for doing just that.
    Among those blighted properties the ones that often suffer 
the greatest market stigma are those with actual or simply 
perceived environmental issues. With the help of the economic 
and regulatory incentives included in S. 2700, many of these 
properties can be recycled to serve the commercial, 
residential, retail and recreational needs of the information 
age and its so-called new economy.
    Today, companies that acquire certain environmentally 
distressed real estate also end up acquiring the market stigma 
and the uncertainties associated with Superfund cleanup 
liability. In the past, our members have testified before the 
subcommittee that innocent parties that act responsibly in the 
redevelopment of these sites should not be punished by Federal 
laws.
    The real estate industry is fully prepared to take the 
business risks associated with any prudent real estate project. 
But for the most part, however, the development community is 
not prepared to take the kind of litigation and liability risk 
presented by many brownfields projects.
    In short, when Congress passed the Superfund law in 1980, 
nobody contemplated the possibility that the law would actually 
serve as a barrier to cleanups, cleanups that real estate 
companies might otherwise be willing to pursue at their own 
expense. S. 2700 will go far to correct the unintended 
consequences of Federal policymaking.
    A growing number of States have initiated voluntary cleanup 
programs, VCPs, that provide participants with authoritative 
comfort regarding the limits of their residual risk of cleanup 
liability under State law. S. 2700 will strengthen these 
programs in a number of ways, both legally and financially.
    In our view, the greatest asset this legislation will offer 
State VCPs is the ability to extend the zone of comfort many 
now offer brownfield redevelopers, so that it responds to 
liability concerns under the Federal superfund law. S. 2700 
includes a provision that will, in most cases, reassure 
participants and State voluntary cleanup programs that their 
State approved cleanup is not likely to be second guessed by 
Federal authorities. This so-called finality assurance is 
crucial, not only to potential buyers and sellers of brownfield 
properties, but to their financial partners as well.
    Finally, S. 2700 builds on the valuable work of the 
Environmental Protection Agency in developing administrative 
reforms in the area of prospective purchaser and adjacent 
landowner protection. The prospective purchase and adjacent 
landowner provisions in S. 2700 will provide self-implementing 
and legally enforceable protections for would-be brownfields 
redevelopers.
    I hope I have made it clear that with so many other 
investment options available at any given time, this prospect 
of open-ended liability under the Superfund remains a deal 
killer. If, however, the Superfund law were changed along the 
specific lines of S. 2700, so that the potential liability of 
would-be purchasers and redevelopers of brownfields became 
better defined, the real estate community would be far more 
ready, willing and able to invest private capital into these 
sorts of projects.
    Thank you.
    Senator Chafee. Thank you, Mr. Fitzpatrick. It's been 20 
years since Congress passed the Superfund legislation. And as 
you said, who could have envisioned it would be a barrier, 
potential barrier to redevelopment of these sites. But here we 
are 20 years later, and we're going to try to get it done, as I 
said.
    Senator Lautenberg, any questions?
    Senator Lautenberg. Just a couple of things. Mr. Chairman, 
if I might observe, my thanks to all of the witnesses for their 
testimony. I think each of the particular perspectives that you 
bring here are very helpful, whether it's insurance, real 
estate, community or the conservancy.
    I know Alan Front fairly well, and I thank him for his work 
on finding suitable properties and matching those with suitable 
donors, so that the communities have done well as a result of 
the efforts. They can give you chapter and verse, as you heard, 
about sites that were cleaned up and turned into not only 
profitable, and I use the word profit not just in financial 
terms, but in terms of the community's well-being.
    We've had a good time, we've worked together on several 
things, including some nice forest land from which you can see 
New York City's towers, a place called Sterling Forest. We both 
worked extensively up there, even preserving the timber 
rattlesnakes' lair, making sure that they weren't wiped out in 
the process, nor did they wipe us out as we looked at them.
    The focus, Mr. McElroy, coming from your particular 
alignment with the American insurance industry, what do you see 
from your perspective as the key factor in 2700 that you feel 
is of value to the members of your association and will in turn 
sell services to the community at large?
    Mr. McElroy. Well, Senator, as you know from your days in 
the business world, you know that the opportunity to make a 
business decision often hinges on very small differentials in 
cost and the cost of capital and how one proceeds with a 
specific business plan. We think that the funding that exists 
for certain of these projects that will get projects over the 
hump, which will spawn the economic development in an area, 
gives us the opportunity to serve our clients and do more 
business in communities where we may not be doing it today.
    The big attractive projects go forward very quickly. And 
they have the native values in them to fund remediation. Some 
of the smaller projects in difficult areas don't have that, and 
you focused funding on targeting those very issues. And that we 
think is very important.
    Senator Lautenberg. Well, the liability issues are very 
important, fixing the amount of risk that one takes. When they 
make an investment, not winding up with a liability that far 
exceeds the total value of the investment. I assume that's 
important.
    Mr. McElroy. A very important issue to us, Senator. And 
that you have clarified the notion of the innocent landowner 
provisions in CERCLA already. This is a further clarification. 
We hear a lot from our customers who attempt to borrow money to 
do these projects, and the efforts that you've made to hold 
that liability off of the truly innocent, with the stipulations 
that one has to do appropriate inquiry into the circumstances, 
is the right balance between responsibility and innocence in 
the process.
    Senator Lautenberg. Mr. Fitzpatrick, we're glad to see you 
here, too. I know your company very well, and I know Mr. 
Greenberg. I remember our days at faceoff, as we might call it, 
Superfund liability questions. We had a couple of very 
interesting----I don't live to fight, but I fight to live.
    [Laughter.]
    Senator Lautenberg. I am glad to see you here, to get your 
perspective. We've gotten good support from the real estate 
community at large in addressing this issue. I don't know 
whether you have some examples from your industry of potential 
redevelopment projects of brownfield sites which have been 
difficult to carry through due to the funding, the fear of the 
unknown.
    And this changes the dimension or the proportion of the 
sites that can be attended to, those that don't require huge 
investments, that aren't macro size things that make such a 
difference in the area that they're found in, because they're 
viewed as discarded sites and who cares kinds of things. Ms. 
Travis, you know just what I'm talking about. Because people 
are coming into a lot of the sites in our industrial 
environment and building a mini-size businesses and so forth. 
And the big ones just don't fit.
    So what do you see in this bill that particularly, and I 
know I looked at your testimony, that would help particularly, 
be advantageous in helping some of your colleagues in the real 
estate business to get on with turning their skill and their 
expertise into creating sites that are going to be beneficial? 
Is there any particular thing in S. 2700 that you find?
    Mr. Fitzpatrick. There sure is, Senator. I think the issue 
of certainty is really the question and the biggest problem 
that we encounter is the issue of liability. Many times it's 
not only us as a purchaser but also the seller and what 
liabilities remain with them as the seller of the property. The 
insurance community has been very creative in coming up with a 
number of products that are available on the market that I 
think need to be expanded further, at least market acceptance, 
and people feeling comfortable that the insurance companies can 
insure around a certain part of the liability.
    But I think your bill goes a long way to removing a lot of 
the uncertainty, and also the issue of finality. I think 
finality is really critical.
    We're working on a number of different projects around the 
country. As you know, from dealing with Mr. Greenberg, we're in 
the business to make money.
    Senator Lautenberg. And he does it very well.
    Mr. Fitzpatrick. He does a good job at it. Everything that 
we do always has a commercial orientation to it. And we see 
brownfields in a number of different ways, some smaller 
projects that need to be cleaned up, but also more and more 
people are feeling comfortable to take on the liability. I 
think the certainty contained in S. 2700 will encourage many 
more developers to take on the liability risks and be able to 
move forward. Because capital is very smart, very shrewd, has 
many opportunities and will move in a lot of different areas. 
If they don't feel comfortable in the environmental area, they 
just won't bother to invest.
    We feel comfortable because of our experience in the 
insurance on the environmental side, and have made quite a bit 
of investments, our largest investment is an Atlantic Steel 
site in Atlanta. And although I'm from your home State of New 
Jersey, I'd like to see more done in New Jersey, but we're 
working in Atlanta. It keeps me up at night time worrying about 
the liability.
    Senator Lautenberg. I'm sure that's the case. It's a 
question of whether in fact, it's not just the liability, the 
extent of the risk that one has to consider, but rather what 
are we getting ourselves into that creates a degree of 
uncertainty, that people just say, oh, the devil with it, we 
can find other, especially in times like these, we can find 
lots of places to put money and to do things. I thank you.
    I wonder, Ms. Travis, you've had experience working in 
different parts of the environmental world. One of the things 
that I've seen, I grew up in an urban center, New Jersey, 
Paterson, New Jersey, and know the State so very well. I can 
call off city after city that's been part of the heat that 
people throw kind of discards to and say, oh, why bother.
    Those communities, these urban centers that are largely 
poverty ridden and when the national highway system was 
created, there was an unexpected, unanticipated effect. That 
is, it gave people a chance to leave the cities behind and go 
get the security in the suburbs and take away the income base, 
the real estate opportunities, etc. People didn't want to 
bother.
    As a consequence, despair got despair. And this is one way 
of kind of lifting up the spirits and making a difference in 
the community. I'm sure you've seen it. You had your service 
with NRDC. And now doing what you're doing. What do you see in 
this bill of ours, this opportunity to take, for relatively 
small amounts of money, too. Interesting. You're not talking 
about a $20 million land site. You're talking about something 
else. What do you see as our biggest attraction here?
    Ms. Travis. Well, unlike the first statement made by the 
Senator at the beginning of the hearing about the need to have 
comprehensive Superfund reform first in order to move this 
issue, I think that's one of the reasons that we haven't been 
able to grapple with this issue, because people cannot 
intellectually delineate the difference between Superfund and 
brownfields.
    Strongly enough, it's been a huge problem within the 
environmental justice and environmental community, trying to 
get State agencies and local governments to really look at 
difference between the sites. What we were seeing, until this 
legislation and up until this very moment is a collapsing of 
sites that would otherwise be defined as a State superfund 
site, not necessarily rising to the level of an NPL, but 
certainly requiring very focused attention and resources to 
clean up and remediate before redevelopment.
    And there was a rush, when EPA first sort of put out the 
call about the national brownfields action agenda, everyone was 
excited about it, because it did create the opportunity to take 
a new look at these sites. But what communities were finding 
was that in the rush to create new economic opportunity, 
everything was being classified as a brownfield site.
    So sites that really required much more focused attention, 
perhaps some more extensive remediation, were given cursory 
remediation and then a redevelopment which continued some of 
the same environmental problems that existed on the site in the 
first place, and also promulgated additional public health 
considerations.
    We had a devil of a time. And until this legislation, I 
mean, in the legislation you really go down the line and tick 
off what does not constitute a brownfield site. This is the 
first time in any of the Federal bills that have been put 
forward to address brownfields that such attention has been 
paid to clearly separating what is a Superfund site or what 
would be in a State voluntary cleanup program, what is a 
brownfield site.
    I think we have to remember what EPA's original conception 
was is that a brownfield site is something that has limited and 
minimal contamination, and because it does have limited and 
minimal contamination, you can create all kinds of new activity 
with relatively little investment at the front end and low 
levels of remediation. You've given us a real opportunity to do 
lengthy issues and to really move forward in a substantive way.
    And then you talked about money, a real significant 
appropriation of dollars to help States and local governments 
advance that. So you've really addressed a number of the 
lingering issues out there that were really unclear, out in the 
public sector. You've given us some real direction and 
clarification. And at least from the environmental justice 
perspective, we truly appreciate it. We really do.
    Senator Lautenberg. Thank you. We tried to get community 
participation with these TAG grants of ours. And it made a 
difference. When you say to an area where people's incomes are 
really modest, low income, and you say, well, get the community 
together, well, how do you do it? But if there is a $25,000, 
$50,000 investment in bringing the people together, getting the 
materials necessary, it makes a reality out of just a hope.
    And Alan, again, having worked with you and your 
organization, you look at the greenspaces and we look at the 
green that comes from hard work, people's opportunity. Where 
have you seen these relationships just be almost symbiotic, 
where greenspace comes and the jobs and good spirit that 
follow? You mentioned a few before, but I'll bet there are some 
sites that are just specific.
    When you talk about the stadium and that kind of thing, 
you're not talking about brownfield sites, you're talking about 
something much larger. How about small sites? Does the Trust 
for Public Land, I called it the conservancy before, I forgot 
the competition isn't represented here today. But have you seen 
or do you work with some of these smaller sites where 
brownfields really have a unique role to play?
    Mr. Front. Absolutely, Senator. In fact, we've been deeply 
involved in a couple of economic revitalization programs in 
different communities where small park acquisitions are one of 
the keys to building the mosaic tile by tile to restore a 
community.
    That certainly was the case in Atlanta in the Martin Luther 
King national historic site area, where a restoration of the 
entire Sweet Auburn neighborhood, one small property at a time, 
has actually led to an economic revival in that neighborhood. 
We have seen that in the community gardens of East Oakland. We 
have seen it in some very small but pivotal sites in some of 
the border towns in Texas.
    So community needs range from huge economic developments 
like in the Chattanooga Riverfront, the Tennessee River, where 
cleanup and major park land and redevelopment effort along the 
river spawned better than a billion dollars of private 
investment to really change the shape of the city. But from 
those large scale projects down to the very smallest projects, 
to some extent, the tools and the dynamics are almost the same. 
It's just a question of whether or not those partnerships can 
get forged.
    And because I've already agreed with everyone else's 
statements, I'd like to agree with Vernice's answer to her 
question from you, which is that in fact, there is a desperate 
need out there, your Section 128 dollars. There's a desperate 
need for a sizable investment, so that not only can there be 
some seed money for some of these bigger initiatives, but 
specifically so the next Sweet Auburn, so the next East 
Oakland, so that the next Los Angeles River can get cleaned up, 
and that process of redemption can start.
    Senator Lautenberg. I'd like to thank all of you. Mr. 
Chairman, my compliments that you continue in the tradition of 
John Chafee, who was respected, revered and loved by so many. 
And his goal of environmental improvement was the mark to which 
this committee often toed. Thank you for continuing in that 
vein.
    Senator Chafee. Thank you, Senator Lautenberg, for your 
leadership on many issues, environment being one of many 
national issues which you're a leader on. So thank you.
    And thank you, panel for your participation. Safe travels 
back. And we have still work ahead of us.
    I'd also like to thank Lisa Hagee, Kristen Rohr and Barbara 
Rogers, who worked very hard on this legislation. Also Chairman 
Smith, who wasn't able to be here, but a critical participant 
in this legislation. And Senator Baucus and Roger Platt, from 
the Real Estate Roundtable, one of our first supporters on the 
day we announced the bill. And thank everybody else, who has 
put their oar in the water on behalf of this legislation.
    Have a good evening. Meeting is adjourned.
    [Whereupon, at 4:27 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]

    STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE STATE OF NEW 
                               HAMPSHIRE

    Good Afternoon. Thank you very much Senator Chafee. I'd like to 
welcome the witnesses here today, particularly those who traveled some 
distance to be here.
    As the former Superfund Subcommittee chairman, I have worked on 
Superfund issues for a long time. Today, we receive testimony on the 
first bipartisan bill amending Superfund to be introduced since the 
103d Congress.
    This bill enjoys bipartisan support because of the recognition that 
today's environmental problems cannot be addressed by yesterday's 
solutions and that we must strive to allow for the sustainability of 
our environment, our resources, and our economy in order to succeed as 
policymakers.
    The U.S. Conference of Mayors has estimated that more than 450,000 
brownfield sites exist around the country. These sites endanger human 
health and the environment, force alternative greenfield development, 
and discourage the revitalization of areas in desperate need of 
economic development.
    Under current law, incentives do not exist to clean up and develop 
these sites; in fact, quite the opposite, disincentives and fear of 
liability prevail. Although the level of contamination at many of these 
sites is relatively low, and the potential value of the property may be 
quite high, developers often shy away from purchasing and developing 
these sites because of the current status of the Superfund law.
    To address these disincentives, EPA developed the National 
Brownfields Program. This Program provides funding to assess brownfield 
sites, but involves a cumbersome application process, and does not 
address the underlying fears of liability that exist under current law. 
This program is a good first step; but, in order to reach its full 
potential, we must guide the efforts of EPA by authorizing the Program.
    Addressing the fear of Superfund liability is just as important, if 
not more so, as providing funding for site assessments and revolving 
loan funds. S. 2700 provides not only funding for assessments and 
revolving loan funds, but for the remediation of sites and the 
enhancement of state programs as well. The bill includes clarifications 
of the liability scheme to ease and encourage the transfer of 
properties to those willing to clean up and develop. These 
clarifications protect prospective, contiguous, and innocent landowners 
from liability.
    The bill also addresses the fear of Superfund liability by 
providing a final decision point for assessing liability; that decision 
point rests with the States. To do this, the bill restricts EPA's 
ability to second-guess decisions made at sites cleaned up under a 
State Voluntary Cleanup Program, except in limited circumstances. In 
addition, the bill builds on the ability of the States to clean up 
contaminated sites by providing that EPA defer NPL listing of a site to 
a State program at the request of the State.
    The need for this legislation, as well as a future comprehensive 
reform bill, is supported by the conclusions of a recent GAO report 
examining the effectiveness of the reforms instituted by EPA in the 
Superfund program. The results found that three-fourths of the 62 
reforms implemented by EPA are ineffective or unmeasurable. The study 
also found that the implementation of reforms peaked in 1997 and has 
declined since that time, thus indicating that further action is 
needed.
    As demonstrated by the findings of this study, there is a 
continuing need for reform of Superfund. I plan to work toward that end 
next year, however, an even more pressing need exists today. That need 
is to ensure the few reforms that are working continue to be 
implemented. Of the 7 reforms that GAO found to demonstrate positive 
results, 4 affect the management and cleanup of brownfields. To 
continue the work EPA is doing and to better guide their efforts, the 
passage of BRERA is essential.
    Some members of the committee believe that taking brownfields out 
of a comprehensive reform package will jeopardize future Superfund 
reform. I feel that we can move forward with brownfields without 
compromising comprehensive reform. The funding, liability 
clarifications, and state finality afforded by this bill will ensure 
these sites are cleaned up, never becoming Superfund sites, and 
resulting in an improved quality of life for all of us.
                                 ______
                                 
                                    Real Estate Roundtable,
                                                      June 8, 2000.

Hon. Robert Smith, Chairman,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510.

Dear Senator Smith: I am writing on behalf of the Real Estate 
Roundtable to express our members' enthusiastic appreciation for your 
proven commitment to the pressing national issue of brownfields 
development.
    Congratulations are in order to all the lawmakers involved in 
developing ``The Brownfields Revitalization and Environmental 
Restoration Act of 2000'' (BRERA). This important new legislation would 
make welcome reforms to the Comprehensive Environmental Response, 
Compensation, and Liability Act or ``Superfund'' law. The bipartisan 
spirit in which you have worked to achieve consensus presents a model 
for practical and effective progress in that often divisive realm of 
environmental policymaking.
    There are brownfields in every state--and almost every community--
in this country. If enacted into law, BRERA would significantly advance 
the economic prospects for remediating and recycling those properties 
into a broad range of productive uses. The economic and regulatory 
incentives included in the bill would help thousands of brownfield 
sites across the country become vibrant new employment centers. In 
other cases, the cleaned-up properties would provide many communities 
with environmentally sound housing alternatives.
    As you know, the Real Estate Roundtable's members are America's 
leading real estate owners, advisers, builders, investors, lenders, and 
managers. The Real Estate Roundtable (and its predecessor organization, 
the National Realty Committee) has long supported enactment of 
bipartisan legislation that includes meaningful incentives for 
brownfields redevelopment. BRERA is clearly just such a piece of 
legislation.
    In particular, the proposed legislation would go far in assuring 
those parties purchasing already contaminated ``brownfields'' 
properties that they have not also acquired unwarranted Superfund 
liability. Such assurance is critical to successfully financing and 
closing on brownfields transactions. In addition, we are pleased the 
bill recognizes the need to clarify the innocence of those individuals 
or companies whose real property has become contaminated simply because 
hazardous substances have migrated from adjacent sites.
    The legislation also includes a provision that will, in most cases, 
reassure participants in state voluntary cleanup programs that their 
state-approved clean-up is not likely to be ``second- guessed'' by 
Federal officials. This so-called finality assurance is crucial not 
only to potential buyers and sellers of brownfields properties but to 
their financial partners as well. The bill presents a welcome 
compromise on a very difficult policy challenge. While not as air-tight 
an endorsement of State primacy in this area as we have supported in 
the past, the provision represents substantial progress in finding a 
bipartisan resolution to a crucial policy issue.
    We look forward to working with you, other Senate leaders and the 
Administration to encourage the swift passage of BRERA.
            Sincerely,
  Jeffrey D. DeBoer, President and Chief Operating Officer.
                               __________
                          National Association of Realtors,
                                                      June 8, 2000.

Hon. Lincoln Chafee,
Hon. Frank Lautenberg,
Hon. Bob Smith,
Hon. Max Baucus,
U.S. Senate,
Washington, DC 20510.

Dear Senators: On behalf of the 760,000 members of the National 
Association of Realtors, I strongly support your introduction of S. 
2700, the Brownfields Revitalization and Environmental Restoration Act 
of 2000. NAR thanks you for your hard work in achieving a solid 
bipartisan bill which present a constructive, viable approach to 
cleaning up and revitalizing hazardous waste sites throughout the 
country.
    NAR supports S. 2700 because it:

    <bullet>  Provides liability relief for innocent property owners 
who have not caused or contributed to hazardous waste contamination;
    <bullet>  Funds cleanup and redevelopment of the hundreds of 
thousands of our nation's ``brownfields'' sites;
    <bullet>  Recognizes the finality of successful state hazardous 
waste cleanup efforts.

    Redevelopment of brownfields sites offers excellent opportunities 
for the economic and environmental enrichment of our communities. 
Unfortunately, liability concerns often deter real estate transactions 
involving properties which are or might be contaminated by hazardous 
waste. As a result, properties that could be contributing to the tax 
base of communities are left dilapidated, contributing to nothing but 
economic ruin.
    The meaningful reforms contained in the Brownfields Revitalization 
and Environmental Restoration Act of 2000 will achieve cleanup of 
hazardous waste sites, encourage property reuse and enhance community 
growth. NAR looks forward to working with you in the coming months to 
make brownfields legislation a reality.
            Sincerely,
    Lee L. Verstandig, Senior Vice President, Governmental 
                                                   Affairs.
                               __________
    Building Owners and Managers Association International,
                                                     June 27, 2000.

Hon. Lincoln D. Chafee,
U.S. Senate,
Washington, DC 20510.

Dear Senator Chafee: On behalf of commercial real estate professionals 
nationwide, I applaud your recent introduction of S. 2700--The 
Brownfields Revitalization and Environmental Restoration Act of 2000. 
You and your fellow cosponsors have cut through a thicket of 
remediation issues to create a practical, bipartisan solution for 
America's brownfields problem. The Building Owners and Managers 
Association (BOMA) International strongly endorses this bill as a way 
to rapidly and dramatically improve our nation's cleanup efforts.
    With more than 400,000 brownfields sites nationwide, our country 
needs to take a more aggressive approach toward resolving this issue. 
We believe that S. 2700 provides practical solutions to America's 
brownfields dilemma.
    Via a relatively simple approach, the bill cuts to the heart of 
multiple brownfields issues. It offers reasonable liability exemptions 
for blameless parties, like innocent landowners, prospective 
purchasers, and contiguous properties. It also looks to enhance the 
role of states in the brownfields cleanup process. Additionally, it 
increases the Federal Government's commitment to solving the problem by 
dedicating funds solely for brownfields assessment and remediation. By 
encompassing so many important improvements to current cleanup law, you 
have made it easy for real estate professionals nationwide to support 
this effort.
    BOMA appreciates your leadership in this demanding legislative 
field. We look forward to assisting you in your efforts to help clean 
up America's brownfields.
            Sincerely,
           Richard D. Baier, President, BOMA International.
                               __________
                                     National Ground Water,
                                                     June 27, 2000.

Hon. Lincoln Chafee,
Committee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510-6175.

Dear Senator Chafee: On behalf of the National Ground Water 
Association, I would like to submit the attached letter of support for 
S. 2700, the Brownfields Revitalization and Environmental Restoration 
Act of 2000.
    The National Ground Water Association thanks you for your 
sponsorship of this legislation and stands ready to assist to move the 
bill forward.
            Very truly yours,
             Christine Reimer, Government Affairs Director.
                               __________
           Statement of the National Ground Water Association
    The National Ground Water Association (NGWA) applauds the sponsors 
of S. 2700, the Brownfields Revitalization and Environmental 
Restoration Act of 2000. This bill zeros in on the principal barriers 
hindering the constructive reuse of abandoned and possibly contaminated 
sites and lays out a responsible plan to overcome these impediments.
    A 1998 study \1\ analyzing state brownfields redevelopment programs 
identified liability protection for innocent parties as the most 
important reform required for successful programs. Additionally, 
financial incentives and a supportive governmental attitude ranked as 
key factors in the success of state programs. S. 2700 brings the 
Federal Government into a partnership with the states, providing 
appropriate liability relief and adding Federal financial resources to 
those of state, local and private entities.
---------------------------------------------------------------------------
    \1\ Consumers Renaissance Development Corporation, National 
Comparative Analysis of Brownfield Redevelopment Programs, 1998.
---------------------------------------------------------------------------
    Much of the environmental remediation work ongoing in this country 
is being done through state clean-up programs or with state oversight. 
NGWA believes the financial assistance provided in the bill to state 
clean-up efforts and reinforcement of the respective roles of Federal 
and state government entities will help achieve the public health and 
environmental protection that is everyone's ultimate aim.
    Environmental professionals are working together with planners and 
developers to identify land uses and remedial technologies that 
complement each other, meeting both land-use objectives and 
environmental standards. \2\ This legislation removes some of the 
liability and financial issues that slow the application of existing 
technical knowledge to the recycling of the nation's brownfields sites. 
NGWA urges passage S. 2700 as expeditiously as possible.
---------------------------------------------------------------------------
    \2\ Nyer, Evan K. and Lawrence S. Graves, ``Identifying Synergy 
Between Remedial Strategies and Land Reuse,'' Ground Water Monitoring 
and Remediation, Fall 1998, pp. 61-65.
---------------------------------------------------------------------------
    The leading information and education provider for the ground water 
industry, NGWA is a not-for-profit, 1 6,000-member organization 
dedicated to providing and protecting the ground water resources. We 
thank you for this opportunity to submit our views on this important 
issue.
                               __________
                                                     June 23, 2000.

Hon. Lincoln Chafee, Chairman,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Hon. Frank Lautenberg, Ranking Member,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Hon. Robert Smith, Chairman,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510.

Hon. Max Baucus, Ranking Member,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510.

Dear Senators Chafee, Lautenberg, Smith and Baucus: The Environmental 
Business Action Coalition (EBAC) commends you for your hard work in 
crafting the bipartisan bill S. 2700, Brownfields Revitalization and 
Environmental Restoration Act of 2000. This bill provides significant 
direction in planning a path forward by laying down a benchmark for 
cleaning up brownfields nationwide.
    EBAC, which is a coalition of the American Consulting Engineers 
Council and represents most of the major firms working in air quality, 
water infrastructure and hazardous waste environmental management, has 
long supported reform in brownfields law and regulation. Specifically, 
we were pleased to see provisions in S. 2700 that takes steps toward:

    <bullet>  providing for state finality in brownfields clean up;
    <bullet>  bolstering self-certification of state brownfields 
programs;
    <bullet>  recognizing the validity of professional judgment in site 
assessment,
    <bullet>  giving the U.S. EPA Administrator flexibility in 
establishing standards of practice and not promulgating into law ASTM 
1527-97 as the standard for site assessment; and
    <bullet>  supporting state and local brownfields clean up by 
providing increased resources through a grants program.

    One of the hallmarks of this piece of legislation is the manner in 
which it addresses site assessment and the establishment standards of 
practice. The engineering community applauds your approach that does 
not set in law ASTM 1527-97, but rather outlines professional standards 
of care and practice as the basis for determining cleanup needs.
    Again, you should be congratulated for your efforts. EBAC strongly 
endorses this measure and is working as an organization, and in concert 
with various coalitions, to secure its passage. If there is anything 
EBAC can do to ensure that this bill is signed into law, please contact 
me at (703) 351-4415 or our Executive Director, David Bancroft, at 
(202) 682-4352.
            Sincerely,
        William J. Birkhofer, Chairman, Government Affairs 
                                                 Committee.
                               __________
                    The United States Conference of Mayors,
                                                      June 8, 2000.

Hon. Lincoln Chafee, Chair,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Dear Chairman Chafee: On behalf of The United States Conference of 
Mayors, I am writing to convey our strong support for your legislation, 
``Brownfields Revitalization and Environmental Restoration Act of 
2000,'' a bipartisan initiative that the mayors believe will help 
accelerate the assessment, cleanup and ultimately the redevelopment of 
the many thousands of brownfields all across this nation.
    The nation's mayor have made enactment of such legislation one of 
our highest legislative priorities, because of the many benefits that 
can be realized for the Nation and local communities through the 
recycling of America's land. We are particularly pleased that your 
proposal has already secured the bipartisan cosponsorship of the top 
leaders of the Senate Environment and Public Works Committee. We urge 
that this legislation advance expeditiously in the Senate to ensure 
that this important legislation is enacted before the 106th Congress 
adjourns later this year.
    This proposal deals with the priority issues that mayors have 
identified as crucial to these local brownfield efforts. First, it 
provides needed partnership resources to cities, other communities and 
states to tackle this national problem, which, to date, has overwhelmed 
local efforts. A broader commitment of Federal resources for 
assessments of these sites, coupled with funds to help get these sites 
cleaned up, is a threshold issue for mayors and others struggling with 
the challenge of brownfield sites in their communities. Second, your 
legislation includes key liability reforms that will put an end to 
policies that have unfairly punished innocent parties, both public and 
private; important changes which help accelerate efforts to reclaim 
these sites. Finally, the legislation further clarifies the 
relationship between U.S. EPA and the states in making decisions and 
taking other actions to bring these sites back into more productive 
use.
    We appreciate your many efforts and those of your committee 
colleagues in crafting this important bipartisan agreement. You can 
count on the strong support of the nation's mayors as you move this 
legislation forward.
            Sincerely,
                        Thomas Cochran, Executive Director.
                               __________
                                 The Trust for Public Land,
                                                      June 8, 2000.

Hon. Lincoln Chafee, Chairman,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Hon. Frank Lautenberg, Ranking Member,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510

Hon. Robert Smith, Chairman,
Environment and Public Works Committee,
U.S. Senate,
Washington, DC 20510.

Hon. Max Baucus, Ranking Member,
Environment and Public Works Committee,
U.S. Senate,
Washington, DC 20510.

Dear Senators Chafee, Lautenberg, Smith and Baucus: I am writing to 
thank you for the outstanding leadership you have demonstrated through 
your introduction of the Brownfields Revitalization and Environmental 
Restoration Amendments Act of 2000. On behalf of the Trust for Public 
Land (TPL) and our countless community partners across America whose 
landscapes and economies would benefit enormously from your landmark 
legislation, I also want to advise you of our energetic and 
enthusiastic support for this vitally important bill.
    As you are well aware, brownfields pose some of the most critical 
land-use challenges and afford some of the most promising 
revitalization opportunities--facing our nation's communities, from the 
urban core to more rural locales. By transforming these idled, 
frequently abandoned sites into urgently needed parks and greenspaces, 
or by focusing investment into their appropriate redevelopment, 
reclamation of brownfield properties brings new life to local economies 
and to the spirit of neighborhoods. In the process, it has proven to be 
an extremely powerful tool in local efforts to control urban sprawl--
directing economic growth to already- developed areas--and in 
addressing longstanding issues of environmental justice in underserved 
areas.
    TPL gratefully acknowledges the clear commitment that the 
Environmental Protection Agency and other Federal agencies have 
demonstrated to brownfields restoration through existing programs. At 
the same time, given that there are an estimated 600,000 brownfield 
properties nationwide, we recognize that these limited resources have 
been stretched too far to allow for an optimal Federal role. Additional 
investment, at higher levels and in new directions, is essential to 
meeting the enormous backlog of need and to establishing the truest 
Federal partnership with the many state, local, and private entities 
working to renew brownfield sites.
    The Brownfields Revitalization and Environmental Restoration 
Amendments Act would provide this much-needed Federal response. Through 
our work with myriad localities, TPL has witnessed the real, on-the-
ground benefits that your bill, with its targeted approach to 
assessment and remediation, would provide. Given this experience, we 
are particularly gratified by the emphasis your legislation places on 
brownfields-to-parks conversion where appropriate; the broad assistance 
it provides to an appropriate spectrum of landscapes, from inner city 
to rural community to tribal lands; and the flexibility it affords to 
tailor loan and grant funding based on community needs and eventual 
uses. In all, the bill provides precisely the framework and annual 
funding that an effective national approach to brownfields requires.
    Accordingly, TPL deeply appreciates your vision and craftsmanship 
in developing this crucial legislation, and we look forward to working 
with you toward its enactment.
            Sincerely,
                         Alan Front, Senior Vice President.
                               __________
                     National Association of Home Builders,
                                                     June 23, 2000.

Hon. Robert Smith,
U.S. Senate,
Washington, DC 20510.

Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC 20510.

Hon. Max Baucus,
U.S. Senate,
Washington, DC 20510.

Hon. Frank Lautenberg,
U.S. Senate,
Washington, DC 20510

Dear Senators: On behalf of the 200,000 members of the National 
Association of Home Builders (NAHB), I express strong disappointment 
with S. 2700, the ``Brownfields Revitalization and Environmental 
Restoration Act.'' Certainly, you should be lauded for successfully 
finding bipartisan compromise on this issue. This is a crucial first 
step. Unfortunately, however, the bill fails to provide enough 
incentives for our membership to take the risks involved in brownfields 
remediation and redevelopment. As a result, NAHB will oppose the bill 
and attempt to have it amended in committee and on the floor of the 
Senate to provide these incentives. I urge you to embrace these 
amendments.
    In particular, our membership fears that too few brownfields will 
be affected by your legislation because it does not include protections 
under the Resource Conservation and Recovery Act (RCRA)--which covers 
petroleum contamination. Moreover, the bill also fails to protect our 
membership from potential liability and administrative orders under the 
Toxic Substance Control Act (TSCA). Finally, by making any discovery of 
``new information'' a general ``re-opener,'' the bill gives EPA too 
much authority to second-guess a cleanup that has passed a state's 
qualifications.
    Recently, NAHB contracted with the Northeast/Midwest Institute' to 
assess each state's brownfields programs (if the state has one). This 
survey highlighted the fact that Congress should include petroleum and 
other pollutants not covered by the Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA) in brownfields 
reform legislation. For example, of the forty-four states responding 
that they have a brownfields program, 40 allow petroleum-contaminated 
sites to enroll in the program. Examples include New Hampshire and New 
Jersey, both of which allow sites contaminated with any pollutant or 
contaminant to enroll. Other states have recently moved to include 
petroleum contaminants in their program, including Rhode Island, which 
did so in 1996. As Charles Bartsch, author of the Northeast/Midwest 
study, observes:
    In general states are much more advanced and comprehensive in their 
approaches to contamination from a brownfields/redevelopment vantage 
point. States have developed a greater level of comfort themselves in 
dealing with a variety of contaminants, including petroleum. Many state 
Voluntary Cleanup Plans also permit lead-based paint contamination to 
be addressed, a key concern of developers wishing to rehab old 
buildings into housing units. More and more states are taking a 
holistic approach to contaminants, recognizing that all types impede 
the restoration of brownfield sites to productive use.
    The reason the states have become more advanced than the Federal 
Government on this issue probably stems from the information they have 
gained from running their programs. Most states reported that a 
majority of contaminated sites enrolled in their brownfields program 
were either solely contaminated with petroleum or have some degree of 
petroleum contamination. For example, 60 percent of sites enrolled in 
Texas' program have petroleum contamination. Half of Maine's sites are 
petroleum-contaminated. 63 percent of Montana's sites are petroleum 
contaminated. In sum, NAHB's membership cannot understand why Congress 
should pass a bill that fails to bring relief to over half the 
potential brownfields in the nation. Why should Congress trust the 
states to adequately address hazardous materials but not petroleum 
contaminants? NAHB's members urge you to amend the bill to view 
contaminants holistically and to include in the legislation a single 
liability standard for any contaminant covered under Federal 
environmental law, just as the states are doing under their programs.
    This leads to NAHB's second concern: the overlapping nature of 
Federal environmental laws dealing with toxic substances. S. 2700 
addresses only CERCLA. While EPA prefers acting under this statute when 
it pursues an action in connection with a contaminated site, nothing 
bars EPA from taking enforcement actions under TSCA or RCRA at those 
sites. Put in simple terms, while the bill may close the front door of 
CERCLA litigation, EPA can still use several back doors if it wants to 
pursue legal action against a developer who has completed a state 
voluntary cleanup.
    Certainly, EPA can legitimately claim that it has never used these 
other statutes to deal with hazardous materials--the kind of 
contaminants covered by the bill. Indeed, enforcement attorneys from 
EPA expressed precisely this point to NAHB in past conversations on 
brownfields reform (as did your staff during similar conversations).
    At the same time, as a factual matter no legal barrier prevents EPA 
from using these other statutes. Nor would this bill erect one. Indeed, 
when asked, EPA's enforcement attorneys admitted that their preference 
for CERCLA over an expanded TSCA or RCRA had more to do with 
convenience than a strict legal or policy principle. In fact, they 
admitted that (if need be) they would turn to these other statutes in 
precisely the way our members fear if CERCLA were no longer available.
    In truth, anyone who has observed the way environmental law has 
been enforced over the last two decades knows that once Congress gives 
EPA authority to do something, eventually EPA will use that authority. 
You recognize this fact tacitly by including bars on EPA's enforcement 
after a state has approved a cleanup. EPA has often reiterated that it 
has never taken an enforcement action under such a circumstance. 
Nevertheless, you bar them from taking one because you recognize that 
few developers will take the risk of remediating a brownfield when they 
believe EPA will inevitably take such action--if not today, then 
eventually.
    This leads me to NAHB's third concern with the bill: the additional 
``re-opener.'' As is true of most brownfields bills, you provide 
several exceptions to the bar on EPA's enforcement authority at sites 
enrolled in a state cleanup program. One of these exceptions allows EPA 
to take action whenever ``additional `` information related to the 
cleanup, the conditions, or the contamination at the site is 
subsequently discovered. We understand that the variety of state 
programs requires a flexible term to describe what seems a reasonable 
concern; however, you have ended up with a very broad and ill-defined 
term (``additional'') that invites too much legal uncertainty in the 
cleanup process.
    Specifically, since the discovery of ``additional'' information 
revokes the entire bar on an EPA enforcement action regardless of its 
relevance to the completed cleanup, our members fear that EPA may 
``discover'' even the smallest bit of additional information in order 
to revisit the entire cleanup. The result could render the entire 
prohibition ineffective. Far better, we believe, to address this 
concern by only providing protections for the work done as part of the 
state plan. If additional contamination is discovered, then EPA may 
address it regardless of the work done under the state plan. At the 
same time, EPA remains barred from addressing the work already 
completed.
    While NAHB cannot support the bill until these issues have been 
addressed, I would be remiss if I did not acknowledge the good will 
your staff demonstrated in meeting with NAHB several times to discuss 
your legislation and our concerns. In addition, I recognize that you 
adopted in your bill an important feature of the brownfields proposal 
NAHB developed with the help of EPA. Indeed, NAHB supports the process 
you began when you reached out to us and other members of the concerned 
community. NAHB simply hopes that this process has not ended. We hope 
that there remains an opportunity to address the concerns I have raised 
above so that we may all work together in passing effective brownfields 
legislation.
            Sincerely,
             Gerald M. Howard, Senior Staff Vice President,
                               Federal Government Affairs Division.
                               __________
                          National Association of Counties,
                                                     June 28, 2000.

Hon. Lincoln Chafee, Chairman,
Subcommittee on Superfund, Waste Control and Risk Assessment,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510.

Dear Senator Chafee: On behalf of the nation's elected county 
officials, I am writing to commend your efforts in offering bipartisan 
legislation, S. 2700, the Brownfields Revitalization and Environmental 
Restoration Act of 2000, to facilitate the assessment, cleanup and 
redevelopment of brownfields sites across the country.
    The National Association of Counties strongly supports Federal 
legislation aimed at meeting the reeds of states and local governments, 
urban suburban and rural, to expand and improve upon the success of 
brownfields programs. We believe your bill represents an excellent 
opportunity to do just that--by making financial resources available 
and by clarifying liability issues which so often place unnecessary 
barriers in the way of counties' ability to progress in the cleanup and 
development of these sites.
    Nonetheless, while we support the approach to brownfields taken in 
S. 2700, county governments insist that any legislation amending the 
Superfund law also must address the need to codify local government 
liability reforms at codisposal landfills. This is a policy issue where 
there is clear bipartisan support, and we hope you will work with us in 
support of those reforms.
    Thank you very much for your leadership on these important issues. 
Please feel free to contact Stephanie Osborn of NACo at (202) 949-4269 
for further information.
    We stand ready to work with you.
            Sincerely,
                                 C. Vernon Gray, President.
                               __________
                 National Conference of State Legislatures,
                                                      July 5, 2000.

Hon. Lincoln Chafee, Chairman,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington DC 20510.

Dear Chairman Chafee: I am writing on behalf of the National Conference 
of State Legislatures to comment on S. 2700 the Brownfields 
Revitalization and Environmental Restoration Act of 2000. NCSL commends 
the committee for its efforts to provide financial assistance to state 
and local governments for Brownfields revitalization.
    We are concerned, however, about the matching share proposed in 
Title I Brownfields Revitalization Funding, Sec. 128. Brownfields 
Revitalization Funding, (i) Agreements, (3) . . . in the case of an 
application by an eligible entity under section (c)( 1), requires the 
eligible entity to pay a matching share (which may be in the form of a 
contribution of labor, material, or services) of at least 20 percent, 
from non-Federal sources of funding, unless the Administration 
determines that the matching share would place an undue hardship on the 
eligible entity . . . NCSL believes the match rate should be the same 
as is currently required under the Comprehensive Environmental Response 
Compensation and Liability Act (CERCLA). The match rate in S. 2700 
should be reduced from 20 percent to 10 percent.
    We commend the committee for addressing the role of third party and 
prospective purchaser in the chain of liability. NCSL supports efforts 
to remove disincentives--established under CERCLA--that impede economic 
development at these sites. Title II--Brownfields Liability 
Clarifications provides much improved protections for innocent 
landowners.
    We are concerned, however, about the conditions under which the 
Administrator can bring an enforcement action. Title III State Response 
Programs, Section 129. State Response Programs, (b) Enforcement in 
Cases of Release Subject to State Program, (1) Enforcement, (B) 
Exceptions, Subsections (ii), (iii) and (iv) does not require the 
Administrator to notify the state of an action the Administrator 
intends to take during or after completion of a response action. It 
also does not provide the state with an opportunity to comment on the 
notice or take necessary corrective actions. We suggest that S. 2700 be 
amended to compel administrator notification and allow for state 
comment and corrective action.
    Title III State Response Programs, Sec. 129. State Response 
Programs, (b) Enforcement in Cases of a Release Subject to State 
Program (1) Enforcement, (C) Public Record requires a state to . . . 
make available to the public a record of sites, by name and location, 
at which response actions have been completed in the previous year and 
are planned to be addressed under the State program that specifically 
governs response actions for the protection of public health and the 
environment in the upcoming year . . .
    Although we understand that the requirement, as it relates to 
possible cleanup sites for the upcoming year, is meant to be ``good 
faith reporting,'' we suggest that the language be redrafted to read . 
. . make available to the public a record of sites, by name and 
location, at which response actions have been completed in the previous 
year and [to the best knowledge of the state] are planned to be 
addressed under the State program that specifically governs response 
actions for the protection of public health and the environment in the 
upcoming year . . .
    Title III Response Programs, Sec. 129. State Response Programs also 
raises some concerns. As proposed in S. 2700, a grant is contingent on 
the fact that a State or Indian Tribe . . . (i) has a response program 
that includes each of the elements, or is taking reasonable steps to 
include each of the elements listed in paragraph (2); or (ii) is a 
party to a memorandum of agreement with the Administrator for voluntary 
response programs . . .
    We are concerned that a number of the 35 states that have existing 
brownfields programs may not meet all of the ``reasonable steps'' 
requirements or may have difficulty in reaching a memorandum of 
agreement (MOA) with the Environmental Protection Agency (EPA). Given 
these two facts, a number of states may have difficulty qualifying for 
the program. NCSL would like to work with the committee to ensure that 
every state can take full advantage of the financial assistance 
available to them under your proposal.
    We appreciate the efforts of the chief sponsors of S. 2700 and the 
subcommittee to bring forward a bill to further advance Brownfields 
cleanup and redevelopment. We look forward to working with you on this 
issue. For additional information, please contact Molly Stauffer in 
NCSL's Washington, DC Office at (202) 624-3584 or by e-mail at 
molly.stauffer?ncsl.org.
    We respectfully request that this letter be added to the record for 
the hearing held June 29, 2000 before the Senate Committee on 
Environment and Public Works, Subcommittee on Superfund, Waste Control, 
and Risk Assessment regarding S. 2700, the Brownfields Revitalization 
and Environmental Restoration Act of 2000.
            Sincerely,
                Senator Beverly Gard, Indiana State Senate,
                                 Chair, NCSL Environment Committee.
                               __________
                                               U.S. Senate,
                                                     June 27, 2000.

Dear Colleague: As cochairs of the Senate Smart Growth Task Force we 
are writing to urge your support of the Brownfields Revitalization and 
Environmental Restoration Act of 2000 (S. 2700). This is the first 
bipartisan brownfields bill that has the support of the chairman and 
ranking member of the Environment and Public Works Committee and of the 
Subcommittee on Superfund, Waste Control and Risk Assessment. Already, 
it has been endorsed by the United States Conference of Mayors, the 
Trust for Public Land. and the National Association of Realtors.
    Brownfields are abandoned, idled, or under-used commercial or 
industrial properties where development or expansion is hindered by 
real or perceived environmental contamination. In a recent survey by 
the U.S. Conference of Mayors, 21,000 brownfields sites covering more 
than 81,000 acres were identified in 210 cities. Reusing and restoring 
these sites has been a central tenant of urban revitalization and smart 
growth for many years. Due to the real or perceived threat of 
contamination with brownfields, the costs of developing these sites is 
many times that of greenfields sites outside the city.
    As advocates for smart growth--growth that is fiscally responsible; 
preserves the environment: encourages economic opportunity; and 
promotes social equity-we strongly feel that whenever possible 
communities should encourage development in our existing urban areas 
where much underutilized land currently exists. The redevelopment of 
brownfields capitalizes on existing infrastructure, expands the urban 
tax base, encourages economic revitalization, mitigates urban sprawl, 
and reduces public health risks in many of the neighboring communities.
    Introduced on June 8, 2000, S. 2700 will compliment many of the 
state's successful brownfield programs. The bill provides much needed 
funding to state and local jurisdictions for the assessment, 
characterization, and remediation of brownfield sites. Importantly, the 
bill clarifies liability for contiguous landowners, prospective 
purchasers, and innocent landowners. Finally, the bill provides greater 
certainty to developers and parties conducting the cleanup, ensuring 
that decisions under state programs will not be second- guessed.
    We believe S. 2700 will do much to encourage both commercial and 
residential development in our nation's developed areas where existing 
infrastructure, access to public transit, and close proximity to 
cultural facilities currently exist. If you are interested in 
cosponsoring this important legislation, please have your staff call 
Ted Michaels (with the Subcommittee on Superfund, Waste Control, and 
Risk Assessment) at 4-1049 or Lisa Haage (with Sen. Lautenberg) at 4-
3388. For more information on the Senate Smart Growth Task Force, your 
staff may call John Bailey at 4-6221 or Cameron Taylor at 4-0606.
            Sincerely,
                                   Carl Levin, U.S. Senate.
                            James M. Jeffords, U.S. Senate.
                               __________
                       American Society of Civil Engineers,
                                                     June 29, 2000.

Hon. Lincoln Chafee, Chairman,
Subcommittee on Superfund, Waste Control, and Risk Assessment,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510.

Dear Mr. Chairman: The American Society of Civil Engineers (ASCE) is 
pleased to offer this statement in support of enactment of S. 2700, the 
Brownfields Revitalization and Environmental Restoration Act of 2000.
    ASCE was founded in 1852 and is the country's oldest national civil 
engineering organization. It represents more than 125,000 civil 
engineers in private practice, government, industry and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a non-profit educational and professional society 
organized under Part 1.501(c)(3) of the Internal Revenue Service rules.
    As an initial matter, we agree that Congress needs to pass 
legislation that would eliminate statutory and regulatory barriers to 
the redevelopment of ``brownfields,'' lands that effectively have been 
removed from productive capacity due to serious contamination. These 
sites, properly restored, aid in the revival of blighted areas, promote 
sustainable development, and invest in the nation's industrial 
strength.
    Additionally, revitalized brownfields would reduce the demand for 
undeveloped land. ASCE supports limits on urban sprawl to achieve a 
balance between economic development, rights of individual property 
owners, public interests, social needs and the environment. Community 
growth planning should give consideration to the public needs, to 
private initiatives and to local, state and regional planning 
objectives. Full provision of public infrastructure and facilities 
redevelopment must be included in all growth initiatives and should be 
made at the lowest appropriate level of government.
    We believe that a targeted brownfields restoration program should 
take into account site-specific environmental exposure factors and 
risks based on a reasonable assessment of the future use of the 
property.
    With regard to specific provisions of S. 2700, ASCE urges Congress 
to adopt legislation that would ensure that the state and local 
agencies charged with redeveloping brownfields through grants and loans 
authorized under the Brownfields Revitalization and Environmental 
Restoration Act would benefit from the most qualified engineering 
service providers.
    We strongly support an amendment to S. 2700 that would require all 
private-sector architects and engineers who are employed in the design 
and construction of brownfields cleanups using Federal grant or loan 
funds to be employed using the ``qualifications-based selection'' (QBS) 
procedures required for Federal agencies under title IX of the Federal 
Property and Administrative Services Act of 1949, 40 U.S.C.A. 
Sec. Sec.  541-544 (West 2000).
    Traditionally, Federal Government procurement procedures properly 
have emphasized awarding contracts to the lowest bidder, or using price 
as a dominant factor. For many goods that the government purchases--
paper, office equipment, desks, even construction services--this 
process serves the government and the taxpayer well. Specifications can 
be written, products can be inspected and tested, and safeguards can be 
built in to assure saving money.
    Sometimes, however, agencies mistakenly assume professional 
architecture, engineering, surveying and mapping services fall into 
this category. Unfortunately, the assumption ignores the increase in 
costs to administer the preparation of detailed scopes of work and bid 
specifications, to evaluate numerous bids, and to remedy serious 
consequences of unprofessional A/E related services.
    Quality, therefore, should always be the primary focus in the 
competition for architectural, engineering and surveying and mapping 
procurement. Only after high quality performance is ensured should the 
focus turn to the contract price. That is exactly what QBS provides. 
The title IX ensures that specialized skills and technologies are 
evaluated properly and are not overlooked. In this manner, the 
government benefits from direct control of both the quality of the 
services and the project's development.
    Title IX applies to the acquisition of all architectural and 
engineering services, including services of an architectural or an 
engineering nature that are logically and justifiably to be performed 
by architects or engineers. The language of the Act governs the 
broadest range of A/E design services, i.e., any that are performed by 
architects or engineers and those that may be. Nothing in the Act 
limits or restricts the application of QBS procedures to some 
architectural or engineering services while exempting others.
    The use of negotiated procedures directs the focus of procurement 
activity where it should be, on the quality of the professional A/E 
services specifically suited to a given contract.
    All competitors must submit their qualifications to the procuring 
agency; the agency assesses the relative expertise of the competing 
firms; and the one most qualified firm is selected for the particular 
procurement. Such procedures produce a more cost effective design, map 
and related professional service than can be achieved under price 
bidding procedures.
    The qualifications-based selection law was codified to protect the 
interest of taxpayers. It is Federal law because over the life of a 
project, engineering-related services account for less than one- half 
of 1 percent of total costs. Yet these important services play a major 
role in determining the other 99.5 percent on the project's ``life 
cycle costs,'' such as construction, operation, and maintenance.
    This process has been so successful at the Federal level that it is 
recommended by the American Bar Association in its model procurement 
code for state and local government. Thirty-seven states have enacted 
their own qualifications-based selection laws for architecture, 
engineering, surveying and mapping services. Others use it as a 
standard procedure. Today, no state has a specific law requiring 
bidding of these services.
    Since 1972 Congress has clarified and extended the application of 
the QBS process to the awarding of architectural and engineering 
services contracts for aviation programs project grant application, see 
49 U.S.C.A. Sec.  47107 (West 2000); for mass transportation contract 
requirements, management and architectural engineering, see 49 U.S.C.A. 
Sec.  5325 (West 2000); for military construction projects, see 10 
U.S.C.A. Sec.  2855 (West 2000); for procurement of architectural or 
engineering services as competitive procedures for procurement 
purposes, see 10 U.S.C.A. Sec.  2302, 41 U.S.C.A. Sec.  259 (West 
2000); for river and harbor improvements, see 33 U.S.C.A. Sec.  569b 
(West 2000); for permanent clarification of the application of the QBS 
process to surveying, mapping, charting and geodesy contracts of the 
National Imagery and Mapping Agency (NIMA), see 144 Cong. Rec. H8718 
(daily ed. Sept. 25, 1998).
    In a related area, ASCE would strongly oppose any blanket 
requirement mandating that architectural and engineering services be 
provided exclusively by the agencies receiving the Federal loans or 
exclusively by the private sector. We believe that Federal, state and 
local government agencies need engineering expertise within their 
organizations to manage these complex projects.
    At the same time, public agencies should not to compete with 
engineers in private practice. Public sector engineering projects that 
can be accomplished more efficiently by private engineering firms 
should be contracted out with proper oversight by the public agency. 
The resulting ratio of in-house to contracted engineering services 
should be based upon the agency's on-going project and policy 
requirements rather than rigid rules or percentages fixed by 
legislation or regulation.
    Mr. Chairman, we appreciate this opportunity to express our views 
on S. 2700. If you have questions for ASCE, please do not hesitate to 
contact Michael Charles of our Washington Office at (202) 789-2200 or 
by e-mail <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="462b252e27342a233506273525236829342168">[email&#160;protected]</a>
            Sincerely yours,
                      Delon Hampton, Ph.D., P.E. President.
                               __________
                  American Institute of Chemical Engineers,
                                                     June 29, 2000.

Hon. Lincoln Chafee,
U.S. Senate,
Committee on Environment and Public Works,
Washington, DC 20510.

Dear Senator Chafee: The American Institute of Chemical Engineers 
(AIChE) appreciates the opportunity to comment on the recently 
introduced brownfields legislation. The members of AIChE hold paramount 
the safety, health, and welfare of the public, and therefore, support 
policies such as results-oriented methods as effective tools in 
achieving environmental safety goals.
    Superfund cleanups and the development of brownfields sites should 
be undertaken in the safest and most efficient manner possible. By 
allocating this responsibility to the states, these two goals are much 
more likely to be realized. AIChE supports language in the 
``Brownfields Revitalization and Environmental Restoration Act'' that 
focuses on streamlining the remediation process, thus creating a more 
efficient, safe and cost feasible cleanup.
    The AIChE, founded in 1908, is a non-profit, professional 
association that provides leadership in advancing the chemical 
engineering profession. Our membership of more than 57,000 is made up 
of individuals who work in industry, government, academia, and 
consulting, and includes students and retirees. Our members are 
creative problem solvers who apply scientific Knowledge And technical 
expertise in meeting societal needs.
            Sincerely,
                             Dr. Basil C. Doumas, Chairman,
                              AIChE Government Relations Committee.
                               __________
                                                     June 29, 2000.

Hon. Lincoln Chafee, Chairman,
Environment and Public Works Committee,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Hon. Frank R. Lautenberg, Ranking Member,
Environment and Public Works Committee,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Dear Chairman Chafee and Senator Lautenberg: We are writing to thank 
you for the outstanding leadership you have demonstrated through your 
introduction of the Brownfields Revitalization and Environmental 
Restoration Act of 2000, and commend you for moving so efficiently to a 
hearing. Our organizations, and our many community partners across 
America, are heartened by the benefits that this legislation would 
impart upon our landscapes, economies, public parks and our communities 
as a whole. Transforming abandoned brownfield sites into greenfields or 
new development will provide momentum for increasing ``smart growth'' 
and reducing sprawl by utilizing existing transportation 
infrastructure, which in turn will lead to better transportation 
systems and the revitalization of historic areas and our urban centers.
    As you are well aware, brownfields pose some of the most critical 
land-use challenges--and afford some of the most promising 
revitalization opportunities--facing our nation's communities, from our 
cities to more rural locales. By transforming these idled sites into 
urgently needed parks and greenspaces, or by focusing investment into 
their appropriate redevelopment, reclamation of brownfield properties 
brings new life to local economies and to the spirit of neighborhoods. 
In the process, it has proven to be an extremely powerful tool in local 
efforts to control urban sprawl by directing economic growth to already 
developed areas, encouraging the restoration and reuse of historical 
sites, and in addressing longstanding issues of environmental justice 
in underserved areas.
    We acknowledge the commitment that the Environmental Protection 
Agency and other Federal agencies have demonstrated to brownfields 
restoration through existing programs. At the same time, given that 
there are an estimated 450,000--600,000 brownfield properties 
nationwide, we recognize that these limited resources have been 
stretched too far to allow for an optimal Federal role. Additional 
investment, at higher levels and in new directions, is essential to 
meeting the enormous backlog of need and to establishing the truest 
Federal partnership with the many state, local, and private entities 
working to renew brownfield sites.
    The Brownfield Revitalization and Environmental Restoration 
Amendments Act of 2000 would provide this much needed Federal response. 
Through our work with local governments, our organizations have 
witnessed first-hand--and have often worked as a partner to help 
create--the benefits that this bill would provide. Given our 
experiences, we are particularly gratified by the emphasis your 
legislation places on brownfields-to-parks conversion where 
appropriate, and the flexibility it provides to tailor loan and grant 
funding based on community needs and eventual uses. In all, this bill 
provides the framework and funding that an effective national approach 
to brownfields will require.
    Accordingly, we appreciate your vision in developing this 
legislation, and we look forward to working with you toward its 
enactment.
            Sincerely,
                         Alan Front, Senior Vice President,
                                             Trust for Public Land.

                              Jeffrey Soule, AICP Director,
                       Public Policy American Planning Association.

                                    Richard Moe, President,
                          National Trust for Historic Preservation.

                                   Barry Tindall, Director,
            Public Policy National Recreation and Park Association.

                                     Jan Schach, President,
                          American Society of Landscape Architects.
                               __________
                                                 CH2M HILL,
                                                      June 23, 2000

Hon. Lincoln Chafee, Chairman,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Dear Chairman Chafee: On behalf of the 9,500 employees of CH2M HILL, I 
am writing to thank and commend you for your leadership in crafting and 
cosponsoring ``The Brownfields Revitalization and Environmental 
Restoration Act of 2000'' S. 2700. Introduction of this legislation on 
a bipartisan basis is a vital first step toward enacting Brownfields 
Legislation during the 106th Congress.
    Employee-owned CH2M HILL is a global leader in project development, 
construction, and engineering services that assists our public and 
private sector clients to apply technology, safeguard the environment, 
and develop infrastructure around the world.
    Enactment of S. 2700 will make important contributions to the 
redevelopment and return to productivity of countless currently unused 
properties across the Nation through:

    <bullet>  Providing finality for Brownfields cleanups;
    <bullet>  Bolstering self-certification of state Brownfields 
programs;
    <bullet>  Recognizing that the judgment of environmental 
professionals in site assessment and remedy selection is critical for 
cost-effective and appropriate levels of cleanup by giving the U.S. EPA 
Administrator authority to establish standards of practice instead of 
requiring ASTM 1527-97 for such activity; and
    <bullet>  Authorizing increased resources to support state and 
local Brownfields cleanups.

    CH2M HILL strongly endorses S. 2700 and is committed to working 
with you and like-minded individuals and organizations to secure its 
enactment into law. If you have questions or I can be of further 
assistance, I can be reached at (202) 393-2426.
            Sincerely yours,
  Richard L. Corrigan, Senior Vice President, Governmental 
                                                   Affairs.
                               __________
                            National Governors Association,
                                                      July 6, 2000.

Hon. Lincoln D. Chafee, Chairman,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Hon. Robert C. Smith, Chairman,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510.

Hon. Frank R. Lautenberg, Ranking Member,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Hon. Max Baucus, Ranking Member,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510.

Dear Senators Chafee, Lautenberg, Smith, and Baucus: On behalf of the 
National Governors' Association (NGA), we are writing to commend you 
for your efforts to craft a brownfields bill that has garnered support 
from both sides of the aisle. The issues included in the ``Brownfields 
Revitalization and Environmental Restoration Act of 2000'' (S. 2700) 
are especially important to our states and communities, and deal with 
four out of the six priority issues that NGA has sought in any 
Superfund/Brownfields reform bill, including liability reforms for non-
culpable parties, finality at state Brownfield cleanups, concurrence of 
the Governor before a site is listed on the National Priorities List, 
and funding to states for brownfields assessment and remediation.
    We strongly support provisions in S. 2700 that relieve the fear of 
Federal Superfund liability from prospective purchasers, innocent 
landowners, and contiguous property owners. The funding provisions in 
the bill that provide grants to states and local government for both 
response actions as well as site assessments are also very positive 
steps in making certain that financial assistance is available to move 
sites toward final cleanup. The bill's ``finality'' provision also 
provides some degree of certainty that states can assure landowners who 
participate in state voluntary cleanup programs that they will not be 
engulfed in the Federal liability scheme, although we believe the 
language can be significantly improved to encourage voluntary cleanups. 
Last, the general deferral of a site's listing on the National Priority 
List, as long as the state's cleanup is making ``reasonable progress,'' 
is more problematic for NGA given our policy on gubernatorial 
concurrence. The state response program outlined in Title III of the 
bill also includes several less significant, but important 
implementation issues for states. We hope to be able to work with you 
to develop language that we can support on all of these issues.
    As you know, two of our priority issues are not included in your 
bill--a provision that clarifies that the state cost-share at Superfund 
sites is capped at 10 percent for operation and maintenance costs, and 
a sovereign immunity waiver under CERCLA for Federal facilities. Both 
of these issues have been sought by NGA for many years and are 
extremely important to states.
    While we have concerns with some portions of S. 2700, on balance we 
believe that the bill moves Superfund law in the right direction. We 
hope you will work with states to address these issues. As you know, 
many states have developed highly successful voluntary cleanup programs 
that have resulted in prompt and effective remediation actions at 
brownfields sites with minimal governmental intervention. The Governors 
seek to continue our successful programs in partnership with the 
Federal Government. We hope that as the legislation goes forward you 
will find reasonable and balanced ways to address our concerns. We 
remained committed to work with you to help pass a bill this year that 
the President can sign.
            Sincerely,
      Governor Kenny C. Guinn, Chair, Committee on Natural 
                                                 Resources.
      Governor Thomas J. Vilsack, Vice Chair, Committee on 
                                         Natural Resources.
                               __________
                 International Council of Shopping Centers,
                                                     July 10, 2000.

Hon. Lincoln D. Chafee,
U.S. Senate,
Washington, DC 20510.

Dear Senator Chafee: The International Council of Shopping Centers 
(ICSC) commends your recent efforts in introducing S. 2700--the 
``Brownfields Revitalization and Environmental Restoration Act of 
2000.'' Along with your cosponsors, you have displayed critical 
leadership on a public policy issue too often caught up in partisan 
rhetoric. ICSC enthusiastically supports S. 2700 and looks forward to 
working with you and your staff to ensure its passage.
    Shopping centers are America's marketplace, representing economic 
growth, environmental responsibility, and community strength. Founded 
in 1957, the ICSC is the global trade association of the shopping 
center industry. ITSC nearly 35,000 U.S.members represent almost all of 
the 44,426 shopping centers in the United States. In 1999 alone. these 
centers accounted for more than $1.2 trillion dollars in retail sales 
and generated more than $47.5 billion in state sales tax revenue. In 
addition, shopping centers employ over 11 million people. about 9 
percent of non-agricultural jobs in the United States. Legislation such 
as S. 2700 will allow center developers to step-up their efforts to 
assist in the redevelopment of urban areas in their continuing efforts 
to enhance the economic and environmental quality of America's cities.
    S. 2700 provides practical solutions to many of the issues 
developers confront when debating tile merits of brownfields 
redevelopment. Provisions providing liability relief for innocent 
property owners who have not caused or contributed to hazardous waste 
contamination; increased funding for the cleanup and redevelopment of 
the hundreds of thousands of the country's brownfields sites; and. 
recognition that sites remediated under the authority of state 
voluntary clean up laws should constitute final action are all vital to 
encouraging development in sites that may otherwise be left abandoned.
    The targeted reforms you have focused on will result in greater 
infill development and enhance the urban landscape. S. 2700 will not 
only spur economic development but also improve environmental quality 
throughout the country. ICSC looks forward to working with you in the 
coming months in support of this important legislation.
            Sincerely,
                          William H. Hoffman, III, Manager,
    Environmental Issues International Council of Shopping Centers.
                               __________
             Institute of Scrap Recycling Industries, Inc.,
                                                     July 13, 2000.

Hon. Lincoln D. Chafee, Chairman,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Hon. Robert C. Smith, Chairman,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510.

Hon. Frank R. Lautenberg, Ranking Member,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Hon. Max Baucus, Ranking Member,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510.

Dear Senators Chafee, Lautenberg, Smith and Baucus: The Institute of 
Scrap Recycling Industries, Inc., (ISRI) continues to strongly support 
the passage of S. 2700, the Brownfields Revitalization and 
Environmental Restoration Act of 2000. Passage of this bipartisan bill 
will reduce the many legal and regulatory barriers that stand in the 
way of brownfields redevelopment.
    S. 2700 is important legislation that will provide liability relief 
for innocent property owners who purchase a property without knowing 
that it was contaminated, but who carried out a good faith effort to 
investigate the site. It also recognizes the finality of successful 
state approved voluntary cleanup efforts and provides funds to cleanup 
and redevelop brownfields sites.
    As ISRI first offered in the beginning of this year, we stand ready 
to help build support for the passage of this bipartisan brownfields 
bill. Since S. 2700 was introduced, the membership of ISRI has been 
working to build grassroots support and seeking cosponsors for the 
bill.
    ISRI looks forward to continuing to work with you to see that S. 
2700 becomes law. We believe that the Brownfields Revitalization and 
Environmental Restoration Act of 2000 is a model Or sensible bipartisan 
environmental policy.
            Sincerely,
 1Robin K. Wiener, President, Institute of Scrap Recycling 
                                           Industries, Inc.
                               __________
   Statement of Natural Resources Defense Council; Alternatives for 
 Community and Environment; Center for Public Environmental Oversight; 
  Detroiters Working for Environmental Justice; Jesus People Against 
Pollution; Partnership for Sustainable Brownfields Redevelopment; Subra 
      Company; Surface Transportation Policy Project; West Harlem 
                          Environmental Action

Dear Senators Chafee and Lautenberg: The undersigned national 
environmental organizations and local environmental justice 
organizations would like to lend our support to your efforts to pass S. 
2700, the Brownfields Revitalization and Environmental Restoration Act 
of 2000. As you know, these groups have worked for years to promote the 
cleanup and redevelopment of brownfield sites, while at the same time 
ensuring the protection of public health and the environment. This bill 
represents a significant step forward and holds the potential to help 
break the deadlock on advancing Federal brownfields clean-up issues. 
Though the contamination may not rise to the level of Federal 
attention, brownfield sites in cities and rural areas across the 
country still threaten the health of nearby residents, of wildlife, and 
of the environment. Brownfields sites also undermine an area's economic 
health. At the same time that America is losing 365 acres of greenspace 
per hour to development, sites rich in existing infrastructure and near 
to labor pools remain abandoned because of contamination.
    Your bill would provide much needed funds for communities to 
revitalize and clean up contaminated property, and at the same time 
would create a framework for improving how these cleanups are 
conducted. Your bill holds great potential for cleaning up communities, 
protecting health, renewing local economies, combating sprawl and 
preserving or creating open space. First, it provides financial 
resources in the form of grants, revolving loans and technical 
assistance grants (TAGs) to municipalities, non-profit organizations 
and community redevelopment groups for increased public participation 
and site-related assessment and cleanup activities. This assistance 
will help provide for meaningful community input in clean-up decisions 
that will have a significant effect on that community's quality of 
life. Numerous studies of clean-ups all across the country have 
demonstrated that early and frequent community participation results in 
better and more efficient clean-ups.
    Second, the legislation requires that states take steps necessary 
for their Brownfields programs to satisfy important assessment, 
remediation, and public involvement criteria (or that the state has 
entered a separate agreement with EPA) as a condition of receiving 
Federal grants. Third, the bill provides important new funding for 
preservation of greenspace and open space in communities and makes 
greenspaces a priority for development. And, in Title II, S. 2700 
adopts sensible liability protections, which we have long supported. 
These clarifications should encourage brownfields activity while also 
preserving vital Federal enforcement authority and a baseline level of 
protection for all Americans.
    Wisely, the bill is narrowly tailored to achieve the goal of more 
and better brownfields clean-ups. We would oppose vigorously any effort 
to broaden the liability clarifications provided by the bill, including 
application of the bar to statutes other than CERCLA, or any changes to 
the enforcement bar provisions, which we read to embody current EPA 
policy and practice for taking action under CERCLA section 106.
    We recognize that this legislation represents a delicate compromise 
and a unique consensus on brownfields, which would not have been 
possible without your commitment, and that of your dedicated staff, to 
developing a national framework for restoring our communities and the 
environment at the same time. While our organizations support moving 
this legislation forward, below we call to your attention some 
important issues which we strongly urge you to address.
Time Frames for Developing State Brownfield Programs
    We strongly support additional funding for states to develop 
effective and enforceable brownfields cleanup programs consonant with 
the criteria in the bill. Unfortunately, the current language appears 
to allow states to continue to receive funding indefinitely for taking 
undefined ``reasonable steps'' toward implementing a program that meets 
the criteria. We presume that ``reasonable steps'' means that 
establishment of those programs should be required to occur within some 
set period of time (e.g., 3-4 years), and our support is conditioned on 
this understanding. In any event, EPA should be allowed to cut funding 
for those states not making significant efforts to reach the funded-
program criteria.
Enforcement Bar and Re-openers
    Under the proposed legislation, EPA would be prohibited from taking 
enforcement action or seeking cost recovery at eligible sites which are 
subject to a state clean-up program. As we understand the bill, this 
``enforcement bar'' will apply only to cleanups that are designed and 
initiated after the effective date of this bill, and not to cleanups 
well underway or that those have been completed but are being 
maintained or monitored. We could not support a bill that would do 
otherwise. We also strongly suggest adding an exclusion from the 
enforcement bar that would allow the EPA to take action at a site if 
the land use changes substantially and the Administrator determines 
that, as a result of the new land use, the cleanup is inadequate to 
protect human health and the environment.
Institutional Controls
    To its credit, the bill contains important language that would 
provide for a public inventory of brownfields cleanups in each state, 
and information on how the institutional controls in place (e.g., deed 
restrictions) will protect the public when a clean-up does not remove 
all wastes at brownfields sites. The text lacks a critical component, 
however, for effective legislation in this area: the bill should ensure 
that public information on institutional controls indicates how and by 
whom these controls will be enforced and maintained in the future.
Eligible Entities
    Non-profit and community development organizations (CDOs) are not 
currently listed among the entities eligible to receive funds under the 
pilot site assessment program. We strongly urge you to expand 
eligibility beyond governmental entities and at the very least allow 
CDOs and non profits to apply for funds if no other eligible entity in 
the area applies. We also urge you to include gas stations in the pilot 
site assessment program. Gas stations may well be the biggest category 
of sites affecting communities. Since the site assessment funds do not 
come from the CERCLA trust fund, the CERCLA petroleum exclusion is 
irrelevant. And including these sites in the pilot assessment program 
would not involve opening up other statutes, while it would help 
communities gain a better picture of the full range of contamination 
problems they face.
Cost Recovery
    We are concerned that the bill would bar the EPA from using its 
current authority in CERCLA section 1 07(a) to recover costs at 
brownfields sites even if a state does not have at least a minimally 
adequate state cleanup program. Federal taxpayers should not have to 
bear the cost for an inadequate brownfields cleanup when a state is not 
demonstrating a commitment to a strong and effective state cleanup 
program, and responsible parties exist who could and should pay for the 
Federal response action. Although we recognize that the funding in this 
bill will be a strong incentive for states to ensure that their state 
cleanup programs satisfy your bill's minimum criteria, we would suggest 
requiring that a state meet the grant criteria listed in the 
legislation before the enforcement bar would apply to those states.
Community Advisory Groups
    We suggest that the legislation allow for the creation of community 
advisory groups in state brownfields programs where sites may warrant 
additional public involvement. These community advisory groups would 
facilitate greater public participation in the decisionmaking process, 
particularly at sites where there may be significant community health 
concerns. Additionally, the legislation should define the evaluation 
criteria of the TAG program in more detail and ensure consistency by 
incorporating characteristics of CERCLA's TAG program (e.g., timeframe 
for filing applications). Maintaining a consistent framework for all 
Federal TAG programs would lead to increased predictability and success 
for interested communities to apply and receive Federal financial 
assistance.
Community Outreach Plans
    While the bill would help communities to become more involved in 
decisions regarding brownfield sites, it could be stronger in seeking 
community participation. We urge you to give states more guidance and 
encouragement to develop programs which seek active community 
involvement. For example, California's voluntary clean-up program 
requires the development of a community profile for sites going through 
a full clean-up. If the community profile reveals sufficient interest, 
the program directs development of a community relations plan as part 
of the overall planning at a brownfield site or group of sites. 
Elements of such a plan include: identifying community leaders, others 
who may be concerned, and level of interest in the site; deciding how 
community members will be notified of planning and other events; 
determining how documents and information will be made available; and 
establishing how comments will be sought. This avoids prescribing one 
approach for all circumstances, but encourages early consideration of 
and planning for community outreach.
Long-term Notice through State Lists and Easy Access to the Information
    The bill's language regarding the state lists is not completely 
clear on whether those sites with remaining contamination and 
institutional controls will remain on the lists until such time as the 
site is cleaned up to a level allowing unrestricted use. The bill 
appears to envision this sort of treatment, which makes sense if part 
of the purpose is to provide a way of providing notice of the need for 
caution to current and future users of the relevant property and 
surrounding areas. In addition to clarifying this language, we also 
suggest making this information available electronically to gain the 
full benefit of making this information easily available to the public.
    We hope that our comments on S. 2700 are helpful. We look forward 
to working with you as this legislation advances.
            Sincerely,
   Jacqueline Hamilton, Senior Attorney, Natural Resources 
                           Defense Council, Washington, DC.

          Don Chen, Smart Growth Program Director, Surface 
             Transportation Policy Project, Washington, DC.

Charlotte Keys, President, Jesus People Against Pollution, 
                                              Columbia, MS.

     Penn Lob, Alternatives for Community and Environment, 
                                               Roxbury, MA.

Vernice Miller-Travis, Executive Director, Partnership for 
      Sustainable Brownfields Redevelopment, Baltimore, MD.

            Peggy Shepard, Executive Director, West Harlem 
               Environmental Action (WHEAct), New York, NY.

   Lenny Siegel, Director, Center for Public Environmental 
                              Oversight, San Francisco, CA.

     Wilma Subra, President, Subra Company, New Iberia, LA.

Donele Wilkins, Executive Director, Detroiters Working for 
                        Environmental Justice, Detroit, MI.
                                 ______
                                 
                               ATTACHMENT

    We would like to commend you for crafting a viable, bipartisan 
brownfields bill, S. 2700, the Brownfields Revitalization and 
Environmental Restoration Act of 2000. The bill contains a number of 
positive features, including narrowly targeted liability provisions, 
substantial funding to improve public participation and site-related 
assessments and cleanup activities, and provisions that will increase 
community involvement in brownfields cleanups and allow the 
preservation or creation of greenways and open spaces. Importantly, it 
is our understanding that eligible response sites under the bill would 
not include sites for which the preliminary assessment site 
investigation resulted in a ``pre-score'' ranking of 28.5 or higher. 
Our support is conditioned on that understanding.
    We have some concerns with the bill, however, including the fact 
that some Federal funding may be awarded to states whose brownfields 
programs do not necessarily meet Federal criteria for program quality. 
States apply widely differing levels of resources, expertise and 
commitment to cleaning contaminated sites and to ensuring that site 
cleanups will continue to protect human health and the environment long 
into the future. In addition, we remain unconvinced of the need for any 
changes to existing Federal enforcement authority, and we would 
strongly oppose any changes going beyond what is now in the bill.
    Despite these concerns, our groups recognize that S. 2700 
represents a delicate compromise and has been narrowly crafted to avoid 
the pitfalls of previous brownfields bills. While we support this bill 
in its current form, if it were to change significantly we would 
reevaluate our support. Because of the importance of this bill, our 
organizations will remain vigilant to assure that this legislation 
maintains its current commitments to the environment and public health. 
As this legislation advances, we hope that we can be of assistance in 
helping the bill become law.
                               __________
                          Environmental Technology Council,
                                                   August 28, 2000.

Hon. Bob Smith, Chairman,
Committee on Environment and Public Works,
Washington, DC 20510.

Hon. Max Baucus, Ranking Minority Member,
Committee on Environment And Public Works,
Washington, DC 20510.

Hon. Lincoln Chafee, Chairman,
Subcommittee on Superfund, Waste Control and Risk Assessment,
Washington, DC 20510.

Hon. Frank Lautenberg, Ranking Minority Member,
Subcommittee on Superfund, Waste Control and Risk Assessment,
Washington, DC 20510.

Dear Senators: I am writing on behalf of the Environmental Technology 
Council to express our support for S. 2700, the Brownfields 
Revitalization and Environmental Restoration Act of 2000.
    Throughout our country, brownfields limit the future development 
and reuse of valuable property. Most of these sites are in urban areas 
where redevelopment would be ``smart'' growth reducing sprawl by 
allowing the use of the existing infrastructure.
    Redeveloping brownfields is a very important environmental goal 
that needs active programs to reduce the risks these sites have 
created. Many of these sites have contaminated soils that threaten 
ground and surface waters. The incentives to clean up the sites by 
given significant finality to state cleanups will have a very positive 
impact and increase the rate of site cleanups.
    We especially applaud the requirement for states to keep public 
records of site cleanups. Since many sites will be remediated but 
hazardous wastes will still be left onsite, it is critical for anyone 
changing the land use in the future to know what threats still exist at 
the sites.
    We applaud your bipartisan efforts to address this important 
hazardous waste problem.
            Very truly yours,
    Scott Slesinger, Vice-President for Government Affairs.
                               __________
                                        City of Casper, WY,
                                                     July 27, 2000.

Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC 20510.

Senator Chafee: I want to thank you for informing me of your intentions 
concerning this new bill. I want you to know that the City of Casper is 
very much in support of your efforts surrounding Brownfields 
revitalization and restoration. This bill sounds as though it will be 
very instrumental in the successful facilitation of remediation efforts 
throughout the country.
    The City of Casper announced recently the creation of our Urban 
Renewal Agency that will oversee the development of the Amoco 
redevelopment corridor. The site of the former Amoco refinery within 
this corridor is currently undergoing a massive cleanup and being 
transformed into a more productive piece of land. We are very 
optimistic about what this project will do for our community. 
Brownfields revitalization is very important to Casper!
    It is exciting to think about the benefits that a piece of 
legislation like S. 2700 has for this country. Once again, thank you 
for your efforts to enhance the resources available for Brownfields 
redevelopment. If I can be of any assistance at the local level or 
whatever, please feel free to let me know.
            Sincerely,
                                      Dr. Tom Walsh, Mayor.
                               __________
                                         Joseph Vas, Mayor,
                       City of Perth Amboy, NJ 08861, July 6, 2000.

Hon. Frank Lautenberg,
United States Senator.

Dear Senator Lautenberg: Throughout the country, government leaders are 
coming to the realization that it is both economically and physically 
prudent to invest our resources into rebuilding our urban cities due to 
the existing infrastructure which has the capacity to support 
redevelopment. However, in this rebuilding process there remains one 
major impediment--rectifying years of environmental decay brought on by 
the loss of industry.
    Nationwide, cities are finding the ability to triumph over this 
obstacle with the help of Federal dollars. In order to continue our 
success, capitalize on the burgeoning economy and reclaim valuable 
land, we must fight to ensure that Federal assistance continues for our 
cities. With this in mind, I am asking for your earnest support for the 
Senate Bipartisan Brownfields Bill (S. 2700).
    It is imperative that this bill receive the attention it deserves 
so that cities such as Perth Amboy can continue talking the initiative 
to remediate hazardous environmental conditions and attract private 
investment to transform these fledgling properties. Perth Amboy is 
proof positive that this system is effective. Through your continued 
support over the years, we have been able to reclaim valuable land 
which is now poised for an ambitious redevelopment project.
    (S. 2700) so that this program can be continued for the benefit of 
every American city battling this timeless struggle. With kind regards, 
I remain.
            Sincerely,
                                         Joseph Vas, Mayor.
                               __________
                 National Conference of Black Mayors, Inc.,
                                                   August 18, 2000.

Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC 20510.

Sir: I am writing on behalf of the membership of the National 
Conference of Black Mayors, Inc. (NCBM) to express support for the 
Brownfields Revitalization and Environmental Restoration Act of 2000.''
    It deserves NCBM's support for a number of reasons. The proposed 
legislation builds upon an EPA program that addresses important 
challenges to local economic revitalization. It would continue an 
approach that leverages financial resources with Federal dollars and 
promotes local partnerships. The measure is bipartisan, and would be 
potentially beneficial to both large and small communities in addition 
to states and Indian tribes. EPA reports that Brownfields redevelopment 
activities have resulted in 6,400 jobs and a $6.4 billion economic 
impact since 1995. Clearly the additional funding and administrative 
refinements called for in S. 2700 promise similar substantial gains.
    NCBM supports S. 2700. However, we have a few recommendations that 
will extend its benefits to many small towns and rural areas that are 
left out of current considerations. First, we are particularly 
concerned about the large number of underground storage tanks usually 
associated with abandoned gas stations that are rampant in small towns 
and rural areas. Often these tanks belonged to small business operators 
who are no longer in business or lack the resources to remove them and 
return their non-producing property back to the tax roles. For a small 
town, redeveloping a service station corner for a small town is just as 
daunting as redeveloping an out of service plant for a large town.
    Section One of the bill should incorporate funding to assist small 
towns and rural areas conduct site assessments and to prepare 
redevelopment plans for abandoned gas stations and other sites with 
underground storage tanks. Also, the bill should be more specific on 
the types of state action that would exempt contaminated sites from 
federally enforced cleanup.
    Our suggestion does not address liability for environmental 
contamination caused by leaks and spills from underground storage 
tanks. We feel that those responsible parties should not be relieved 
from liability simply because a site needs redevelopment. Those who 
caused the damage should be held completely responsible for necessary 
environmental restoration. However, in those numerous cases where the 
responsible parties are no longer in business or are financially 
incapable, alternatives should be made available for small towns and 
rural areas to have certain properties treated as ``brownfields'' for 
financial purposes.
    We are interested and available to continue working with you to 
complete the details of S. 2700 as it moves through the legislative 
process. You should know that NCBM is prepared to offer testimony 
before the committees that are considering this vital piece of 
legislation. If we can provide additional assistance, please contact 
me.
    Thank you for your hard work on this important national concern.
            Sincerely,
                  Michelle D. Kourouma, Executive Director.
                               __________
        Executive Office, City of Providence, Rhode Island,
                      Vincent A. Cianci, Jr., Mayor, June 27, 2000.

Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC 20510.

Dear Senator Chafee: I am writing to applaud your leadership in the 
formation of the bipartisan legislative package that focuses on 
brownfields legislation, the ``Brownfields Revitalization and 
Environmental Restoration Act of 2000'' (S. 2700). This far-reaching 
bill underscores the importance of sufficient funding for state, 
tribal, regional, and local governments for the assessment, 
characterization, and remediation of brownfields sites in cities and 
towns across America.
    The experience of Providence dramatically illustrates the need for, 
and the benefits of, this legislation. Our remediation of brownfields 
properties is reducing human health and environmental threats, 
returning abandoned or underutilized property to productive use, 
creating and preserving open space, encouraging job growth, increasing 
the local tax base, curbing urban sprawl, and improving the overall 
quality of life in the capital city.
    You have my enthusiastic support in your efforts to shepherd S. 
2700 to a successful conclusion in the Senate. Communities across the 
United States are forging ahead with the vital task of cleaning our 
urban sites and restoring them to full and beneficial use, and the 
Brownfields Revitalization and Environmental Restoration Act of 2000 
will go a long way toward strengthening our collective efforts. If I 
can be of any assistance, please don't hesitate to contact me. I send 
my best wishes and regards.
            Sincerely,
               Vincent A. Cianci, Jr., Mayor of Providence.
                               __________
                                           Brownfield News,
                                                     June 26, 2000.

Hon. Lincoln Chafee,

Hon. Frank Lautenberg,

Hon. Bob Smith,

Hon. Max Baucus,
U.S. Senate,
Washington, DC 20510.

Dear Senators: Brownfield News magazine is the only journal dedicated 
to covering the topic of brownfields on a consistent basis. With more 
than 20,000 readers, the magazine reaches a diverse group of 
professionals, from both the public and private sector, who are 
interested in brownfield redevelopment. Our readers represent four 
distinct sectors of this emerging market: Sellers/Owners, Buyers/
Developers, Real Estate Transaction Support and Policy Makers.
    On behalf of our readers and as Publisher of Brownfield News, I am 
writing to convey our support for the legislation, ``Brownfields 
Revitalization and Environmental Restoration Act of 2000''. This 
bipartisan initiative will bring efficiencies to the marketplace by 
providing predictability, consistency and environmental certainty, 
which will stimulate more brownfield transactions. Specifically, we 
believe this legislation will provide the following relief to each of 
the four sectors of the market:
    Owner's Section: Provides liability relief for innocent property 
owners who have not caused or contributed to site contamination.
    Developers/Investors Section: Recognizes the finality of successful 
state hazardous waste cleanup efforts.
    Transaction Support Section: Recognizes the validity of 
professional judgment in site assessments.
    Policy Makers Section: Provides funding for cleanup and 
redevelopment of the hundreds of thousands of our nation's brownfield 
sites and further clarifies the relationship between the U.S. EPA and 
states.
    ``Brownfield'' is no longer a label that stigmatizes a property, 
but represents a redevelopment opportunity and a new way of thinking 
about environmental issues and economic development concerns. This 
legislation will bring about meaningful reforms and will remove 
unwanted impediments, allowing the public and private sector to 
redevelop properties based on local needs and community involvement.
    We commend your pragmatic approach in dealing with brownfield 
legislation and would be happy to work with each of you to provide 
coverage on this issue in future articles of the magazine.
            Sincerely,
                            Robert V. Colangelo, Publisher.
                               __________
                                              The IT Group,
                                                     June 21, 2000.

Senator Lincoln Chafee,
U.S. Senate,
Washington, DC 20510.

Dear Senator Chafee: I am writing in support of S. 2700, the 
Brownfields Revitalization and Environmental Restoration Act of 2000. 
Your leadership in crafting bipartisan legislation to accelerate the 
cleanup and reuse of brownfields is to be commended.
    As a provider of environmental infrastructure services, The IT 
Group believes S. 2700 provides an opportunity for states, tribes and 
local governments to more effectively manage the cleanup of 
brownfields. The IT Group is a $1.3 billion diversified engineering 
firm, whose eight thousand employees offer a full range of consulting, 
facility management, engineering and construction services. IT now has 
over 100 offices throughout the U.S. and abroad.
    I wish you continued success as S. 2700 moves through the 
legislative process. Without adequate funding and the liability 
protections offered by your legislation, the productive reuse of 
lightly contaminated properties will only be further delayed. I look 
forward to working with you on brownfields restoration and similar 
issues in the future.
            Sincerely,
                                            Craig Crotteau.
                               __________
                                    The Wilderness Society,
                                                     June 23, 2000.

Hon. Lincoln Chafee, Chairman,
Subcommittee on Superfund, Waste Control and Risk Assessment,
U.S. Senate,
Washington, DC 20510.

Dear Senators Chafee, Lautenberg, Smith and Baucus: I am writing to 
express on behalf of The Wilderness Society a thank you for your 
leadership in introducing the Brownfields Revitalization and 
Environmental Restoration Amendments Act of 2000. We are happy to 
support the land provisions in Title I of S. 2700.
    As an organization dedicated to a network of wildlands, restoring 
our nation's cities and communities for open space and chances for 
restoration of badly over-developed lands is a vital part of our 
mission. We believe that by transforming idled, frequently abandoned 
sites into urgently needed parks and greenspaces bring new life to 
these local economies and to the community as a whole.
    Directing economic growth to already developed areas also helps to 
control urban sprawl and the protection of our last remaining wild 
lands. It also helps to address the longstanding issues of 
environmental justice in our undeserved areas.
    The bill you have introduced places special emphasis on brownfields 
to parks conversion where appropriate and assistance to broaden the 
spectrum of landscapes from our inner city to rural communities to 
tribal lands. We believe that the framework to reach a truly effective 
national approach is contained in the bill introduced on June 8. As a 
public lands organization, we do not have the expertise to comment on 
the other portions of the Act.
    We appreciate your many efforts in getting S. 2700 introduced in 
this important bipartisan agreement. Please count on The Wilderness 
Society's support to work with you and the committee to bring more 
dedicated brownfields lands to our nation's growing network of 
wildlands by passage of this act.
            Sincerely,
                      Rindy O'Brien, Vice President Policy,
                                            The Wilderness Society.
                               __________

    STATEMENT OF HON. SLADE GORTON, U.S. SENATOR FROM THE STATE OF 
                               WASHINGTON

    Mr. Chairman, I am pleased to cosponsor S. 2700--the ``Brownfields 
Revitalization and Environmental Restoration Act of 2000.'' I 
appreciate the work of the chairman, as well as Senators Lautenberg, 
Smith, and Baucus in writing this important legislation and for holding 
this hearing today.
    This legislation is pro-environment and pro-economic development. 
It is particularly important for several small communities in 
Washington and across the Nation that have been unfairly saddled with 
moderately contaminated sites they are able neither to clean up, nor to 
sell to prospective buyers due to liability risks.
    Providing assistance to states and localities that seek to clean up 
industrial sites for future economic development is common sense. When 
Congress passed the Superfund law in the 1980's to help fund the 
cleanup of large and heavily contaminated sites across the United 
States, unfortunately it failed to authorize a program that would 
assist smaller sites. This legislation would authorize significant 
funding for brownfields cleanup, and would make key improvements to the 
current program.
    Over the past year, a dozen cities in Washington have applied for 
and have received grants under the existing Environmental Protection 
Agency's brownfields program. These sites are typically abandoned wood 
treatment plants, lumber mills, and other small companies that have 
filed bankruptcy. Unfortunately, because of the restrictions, negative 
stigma, and liability associated with Superfund sites, and the 
cumbersome brownfields grant application process, many communities have 
been either unable or unwilling to obtain assistance to clean up these 
sites.
    Two sites in Washington particularly exemplify the need for this 
legislation and for a more comprehensive reform of our Superfund laws. 
The first is the Port of Ridgefield. Ridgefield is a small community of 
about 1,500 residents located 20 miles away from Portland, Oregon. A 
wood treating company filed bankruptcy several years ago and left the 
community 41 acres of contaminated soil and an underground plume that 
is moving dangerously close to the Ridgefield National Wildlife Refuge, 
as well as Carty Lake and Lake River.
    While the Port has been working diligently to attract new tenants 
to its industrial area and bring in more revenue, unfortunately, these 
efforts have been stymied until the site is cleaned up. The Port and 
the State of Washington contributed approximately $5 million dollars to 
assess the damage at the site and initiate actual clean up. 
Unfortunately, the total cost to clean up the site is $30 million and 
the port and state will face a shortfall of about $10 million. The Port 
has sought the assistance of brownfields grants and research grants 
involving innovative cleanup technology from EPA.
    EPA met with the Port of Ridgefield officials and advised that the 
port is eligible to receive a $200,000 assessment grant, but only if 
EPA conducts a whole new site assessment. Awarding money to re- assess 
a site that is already into the cleanup phase would be a flagrant waste 
of time and the taxpayers' money. It would defeat the very purpose of 
the brownfields program, which is to assist communities that wish to 
redevelop contaminated sites. On the other hand, the port does not want 
to be listed under the Superfund site list and risk driving up the cost 
of cleanup, delaying cleanup for several years, and relinquish control 
of the cleanup to EPA officials. S. 2700 would help address this 
situation by allowing the state more flexibility and authority to 
develop state brownfields programs and provide greater assistance to 
sites such as the Port of Ridgefield.
    The second example involves the Rayonier Mill site located in Port 
Angeles in the northern Olympic Peninsula of Washington. In that case, 
the mill closed in 1997 and did the most responsible thing it could do: 
it announced its intentions to voluntarily assist in the clean-up of 
its 80-acre site, which is mildly contaminated with various toxic 
materials that have been used to dissolve wood pulp at the plant for 
the last 60 years.
    Representatives of Rayonier met with EPA representatives, who 
initiated a 2-year investigation to determine whether the site should 
be designated as a Superfund site. The Washington Department of 
Ecology, the Governor of Washington joined local of finials in 
requesting EPA to defer the cleanup of the site to the state.
    After spending an astronomical $2 million in unsubstantiated site 
investigation costs, EPA ultimately agreed to defer the cleanup to the 
state. However, EPA is now seeking reimbursement of the $2 million it 
incurred to determine the site was not a Superfund site from the mill. 
EPA's actions creates a disincentive for other owners of contaminated 
sites to take responsibility for their sites' cleanup on a voluntary 
basis. S. 2700 would prevent future incidents such as this by requiring 
deferral of a Superfund listing of a site at the request of a state if 
the state or responsible party makes reasonable progress toward 
cleaning up the site.
    These examples illustrate the need for reform of Superfund laws and 
the existing brownfields program. S. 2700 is a strong first step in the 
right direction to achieving the goals that we all share- cleaning up 
toxic sites that threaten the environment, and creating a tool to 
assist local governments to turn contaminated sites into economic 
assets. I'm pleased to that it has bipartisan support, and I urge all 
of my colleagues to vote for its quick passage.
                               __________
 STATEMENT OF TIMOTHY FIELDS, JR., ASSISTANT ADMINISTRATOR, OFFICE OF 
   SOLID WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL PROTECTION 
                                 AGENCY

                              INTRODUCTION

    Good afternoon, Mr. Chairman, and members of the subcommittee. I am 
pleased to have this opportunity today to: 1) share with you the 
significant accomplishments the Administration has achieved since the 
1995 inception of the Brownfields Economic Redevelopment Initiative in 
helping States, Tribes, local governments, and communities across 
America to address the problem of brownfields; and 2) comment on the 
subject of brownfields legislation, in particular S. 2700, ``The 
Brownfields Revitalization and Economic Restoration Act of 2000.''
    The cleanup of brownfields is important to the environmental and 
economic health of our Nation. We commend the committee for their 
efforts to produce bipartisan brownfields legislation and thank Senator 
Lautenberg for his tireless leadership on these issues during his many 
years of public service in the U.S. Senate. The Administration believes 
that S. 2700 represents a positive step forward and we support the 
bill. We look forward to working with the committee to further improve 
the bill during the legislative process.

             BROWNFIELDS ECONOMIC REDEVELOPMENT INITIATIVE

    Brownfields, which are abandoned and contaminated properties once 
used for industrial and commercial purposes, are found in almost every 
community in America. The presence of these properties fuels urban 
sprawl, luring investment and job development farther from city centers 
and inner suburbs. While the full extent of the brownfields problem is 
unknown, the United States General Accounting Office (GAO/RCED-95-172, 
June 1995) estimates that approximately 450,000 brownfield sites exist 
in the United States. Brownfields represent by far the largest number 
of properties affected by concerns related to environmental 
contamination. These sites typically do not pose the type of risks 
found at Superfund National Priorities List (NPL) sites and best are 
addressed through local, State, or Tribal authorities. EPA long has 
realized that the assessment and cleanup of properties with potential 
or actual contamination is a shared responsibility. What matters most 
is that these sites are addressed as effectively and efficiently as 
possible.
    The Administration believes that environmental protection and 
economic progress are inextricably linked. EPA's Brownfields Initiative 
plays a key role in the Administration's goal of building strong and 
healthy communities for the 21st century. The Initiative represents a 
comprehensive approach to empowering States, local governments, 
communities, and other stakeholders interested in environmental cleanup 
and economic redevelopment to work together to prevent, assess, safely 
clean up, and reuse brownfields. In many cases, local government 
environmental specialists are sitting down together with the city's 
economic development experts for the first time. Others are joining 
in--businesses, local residents, and community activists.
    As the former Director of the Portland, Oregon, Brownfields 
Initiative said, ``brownfields renewal is one of the most important 
environmental and economic challenges facing our nation's communities, 
calling for partnership among our Federal and local governments, 
businesses and community and environmental leaders. We must work 
together to build a national brownfields partnership from the ground 
up.'' The Agency's multi-faceted initiative represents a significant 
step forward by the Administration and, according to Renew America, 
represents ``a new paradigm in locally based environmental protection 
that forges public-private partnerships, promotes innovation, and 
relies on market incentives and private sector actions.''
    Stakeholders tell the Agency that many Brownfields redevelopment 
activities could not have occurred in the absence of EPA efforts. For 
example:
    <bullet>  On an abandoned, four-acre railroad site, the city of 
Emeryville, CA., a development corporation constructed more than 200 
units of residential housing. Approximately 100 construction workers 
were hired to build these housing units. Within the next 5 years, 
construction of retail, hotel and office complexes is expected to 
create as many as 10,600 jobs and nearly 4 million square feet of new 
facilities, and provide an additional $6.4 million in annual property 
tax revenues.
    <bullet>  In Dearborn, MI, an abandoned property was redeveloped 
into a cardiology clinic valued at $2.5 million and employing 16 
people.
    <bullet>  In Shreveport, LA., as a result of $1.3 million in 
cleanup and redevelopment funding, the former HICA steel foundry and 
upgrade company has been upgraded and renovated into the new HICA Steel 
Castings, LLC, with owners committed to running an environmentally safe 
operation in the Cedar Grove neighborhood of the city.
    The initial Brownfields Action Agenda, announced on January 25, 
1995, focused on the award of Brownfields Assessment Demonstration 
Pilots; building partnerships with all brownfields stakeholders; 
clarifying liability and cleanup issues; and, fostering local work 
force development and job training initiatives. By mid-1996, EPA 
completed all of its commitments on the initial Action Agenda, and the 
Agency continues to move forward. Let me briefly describe what we have 
done in the last 4 years.

                           ASSESSMENT PILOTS

    Through pilots, and in partnership with a wide range of 
stakeholders, EPA provides technical assistance and seed money to 
local, State, and Tribal entities engaged in the revitalization of 
brownfields properties. The Brownfields Assessment Pilots have formed a 
major component of the Brownfields Initiative since its announcement. 
The Agency has announced 362 Brownfields Site Assessment Demonstration 
Pilots, funded at up to $200,000 each, to States, Tribes, and 
communities.
    Selected through a competitive process, Brownfields Assessment 
Pilots help communities to demonstrate the economic and environmental 
benefits of reclaiming brownfields properties, to explore ways of 
leveraging financial resources, and to model strategies for the 
organization of public and private sector support. Small towns and 
large cities both have been recipients of the grants. These pilots have 
resulted in the assessment of 1933 brownfield properties, cleanup of 
130 properties, redevelopment underway at 184 properties, and a 
determination that 617 properties did not need additional cleanup. To 
date, over 6,400 jobs have been generated as a result of the program. 
Pilot communities have reported a leveraged economic impact of over 
$2.3 billion.

                         REVOLVING LOAN PILOTS

    As EPA works to implement a comprehensive brownfields strategy, the 
Agency has developed a ``second-stage'' type of brownfields pilot 
program. Those pilots, known as the Brownfields Cleanup Revolving Loan 
Fund (BCRLF) Pilots, are designed to enable eligible States, Tribes, 
and political subdivisions to capitalize revolving loan funds for use 
in the cleanup and sustainable reuse of brownfields. EPA's goal for 
these pilots is to develop revolving loan fund models that can be used 
by communities to promote coordinated public and private partnerships 
for the cleanup and reuse of brownfields. Eligible applicants for BCRLF 
pilots are entities previously awarded brownfield assessment pilots. In 
addition, coalitions formed among these entities and political 
subdivisions with jurisdiction over sites that have been the subject of 
a targeted brownfield pilot are eligible for BCRLF awards.
    To date, 98 BCRLF pilots have been announced. These pilots 
represent 142 communities, and include pilot awards to individual 
eligible entities and to coalitions. Four BCRLF loans have been made in 
four communities--Stamford, CT, Las Vegas, NV, Trenton, NJ, and 
Shreveport, LA. The loan made in Las Vegas has resulted in the first 
complete cleanup. A $50,000 loan cleaned up a former National Guard 
armory for reuse as a community and small business incubator.

                          JOB TRAINING PILOTS

    To help local citizens take advantage of the new jobs created by 
assessment and cleanup of brownfields, EPA began its Brownfields Job 
Training and Development Demonstration Pilot program in 1998. To date, 
EPA has awarded 37 new pilots to applicants located within or near 
brownfield communities. For example, in Oakland, CA, the Oakland 
Private Industry Council has placed 96 participants in private industry 
jobs. Colleges, universities, nonprofit training centers, and community 
job training organizations, as well as States, Tribes, and communities, 
were eligible to apply for these pilots.

                    BROWNFIELDS NATIONAL PARTNERSHIP

    The Brownfields Initiative is clearly about partnerships--with 
other Federal, State, and local agencies, and a diverse array of 
stakeholders. The EPA has undertaken partnership efforts with 
individual States as well as through broad organizational structures 
like the U.S. Conference of Mayors, the National Governors Association 
(NGA), the National Association of Local Government Environmental 
Professionals (NALGEP), the Council for Urban Economic Development 
(CUED) and the U.S. Chamber of Commerce. EPA also forged working 
relationships with a vast spectrum of other stakeholders, including the 
Environmental Bankers Association, the Irvine Foundation's Center for 
Land Recycling, the International City/County Management Association 
(ICMA), to mention but a few.

Federal Partners
    Early in the development of EPA's Brownfields Initiative, the 
Agency recognized the important contribution of many of our Federal 
partners to brownfields through their participation in the Brownfields 
National Partnership. Through the Partnership, Federal departments and 
agencies can offer special technical, financial, and other assistance 
that can be of great benefit to brownfields communities. More than 20 
National partners are committing resources and assistance to 
brownfields. By the end of 1999, the partners estimate spending more 
than $385 million for brownfields work, with another $141 million in 
loan guarantees. The Federal Home Loan Bank System, for example, is 
exploring ways to bring more private investment to redeveloping 
brownfields properties and, along with the U.S. Conference of Mayors, 
has selected 50 cities to participate in a project to research 
opportunities, impediments, and successes by both cities and lenders to 
address brownfields.
    Many of the commitments by our Federal partners were expressed 
through initial Memoranda of Understanding (MOUs). EPA has signed MOUs 
with the Economic Development Administration of the Department of 
Commerce, the Departments of Labor, Housing and Urban Development, and 
Interior, as well as the U.S. Army Corps of Engineers. EPA also is 
working with the Agency for Toxic Substances and Disease Registry and 
county health officials to address the health concerns of brownfields 
communities. Our partnership with EDA and HUD has been particularly 
beneficial for brownfields. EDA has provided more than $178 million for 
brownfield redevelopment and the HUD Brownfields Economic Development 
Initiative (BEDI) grants program has provided $50 million in assistance 
to cities to redevelop contaminated industrial and commercial sites and 
$249 million in economic development loan guarantees to 44 communities. 
HUD anticipates that this funding will leverage almost $1.4 billion in 
private and public funding.

States and Tribes
    EPA continues to work closely with States and Indian Tribes as key 
partners in the cleanup and redevelopment of contaminated properties. 
The Administration supports the continued growth of the State and 
Tribal regulated and voluntary programs which have greatly expanded the 
number of sites cleaned up to protect human health and the environment. 
To date, 44 States have established voluntary cleanup programs. 
Recognizing the important role that State environmental agencies have 
in encouraging economic redevelopment of brownfields, EPA has provided 
$28.6 million in funding to States and Tribes to support the 
development of these programs since fiscal year 1997. EPA plans to 
continue to provide $10 million in fiscal year 2000 to promote the 
development or enhancement of State programs that encourage private 
parties to voluntarily undertake early protective cleanups of less 
seriously contaminated sites, thus accelerating their cleanup and 
redevelopment. EPA has entered into Memoranda of Agreement (MOAs) with 
14 States to facilitate the cleanup of contaminated sites that 
generally pose lower risks than sites EPA would consider listing on the 
NPL. A MOA reflects mutual agreement by both the State and EPA with 
respect to the appropriate roles of these parties in conducting cleanup 
activities.

Showcase Communities
    The centerpiece of the National Partnership is designation of 16 
Brownfields Showcase Communities in 1998. These Showcase Communities 
are distributed across the country and vary in size, resources, and 
community background. EPA and its Federal partners are in the process 
of choosing 10 new Showcase Communities in anticipation of announcing 
their selection this October at the Brownfields 2000 Conference in 
Atlantic City, NJ. The Brownfields Showcase Communities project is an 
outgrowth of those early partnership efforts and now forms an important 
component of the Brownfields Initiative. It represents a multi-faceted 
partnership among Federal agencies to demonstrate the benefits of 
coordinated, collaborative activity on brownfields.
    The report, Building A Brownfields Partnership from the Ground Up, 
by the National Association of Local Government Environmental 
Professionals, (February 13, 1997), presented the views of a network of 
local government brownfields leaders on the value of EPA's brownfields 
programs and policies. The report calls local government leaders ``a 
key link in the success of brownfields partnerships, for it is the 
environmental, health, development and political leaders in our cities, 
counties and towns who can best build a brownfields partnership ``from 
the ground up.''' For example, through the Showcase Community in Glen 
Cove, New York, a revitalization plan to convert brownfields and 
Superfund sites into tourist destinations has been completed. State, 
Federal, and local agencies have played a crucial role in securing $18 
million in grants from various agencies. In addition, a prospective 
purchaser agreement was signed between EPA and the Glen Cove Industrial 
Development Corporation for the LI Tungsten and Captain's Cove 
Superfund sites. Proceeds from selling the property will go toward 
repaying response costs.

         REMOVING BARRIERS TO REDEVELOPMENT--LIABILITY CONCERNS

    Over the past several years, EPA has removed many of the liability 
uncertainties associated with brownfields properties. EPA is promoting 
redevelopment of brownfields properties by protecting prospective 
purchasers, lenders, and property owners from incurring Superfund 
liability, and by working with States through MOAs to clarify site 
responsibilities.

Prospective Purchaser Agreements (PPAs)
    At some sites, the potential threat of liability under the 
Comprehensive Environmental Response, Compensation, and Liability Act 
(CERCLA) may be a barrier to the reuse of the property. Through 
agreements known as ``prospective purchaser agreements,'' EPA assures 
that prospective purchasers will not be responsible for cleaning up 
sites, provided they do not further contribute to or worsen 
contamination. EPA's PPA guidance was issued in May 1995 (http://
es.epa.gov/oeca/osre/liabil.html), and has been used to stimulate the 
development of sites where parties otherwise may have been reluctant to 
redevelop due to liability concerns. The 1995 guidance expanded the 
universe of sites eligible for such agreements to include sites where 
EPA has undertaken, is undertaking, or plans to undertake a response 
action. Prior to issuance of the 1995 guidance, EPA had entered into 
only 20 PPAs. In the last 5 years, EPA successfully has finalized over 
100 additional PPAs. Further, in 1999, EPA took several steps to 
streamline the process of obtaining PPAs, including the appointment of 
a PPA Expediter, development of a system to track PPA negotiations, and 
issuance of a model letter to respond to PPA requests.
    PPAs have brought about meaningful community befits through 
fostering brownfields use. Redevelopment projects cover over 1500 
acres, or 80 percent of the property secured through PPAs. EPA regional 
personnel estimate that nearly 1700 short-term jobs (e.g., 
construction) and over 1700 permanent jobs have resulted from 
redevelopment projects associated with PPAs. An estimated $2.6 million 
in local tax revenue for communities nationwide have resulted from 
these projects.
Comfort letters
    EPA has provided over 500 ``comfort letters'' (or ``status 
letters'') in appropriate circumstances to new owners, lenders, or 
developers to inform them of EPA's intentions at a site. The Policy on 
the Issuance of Comfort/Status Letters, issued in 1996 (http://
es.epa.gov/oeca/osre/961108.html) is designed to assist parties who 
seek to cleanup and reuse brownfields. EPA often receives requests from 
parties for some level of ``comfort'' that, if they purchase, develop, 
or operate on brownfield property, EPA will not pursue them for the 
costs to clean up any contamination resulting from the previous use. 
The policy contains four sample comfort/status letters that address the 
most common inquiries EPA receives regarding contaminated or 
potentially contaminated properties.
Property Owner Protections
    Other guidance issued by the Agency to benefit brownfields 
assessment, cleanup and redevelopment have included the ``Policy Toward 
Owners of Property Containing Contaminated Aquifers'' (http://
es.epa.gov/oeca/osre/950524-1.html). Prior to the issuance of this 
guidance in July 1995, people owning property under which hazardous 
substances had migrated through groundwater also feared liability under 
the statute. EPA responded by announcing that it will not take 
enforcement actions under the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA) against owners of property 
situated above contaminated ground water, provided the landowner did 
not cause or contribute to the contamination. EPA also will consider 
providing protection to such property owners from third party lawsuits 
through a settlement that affords contribution protection.

Lender Protections
    EPA supported the ``Asset Conservation, Lender Liability, and 
Deposit Insurance Protection Act of 1996,'' which clarified the 
liability of lenders, governmental entities that acquire property 
involuntarily, and fiduciaries under CERCLA and RCRA. The change in the 
law is providing significant relief to banks and lending institutions, 
expanding the availability of credit for small businesses, and greatly 
facilitating the assessment, cleanup, and redevelopment of brownfield 
sites. EPA's lender liability policy, issued in 1997 (http://
es.epa.gov/oeca/osre/970630.html), clarifies the steps a lender or 
governmental entity may take after acquiring contaminated property 
through, for example, foreclosure or involuntary acquisition.

Supplemental Environmental Projects
    EPA encourages the use of Supplemental Environmental Projects 
(SEPs) to facilitate the reuse of brownfields through assessment and 
cleanup projects at brownfield properties. SEPS are environmentally 
beneficial projects that a defendant agrees to undertake in settlement 
of a civil penalty action, but that the defendant is not otherwise 
legally responsible to perform. SEPs enhance the environmental quality 
of communities that have been put at risk due to the violation of an 
environmental law. In September 1988, EPA issued a fact sheet promoting 
the use of SEPs at brownfields sites (http://es.epa.gov/oeca/osre/
980930.html).
    SEPs at brownfields sites can be a catalyst to brownfields 
development. For example, a SEP provision within a consent decree 
negotiated with Sherwin Williams required the company to contract with 
the City of Chicago to perform an $850,000 remediation project at a 
brownfields site in an Environmental Justice community near the 
facility.

    Removing Sites From CERCLIS
    Finally, EPA believes that the removal of sites from the active 
Federal inventory, the Comprehensive Environmental Response, 
Compensation and Liability Information System (CERCLIS), is having 
positive repercussions for the Brownfields Initiative. To date, EPA has 
removed 32,191 sites (more than 75 percent of the total) from CERCLIS. 
The removal of these sites eliminates the stigma of potential 
contamination and fear of liability associated with these sites, and 
allows stakeholders to focus on the future land use and redevelopment 
of such sites.

                       BROWNFIELDS TAX INCENTIVE

    EPA is pleased with the passage of the Brownfields Tax Incentive 
passed in the 105th Congress. Passage of the 1997 Brownfields Tax 
Incentive has enabled the Federal Government to level the economic 
playing field between brownfields and greenfield sites. Under the tax 
incentive, certain environmental cleanup costs for properties in 
designated areas are fully deductible in the year in which they are 
incurred, rather than capitalized. This incentive can reduce the 
capital cost for these types of investments by more than one half. We 
regard this tax provision as an essential element of a complete and 
comprehensive brownfields program and hope it can be made a continuing 
and broad tool for brownfields redevelopment in the future. Under 
current law, the incentive will expire on December 31, 2001. The 
President's fiscal year 2001 Budget request proposes to make it 
permanent.
    The tax incentive is applicable to properties that meet specified 
land use, contamination, and geographic requirements. Both rural and 
urban sites qualify for the proposed incentive. Sites on or proposed 
for EPA's National Priorities List are excluded. In West Chester, 
Pennsylvania, the tax incentive was used to help a demolition and 
environmental service company relocate its headquarters at a 
brownfield. This site was in a part of the town suffering a 29.6 
percent poverty rate, well above the 20 percent poverty rate threshold 
set in the guidelines. The company estimates that 100-200 jobs could be 
created, and that nearly $42,000 would be returned to the company 
through the deduction.

                          BETTER AMERICA BONDS

    Innovative approaches and solutions to the problems faced by 
communities are manifested in every aspect of brownfields. Innovative 
financing efforts are no exception. Just as the Federal Government has 
helped the brownfields program through the tax incentive, so too, will 
the Clinton Administration's latest effort through the proposed Better 
America Bonds program. This proposal for fiscal year 2001 seeks to 
create $10.75 billion in bonding authority for state, local, and tribal 
governments over 5 years. Communities will have access to zero-interest 
financing because investors who buy these 15 year bonds will receive 
Federal tax credits in lieu of interest paid by the bond issuers. The 
tax credits would total approximately $700 million over 5 years. 
Communities would pay back the principal at the end of the 15-year term 
of the bond.
    To help communities preserve greenspace for future generations, 
protect public health, and provide for greater economic development, 
Better America Bonds can be used for three purposes:
    <bullet>  Preserve and Enhance Open Space: State, Tribal and local 
governments can create, restore, or enhance parks, preserve 
greenspaces, and protect threatened farmland and wetlands. Land can be 
protected either by acquiring title or purchasing permanent easements.
    <bullet>  Protect Water Quality: Rivers, lakes, coastal waters, and 
wetlands--and drinking water sources--can be restored or protected 
through reducing polluted runoff, the largest remaining threat to the 
nations' waterways. Eligible projects to curb runoff include purchase 
of sensitive lands, wetlands restoration, and the creation of planted 
or forested buffer strips along waterways.
    <bullet>  Clean Up Brownfields: Pressure to develop greenspace can 
be eased through cleaning up and reusing brownfields. Communities can 
clean up brownfields for use as open space, or for economic 
redevelopment.
    EPA believes Better America Bonds will further the Brownfields 
Economic Redevelopment Initiative by providing much needed flexible 
funding that communities can use for brownfields activities.

                        BROWNFIELDS LEGISLATION

    The Clinton Administration supports the passage of targeted 
brownfields legislation and views it as an important step toward 
providing opportunities to local communities and neighborhoods that are 
struggling to clean up and develop abandoned commercial and industrial 
sites. We commend the committee for developing a good, bipartisan, 
bill. We advocate a legislative approach that clarifies liability 
provisions in the CERCLA statute for:
    <bullet>  prospective purchasers of contaminated property;
    <bullet>  innocent landowners; and
    <bullet>  contiguous property owners.
    In addition to these responsible liability provisions, brownfields 
legislation should provide funding for brownfield assessment and 
cleanup through grants and loans. Further, the legislation should 
provide support for effective State Voluntary Cleanup Programs. At the 
same time, the Federal ``safety net'' must be preserved to address 
circumstances which may present an imminent and substantial 
endangerment to the public and the environment. Such an approach enjoys 
broad bipartisan support in Congress and would be valuable in speeding 
the cleanup of brownfields.
    The Administration is pleased that S. 2700:
    <bullet>  Is modeled on the Administration's successful brownfields 
program. S. 2700 authorizes the use of brownfield grants for the full 
range of successful programs currently funded by EPA's brownfields 
program and improves on earlier proposals in providing EPA with better 
flexibility to manage this program. S. 2700 also more clearly exempts 
Federal facilities, except for facilities on Tribal lands, from the 
definition of ``brownfields site.''
    <bullet>  Provides liability protection for prospective purchasers 
and property owners
    S. 2700 clarifies that prospective purchasers of contaminated 
property, innocent landowners, and contiguous property owners, that 
meet the requirements of the bill, are not liable under Superfund.
    <bullet>  Does not undermine Superfund cleanup progress
    S. 2700 does not contain comprehensive Superfund remedy or 
liability provisions that would delay the current cleanup progress in 
the Superfund program.
    S. 2700 clearly represents a very positive step forward. We support 
the bill and the efforts of the committee to draft bipartisan 
brownfields legislation, consistent with the Administration's view on 
brownfields. The funding provisions promote the adoption of EPA/State 
Memorandum of Agreement (MOAs) or the development of minimum State 
criteria. Further, the bill requires a State to maintain a publicly 
available list of planned or completed sites in State Voluntary Cleanup 
Programs to be eligible for the bar on Federal enforcement authority. 
The bill has also strengthened the definition of ``eligible sites'' 
that are subject to an enforcement bar from prior bills.
    While the Administration supports S. 2700, however, we believe 
there are improvements that need to be made to the bill. S. 2700 bars 
Federal enforcement for response actions. However, the bill does not 
require minimum criteria for an adequate State program. We continue to 
believe that States should be required to demonstrate that their 
programs satisfy minimum criteria before Federal enforcement bars 
apply. In particular, there is no mechanism to ensure appropriate 
public participation in State cleanups or provide assurance through 
State review or approval that site cleanups are adequate. Both public 
participation and accountability are important to making good cleanup 
decisions. In addition, although S. 2700 includes a public list of 
sites at which the State has undertaken or is planning action, a site 
need not be on that list in order for the Federal enforcement bar to 
apply, and the list need not be current. A list that is updated more 
frequently than annually, as well as a clear link between the list and 
the enforcement bar, would strengthen the requirement.
    Further, the ``reopener'' provision in S. 2700 that defines the 
circumstances in which Federal enforcement may be appropriate in State 
cleanup programs, requires the Administrator to determine that a 
release may present an ``imminent and substantial endangerment'' AND 
that additional response actions are likely to be necessary.'' This 
language is more restrictive than ``imminent and substantial 
endangerment'' enforcement provisions in other Federal environmental 
statutes and is likely to generate unnecessary and costly new 
litigation. It would be preferable to retain the existing CERCLA 106 
standard of ``imminent and substantial endangerment.'' We also believe 
that adequate protections must remain for situations when properties 
cleaned up to industrial use are thereafter developed for residential 
use. EPA must retain authority to respond to these potential threats to 
public health.
    The Administration has other issues and technical comments that we 
would like to share with the committee as the bill continues through 
the legislative process. We would also like to work with you on 
appropriate resource levels consistent with the President's budget.

                               CONCLUSION

    The Administration believes that an agreement can be reached with 
Congress on bipartisan, targeted brownfields legislation to promote the 
cleanup and reuse of brownfields sites across this country. We believe 
that S. 2700 represents a very positive step forward toward our mutual 
goals. We look forward to working with the committee to enact 
effective, protective, brownfield legislation this year.
                               __________
     Statement of Hon. J. Christian Bollwage, Mayor, Elizabeth, NJ
    I am J. Christian Bollwage, Mayor of Elizabeth, New Jersey. I am 
pleased to appear today on behalf of The United States Conference of 
Mayors, a national organization that represents more than 1,050 U.S. 
cities with a population of 30,000 or more. Within the Conference of 
Mayors, I serve as a member of the organization's Advisory Board, and I 
am a cochair of the Brownfields Task Force.
    Mr. Chairman, Senator Lautenberg and other members of the 
committee, I am pleased to appear before you today to convey the 
Conference's support for the bipartisan brownfields proposal, the 
Brownfields Revitalization and Environmental Restoration Act of 2000 
(S. 2700).
    At the Conference's 68th Annual Meeting, which was held in Seattle 
earlier this month, the membership of the Conference approved a new 
policy statement conveying the support of the nation's mayors for S. 
2700. I have attached a copy of this statement to my testimony.
Overview
    I was pleased to have the opportunity to join with you today to 
discuss your proposed bipartisan legislation, which the mayors believe 
offers the best opportunity for successful legislative action in the 
Senate this year.
    It seems that it was just the other day that I appeared before you 
and urged this panel to develop a bipartisan agreement. On behalf of 
the nation's mayors, I want to thank you for your responsiveness to our 
call for action.
    For some time, the nation's mayors and others have pressed for a 
legislative response to the growing problem of brownfields. And, the 
Conference, speaking on behalf of the mayors, has appreciated the many 
opportunities to contribute to this committee's substantial record on 
these issues.
    In our testimonies before this committee, the Conference has 
provided extensive views on the many benefits for the Nation from an 
expanded Federal policy commitment in this area. Earlier this year, I 
was pleased to provide the committee with our Third Annual Brownfields 
Survey, ``Recycling America's Land'', which dramatically portrays the 
challenges before the Nation and the vast potential for all Americans 
if we can successfully reclaim and redevelop these sites. We believe 
that this survey is just the tip of the iceberg.
    I also want to underscore how pleased we are that your efforts have 
secured a thoughtful and balanced bipartisan package on these issues. 
And, S. 2700 is a bill that responds directly to the key issues that 
have been identified by the Conference's member mayors.
    We believe the legislation before you is the right way to get 
started on these issues. It delivers much needed financial tools and it 
sets forth a policy framework that we believe will help further local 
and state efforts to recycle America's land. And, we believe that the 
time has come to enact changes in Federal law to help us more 
effectively recycle America's land. Lets begin by reporting this 
legislation promptly to the full Senate, followed by full Senate 
action.
S. 2700
    Let me talk specifically about S. 2700 and why we believe it 
warrants broad Senate support.
    First, the legislation addresses the three key issues resources, 
liability relief and further clarification of state and Federal roles 
at brownfields sites we identified in our most recent statement before 
this committee. And, it does so in a manner that has garnered support 
from both public and private sector interests.
On Funding
    <bullet>  It provides communities with considerable flexibility in 
securing resources for both assessments and cleanup activities, 
allowing communities to seek site-specific resources or to support 
continuing local programs;
    <bullet>  It provides authority to access both grants and loan 
capitalization funds to meet varying conditions and status of 
properties within their communities;
    <bullet>  It provides varying means for communities to seek 
assistance directly, or in partnership with other communities in their 
area or through the state;
    <bullet>  It provides flexibility to communities to use a portion 
of these resources to monitor the health of populations in affected 
areas and the monitoring and enforcement of institutional controls; and
    <bullet>  It provides communities that have previously received 
brownfields loan capitalization funds with the authority to deploy 
these prior resources under the new rules set forth in the legislation; 
and
    <bullet>  It provides assurances that the distribution of these 
funds will serve more urban as well as rural needs.
    In addition, we believe that the funding thresholds are well 
conceived, as well as the criteria EPA will follow in making awards 
under this program.
    Mr. Chairman, I would hope that the committee would also monitor 
the progress of funding commitments to this program, and the success of 
local efforts, to ensure that the overall authorization level of $150 
million meets the demand for these resources.
Liability Reforms
    On the liability reforms, I want to underscore our support for your 
proposals to protect innocent prospective purchasers and contiguous 
landowners.
    The investment of public resources, which we believe is appropriate 
and necessary, will only carry the Nation so far. Liability reforms, as 
you have provided, are critical to our efforts to motivate the private 
sector developers, business owners, entrepreneurs, and others to take 
another look at previously developed land or brownfields for business 
startups or expansions, housing and other uses. These reforms underpin 
our efforts to tap the private sector to help us recycle these 
properties.
    On prospective purchasers, S. 2700 follows the basic principles 
that have been articulated by mayors and others in seeking needed 
reforms to protect innocent purchasers of these sites. This legislation 
clearly delineates the thresholds for granting innocent parties certain 
relief from Superfund liability. And, these provisions generally follow 
other legislative proposals that have been before this committee and in 
the House.
    Another area of liability relief provided in the legislation is for 
contiguous landowners. There is no category of landowner that is more 
innocent than those who has been threatened with Superfund liability 
due to their proximity to a contaminated site. It is essential that 
liability protections be extended to these parties.
Future Land Uses/Institutional Controls
    I noted previously that S. 2700 provides local governments with the 
flexibility to use a portion of funding they receive to monitor and 
enforce institutional controls.
    In addition, the legislation emphasizes the need for the states to 
maintain a public record of sites to help inform the public about the 
status of sites in local areas. This provision offers a means to 
deliver more assurances to the public that institutional controls are 
part of the public record.
    On this provision, we would encourage you to consider prompting the 
state to deliver this information using contemporary technology through 
GIS formats on the Internet. The Conference supports such approaches, 
as we testified last year at the oversight hearings on TEA-21 
implementation, urging that a similar approach be used by the states to 
show the public where TEA-21 resources are being invested. And, we 
would also ask that the information be formatted in a way to inform the 
public, rather than further stigmatizing these sites. The reuse of 
these properties is a very positive endeavor, and as such we should 
avoid stigmatizing these sites, which is one of the real challenges 
local areas already confront in redeveloping these sites.
State Voluntary Cleanup Programs
    Finally, Mr. Chairman, let me offer some comments on provisions 
relating to State Response Programs.
    As we testified previously, the provisions of S. 2700 respond to 
our recommendation that the committee provide additional funding 
support to strengthen state voluntary cleanup programs and ensure that 
these funds further build state capacity to address brownfields sites, 
not just emphasizing the more contaminated NPL-caliber properties. We 
believe that the provisions set forth in S. 2700 requesting that states 
describe these efforts is responsive to our request and doesn't 
constitute a burden on the states.
    S. 2700 also provides additional certainty for parties who conduct 
cleanups under state programs, one of the key areas that has been 
identified by mayors and those from the private sector. We believe that 
by including this further clarification in the statute, it should begin 
to allay private concerns about the role of U.S. EPA relative to state 
decisions.
Closing Comments
    Mr. Chairman, Senator Lautenberg, and members of the committee, let 
me conclude my remarks by again reiterating our support for your 
efforts to act in a bipartisan way on this legislation.
    The leadership of this committee and your staff have worked hard to 
craft this legislative package that we believe will help move our 
brownfields to the next level. This legislation makes important policy 
reforms to accelerate the nation's progress in recycling our land. 
Congressional action on these important issues is long overdue.
    Thank you for this opportunity to appear before you today.
                                 ______
                                 
          RESOLUTION OF THE UNITED STATES CONFERENCE OF MAYORS
     SUPPORTING SENATE BIPARTISAN ACTION ON BROWNFIELDS LEGISLATION

    WHEREAS, the nation's mayors have pressed for bipartisan 
Congressional legislative initiatives to help communities recycle the 
many thousands of brownfield sites throughout this nation; and
    WHEREAS, among the legislative elements of a broader Federal 
response to the national problem of the persistence and pervasiveness 
of brownfields in cities, towns and counties has been a call for 
increased funding commitments to cities for the assessment and cleanup 
of these sites; and
    WHEREAS, the mayors have also identified liability reforms, 
providing protection for innocent parties, both public and private 
entities, in their efforts to recycle these sites; and
    WHEREAS, the mayors have also sought further clarification in the 
relationship between the U.S. Environmental Protection Agency and the 
states in decisions and other actions regarding the cleanup and 
redevelopment of these sites; and
    WHEREAS, key leaders in the Senate, led by Senators Lincoln Chafee, 
Frank Lautenberg, Robert Smith and Max Baucus, recently introduced a 
bipartisan legislative proposal, the ``Brownfields Revitalization and 
Environmental Restoration Act'', which substantively deals with these 
key concerns,
    NOW, THEREFORE BE IT RESOLVED that The U. S. Conference of Mayors 
supports the ``Brownfields Revitalization and Environmental Restoration 
Act'' and urges the Senate to move forward promptly on this bipartisan 
initiative to help ensure that final Congressional action occurs this 
year on a brownfields reform package; and
    BE IT FURTHER RESOLVED that The U.S. Conference of Mayors urges its 
members to secure Senate cosponsors for this legislation to demonstrate 
the strong support of the nation's mayors for action on this 
legislation.
            Passed June 12th, 2000 The 68th Annual Conference of Mayors 
            Seattle, Washington
                               __________
 Statement of Preston A. Daniels, Mayor of Des Moines, Iowa, on behalf 
    of the: National Association of Local Government Environmental 
                        Professionals ``NALGEP''
Introduction
    Mr. Chairman and distinguished members of the subcommittee, my name 
is Preston Daniels, and I am the Mayor of the City of Des Moines, Iowa. 
Thank you for inviting me to testify today on behalf of the National 
Association of Local Government Environmental Professionals, or 
``NALGEP.'' NALGEP appreciates the opportunity to present this 
testimony on the views of local government officials from across the 
Nation on the need for Federal brownfields legislation to support the 
cleanup, redevelopment and productive reuse of brownfields sites. 
Today, I wish to convey how S. 2700, the ``Brownfields Revitalization 
and Environmental Restoration Act of 2000,'' would meet the needs of 
American communities to promote brownfields revitalization.
    NALGEP represents local government officials responsible for 
ensuring environmental compliance, and developing and implementing 
environmental policies and programs. NALGEP's membership consists of 
more than 135 local government entities located throughout the United 
States. Our members include many of the leading brownfields communities 
in the country such as Des Moines, Providence, Trenton, Richmond, 
Rochester, Portland, Chicago, Los Angeles, Salt Lake City, Dallas, and 
Cuyahoga County, Ohio, to name a few.
    In 1995, NALGEP initiated a brownfields project to determine local 
government views on national brownfields initiatives such as the EPA 
Brownfields Action Agenda. The NALGEP brownfields project culminated in 
a report, entitled Building a Brownfields Partnership from the Ground 
Up: Local Government Views on the Value and Promise of National 
Brownfields Initiatives, which was issued in February, 1997. That 
report called for new Federal resources to support brownfields 
revitalization, particularly cleanup. The report also called for new 
liability clarification, as well as authority for states to take a lead 
in voluntary brownfields cleanup. As this committee knows, local 
governments have sought Federal brownfields law for many years now.
    During the past few years, NALGEP has continued its work on 
brownfields through coordinating projects involving local officials to 
address the following issues: (1) Brownfields Cleanup Revolving Loan 
Funds; (2) use of HUD Community Development Block Grants for 
Brownfields; (3) partnerships between business and local government 
officials to reduce sprawl and promote smart growth; and (4) 
implementation of the Administration's Brownfields Showcase Community 
initiative. As a result of these efforts, NALGEP is well qualified to 
provide the committee with a representative view of how local 
governments, and their environmental and development professionals, 
believe the Nation must move ahead to create long-term success in the 
revitalization of brownfields properties.
    NALGEP's testimony today will focus on the following areas: (1) the 
urgent need for increased Federal funding to support the assessment, 
cleanup and redevelopment of brownfields sites across the country; (2) 
the need for liability clarification to encourage states and the 
private sector to step forward and revitalize more sites; (3) the need 
for Federal brownfields legislation to provide funding for the cleanup 
of brownfields blighted by lead, asbestos and petroleum; and (4) the 
need to facilitate the participation of other Federal agencies, such as 
the Army Corps of Engineers, in local brownfields initiatives. Overall, 
our view of the opportunity created by S. 2700 is straightforward this 
bill provides critical, positive support to local governments who badly 
need Federal resources and assistance for the revitalization of 
America's brownfields. I would also note that both of my senators, 
Senator Grassley and Senator Harkin, are cosponsors of S. 2700.
    The cleanup and revitalization of brownfields represents one of the 
most exciting, and most challenging, environmental and economic 
initiatives in the nation. Brownfields are abandoned, idled, or under-
used properties where expansion or redevelopment is hindered by real or 
perceived contamination. The brownfields challenge faces virtually 
every community; experts estimate that there may be as many as 500,000 
brownfields sites throughout the country.
    The brownfields issue illustrates the connection among 
environmental, economic and community goals that can be simultaneously 
fostered through a combination of national leadership, state 
incentives, and the innovation of local and private sector leaders. 
Cleaning up and redeveloping brownfields provides many environmental, 
economic and community benefits including:
    <bullet>  expediting the cleanup of thousands of contaminated 
sites;
    <bullet>  renewing local economies by stimulating redevelopment, 
creating jobs, expanding the local tax base, and enhancing the vitality 
of communities; and--limiting sprawl and its associated environmental 
problems such as air pollution, water pollution, traffic and the 
development of rapidly disappearing open spaces especially impacts on 
the heartland's prime farmland.
Des Moines Brownfields Initiatives
    The City of Des Moines is impacted by brownfields, and is seeking 
partnership with the Federal Government to revitalize its brownfields 
and create new opportunity for our citizens. With the business 
community, key Federal and state agencies, and civic organizations, Des 
Moines is demonstrating how turning its brownfields into waterfront and 
mixed-use developments, new manufacturing, and recreational and open 
spaces can keep Des Moines a livable city, empower distressed 
communities, and avoid the sprawling of the metropolitan region into 
the area's precious farmland. In addition, Des Moines' brownfields 
efforts demonstrate the value of Federal support, as U.S. EPA's 
resources and assistance to my City have made a critical difference in 
our ability to revitalize our blighted brownfields sites. EPA has been 
a spark that has fueled the brownfields flame in our community.
    Des Moines has a solid track record in brownfields, as demonstrated 
by the successful revitalization of the Guthrie Avenue Business Park a 
$30 million, 815,000 square feet office/warehouse/manufacturing project 
on a formerly contaminated site. The City is also underway with Phase 
II environmental assessment and cleanup plans for the 1200-acre Des 
Moines Agribusiness Park, which will accommodate the growth of value-
added agribusinesses and assist in positioning Iowa as the Food Capital 
of the World. The Ag-Park is expected to add $250 million to the tax 
base and create 7,000 new jobs.
    Des Moines is also seeking to assess, clean up, and redevelop the 
Riverpoint West area in downtown Des Moines. The 300-acre Riverpoint 
West area is located directly south of the Central Business District, 
north of the Raccoon River, in a census tract with a 37.8 percent 
poverty rate. Prior uses in the Riverpoint area have included but are 
not limited to rail yards; newspaper and magazine printing; tanning; 
asphalt paving; paint manufacturing; limestone, coal and coke yards; 
foundry operations; iron works and industrial chemical manufacturing. 
Soil and groundwater concerns are evident, and there are tremendous 
land disturbances throughout this area. Construction and demolition 
debris, metal drums with unknown contents, straw, glass and broken tile 
have been deposited. The redevelopment challenge not only involves 
determining the nature and extent of environmental contamination, but 
also assessing the geotechnical constraints that may limit construction 
density and affect the economic viability of the project.
    In partnership with the Greater Des Moines Partnership (comprised 
of 17 chambers of commerce and business associations), the City will 
revitalize this environmentally contaminated industrial area into a 
mixed-used urban village with approximately 1,000 residential units, 
850,000 square feet of low-rise office and retail space, and 
environmental and recreational enhancements along the riverfront. By 
creating an interconnection with the adjacent Central Business 
District, Riverpoint West can advance the success of downtown 
redevelopment initiatives by meeting needs for workers and new 
consumers, providing parking, and offering support services. Moreover, 
the revitalization of Riverpoint West will be coordinated with the 
recycling of the adjacent DICO Superfund site into essential parking 
and transportation facilities. A Phase I assessment and an initial 
economic feasibility study have been completed, and Des Moines is ready 
to begin Phase II testing on 175 acres. Several local developers have 
indicated their serious interest in redevelopment opportunities. When 
completed, this revitalization project is expected to create 1,000 jobs 
and increase the tax base twelvefold from approximately $12 million to 
more than $140 million in the Riverpoint West area alone, not even 
taking into account the positive economic reinvestment that can spread 
throughout downtown Des Moines.
    Although Des Moines has already made great progress, success in 
achieving the community's vision to revitalize Riverpoint West will 
require substantial additional resources and support, including from 
the Federal Government. Des Moines is facing daunting challenges and 
expense at the Riverpoint West area, which needs further environmental 
assessment and geotechnical exploration; significant environmental 
remediation; substantial site preparation for development; and flood 
control and aquatic ecosystem restoration assistance. Clearly, the 
Federal Government has a role to play, and Federal legislation for 
brownfields revitalization could make a major difference for our 
revitalization plans. And, the time is now for new national brownfields 
incentives, while the economy is strong and when this legislation can 
make a positive difference on the market feasibility of blighted urban 
sites.

The Proposed Legislation Will Meet Local Government Needs for Federal 
        Brownfields Incentives
    Local governments across America need Federal incentives and 
assistance for brownfields revitalization. Priority needs include 
funding for assessment and cleanup, liability clarification for parties 
who can foster the cleanup of brownfields, and clear authority for 
state-led brownfields cleanups.

I. Ensuring Adequate Resources for Brownfields Revitalization
    As Des Moines' efforts to revitalize the Riverpoint West area 
clearly demonstrate, local governments need additional Federal funding 
for site assessment, remediation and economic redevelopment to ensure 
long-term success in revitalizing our brownfields. The costs of site 
assessment and remediation can create a significant barrier to the 
redevelopment of brownfields sites. In particular, the uncertainty 
associated with brownfields sites pose an initial obstacle that drives 
development away from brownfields sites. With this initial obstacle 
removed, localities eliminate uncertainty, save time, and are much 
better able to put sites into a development track. In addition, the 
allocation of public resources for site assessment can provide a signal 
to the development community that the public sector is serious about 
resolving liability issues at a site and putting it back into 
productive reuse. In fact, the resources provided to Des Moines through 
the EPA brownfield assessment pilot program are what enabled the City 
to get serious about the redevelopment of our priority brownfield 
sites. Without this help, many brownfields will continue to blight 
communities across America and encourage sprawling patterns of 
development.
    Likewise, resources for cleanup are the missing link for many 
brownfield sites a link that keeps brownfields from being redeveloped 
into productive areas in many communities like Des Moines. Although the 
private sector has a key role to play in brownfields cleanup, the 
catalyst of Federal cleanup dollars is needed at many sites to leverage 
private cleanup funds and to help level the development playing field 
between brownfields and our precious open spaces and agricultural 
lands. The use of public funds for the assessment and cleanup of 
brownfields sites is a smart investment. Public funding can be 
leveraged into substantial private sector resources. Investments in 
brownfields yield the economic fruit of increased jobs, expanded tax 
bases for cities, and urban revitalization. And the investment of 
public resources in brownfields areas will help defer the environmental 
and economic costs that can result from unwise, sprawling development 
outside of our urban centers.
    The $150 million in annual Federal funding for brownfields 
revitalization provided in S. 2700 will go a long way toward helping 
communities make progress on this daunting brownfields problem. 
Furthermore, S. 2700 properly recognizes a wide variety of local 
entities as eligible entities for Federal brownfields funding, 
including not only local governments, states and tribes, but also local 
development agencies, regional economic development districts, and 
other entities that play key roles in local brownfields revitalization. 
The following types of Federal funding will help local communities 
continue to make progress in revitalizing our brownfields sites:
    <bullet>  Grants for Site Assessments and Investigation: EPA's 
Brownfields Assessment Pilot grants have been extremely effective in 
helping localities to establish local brownfields programs, inventory 
sites in their communities, investigate the potential contamination at 
specific sites, and educate key stakeholders and the general public 
about overcoming the obstacles to brownfields redevelopment. Additional 
funding for site assessments and investigation is needed to help more 
communities establish local brownfields programs and begin the process 
of revitalizing these sites in their communities. S. 2700 recognizes 
the value of Federal funding for brownfields assessments, and 
appropriately provides money for the development of local assessment 
programs, as well as for targeted brownfields assessment activities.
    <bullet>  Grants for Cleanup of Brownfields Sites: There is a 
strong need for Federal grants to support the cleanup of brownfields 
sites across the country. The U.S. Conference of Mayors' recent report 
on the status of brownfields sites in 223 cities nationwide indicates 
that the lack of cleanup funds is the major obstacle to reusing these 
properties. For many brownfields sites, a modest grant targeted for 
cleanup can make the critical difference in determining whether a site 
is redeveloped, creating new jobs, tax revenues and return on 
investment, or whether the site remains polluted, dangerous and 
abandoned. The approach in S. 2700 recognizes this critical funding 
need, and appropriately provides for direct grants for cleanup, based 
on considerations including the protection of greenspace and parks, and 
the re-use of existing infrastructure. NALGEP emphasizes the importance 
of the subcommittee's recognition of the connection between brownfields 
redevelopment and smart growth in our local communities.
    <bullet>  Grants to Capitalize Brownfields Cleanup Revolving Loan 
Funds: In addition to grants, Federal funding to help localities and 
states to establish revolving loan funds (RLFs) for brownfields cleanup 
is another effective mechanism to leverage public and private resources 
for redevelopment. EPA deserves credit for championing brownfields RLFs 
as a mechanism for helping communities fill a critical gap in cleanup 
funding. Likewise, S. 2700 provides needed improvements to the RLF 
program, by enabling EPA to separate cleanup grants for loan funds from 
the burdensome and unnecessary requirements of the Superfund National 
Contingency Plan that have hindered the effective use of RLF funds thus 
far.

II. Liability Clarification at Brownfields Sites
    On the issue of Federal Superfund liability associated with 
brownfields sites, NALGEP has found that the Environmental Protection 
Agency's overall leadership and its package of liability clarification 
policies have helped establish a climate conducive to brownfields 
renewal, and have contributed to the cleanup of specific sites 
throughout the nation. Congress can enhance these liability reforms by 
further clarifying in legislation that Superfund liability does not 
apply to certain ``non-responsible'' parties such as innocent 
landowners, prospective purchasers and contiguous property owners. S. 
2700 clearly addresses these issues, and overcomes a hurdle that has 
kept innocent parties from voluntarily cleaning brownfields sites.

III. Enhancing the Role of the States in Brownfields Cleanup, Improving 
        State Programs, and Keeping the Safety Net of EPA Protection
    Addressing the American brownfields problem will require Federal 
law that provides effective State brownfields cleanup programs with the 
authority to foster cleanups and clarify liability at these sites. 
Moreover, resources and support are needed to improve the effectiveness 
of many state brownfields cleanup programs. At the same time, the law 
must preserve the ability of U.S. EPA to protect citizens and local 
governments from bad cleanups and ineffective state programs. The 
approach proposed by S. 2700 puts forth a well crafted, workable 
approach that can help foster increased brownfields revitalization.
    It is clear that effective brownfields likely to take place in 
states with effective voluntary cleanup programs. NALGEP has also found 
that states are playing a critical lead role in promoting the 
revitalization of brownfields. More than 40 states have established 
voluntary or independent cleanup programs that have been a primary 
factor in successful brownfields cleanup, including my home state of 
Iowa. The effectiveness of state leadership in brownfields is 
demonstrated by those 14 states that have taken primary responsibility 
for brownfields liability clarification pursuant to Superfund 
``Memoranda of Agreement'' (MOAs) with U.S. EPA. These MOAs defer 
liability clarification authority to those states, and have resulted in 
increased brownfields activities in local communities that can make use 
of these state-EPA agreements.
    The Federal Government should further encourage states to take the 
lead at brownfields sites. States are more familiar with the 
circumstances and needs at individual sites. A state lead will increase 
local flexibility and provide confidence to developers, lenders, 
prospective purchasers and other parties that brownfields sites can be 
revitalized without the specter of Superfund liability or the 
involvement of Federal enforcement personnel. Parties developing 
brownfields want to know that the state can provide the last word on 
liability, and that there will be only one ``policeman,'' barring 
exceptional circumstances. Moreover, it is clear that U.S. EPA lacks 
the resources or ability to provide the assistance necessary to 
remediate and redevelop the hundreds of thousands of brownfields sites 
in our communities.
    S. 2700 provides that EPA will not take Superfund enforcement or 
cost recovery action against a person who is conducting or has 
completed a response action regarding the specific release that is 
addressed by the response action that is in compliance with a State 
program that specifically governs response actions for the protection 
of public health and the environment. The approach taken by S. 2700 
will help effective State brownfields programs to take a lead in 
brownfields cleanup, and give confidence to brownfields developers that 
they can get the job done.
    At the same time, local officials are also concerned that citizens 
need to be protected from inadequate brownfields cleanups, in which a 
state program does not effectively protect public health or in other 
exceptional circumstances. States vary in the technical expertise, 
resources, staffing, and commitment necessary to ensure that 
brownfields cleanups are adequately protective of public health and the 
environment. If brownfields sites are improperly assessed, remediated 
or put into reuse, it is most likely that the local government, will 
bear the largest impact from any public health emergency or 
contamination of the environment. Thus, it is important to keep the 
safety net of U.S. EPA Superfund authority intact for those exceptional 
circumstances in which a state needs help at a particular brownfields 
cleanup, the sites presents an imminent and substantial threat to 
health or the environment, or in other limited situations. The approach 
in S. 2700 keeps this important safety net for our citizens and the 
environment in place, and provides a balanced and workable state-
Federal approach.
    The approach provided in S. 2700 goes even further, by providing 
resources and assistance to enable States to develop and improve their 
brownfields cleanup programs, so that brownfield cleanups are effective 
and circumstances of public health threat remain truly exceptional. By 
tying grants to States for the enhancement of cleanup programs to 
criteria to ensure that the state programs have adequate provisions for 
meaningful public participation, enforcement, and mechanisms for the 
approval of cleanups, S. 2700 will help promote state leadership on 
brownfields cleanup.

IV. Addressing the Local Need to Clean Up Brownfields with Lead, 
        Asbestos, and Petroleum Contamination
    NALGEP suggests one major improvement for the proposed brownfields 
legislation, which is needed to address a priority local problem--the 
cleanup of brownfields impacted by petroleum, or by lead and asbestos 
in the structures of buildings.
    Under the current law and agency programs, these pollutants are 
excluded from Federal brownfields assistance. These environmental 
contaminants are some of the most difficult problems facing local 
communities in their public health protection and revitalization. 
Abandoned gas stations, housing with severe lead paint hazards, and 
buildings contaminated with asbestos blight communities across America, 
and represent a top local priority for cleanup. In fact, EPA reports 
that there are nearly 200,000 abandoned gas stations in the United 
States.
    ``Brownfield sites'' with these pollutants should be eligible for 
funding. Local governments should be granted the flexibility to direct 
their brownfields resources, including Federal funds provided by S. 
2700, to their priority brownfields projects, including those that are 
blighted by petroleum, lead or asbestos. In addition, these sites 
should also be eligible to take advantage of the liability protections 
offered to innocent landowners, prospective purchasers, and contiguous 
property owners.

V. Liability Clarification at Brownfields Sites
    On the issue of Federal Superfund liability associated with 
brownfields sites, NALGEP has found that the Environmental Protection 
Agency's overall leadership and its package of liability clarification 
policies have helped establish a climate conducive to brownfields 
renewal, and have contributed to the cleanup of specific sites 
throughout the nation. Congress can enhance these liability reforms by 
further clarifying in legislation that Superfund liability does not 
apply to certain ``non-responsible'' parties such as innocent 
landowners, prospective purchasers and contiguous property owners. S. 
2700 clearly addresses these issues, and overcomes a hurdle that has 
kept innocent parties from voluntarily cleaning brownfields sites.
VI. Enhancing the Role of the States in Brownfields Cleanup, Improving 
        State Programs, and Keeping the Safety Net of EPA Protection
    Addressing the American brownfields problem will require Federal 
law that provides effective State brownfields cleanup programs with the 
authority to foster cleanups and clarify liability at these sites. 
Moreover, resources and support are needed to improve the effectiveness 
of many state brownfields cleanup programs. At the same time, the law 
must preserve the ability of U.S. EPA to protect citizens and local 
governments from bad cleanups and ineffective state programs. The 
approach proposed by S. 2700 puts forth a well crafted, workable 
approach that can help foster increased brownfields revitalization.
    It is clear that effective brownfields revitalization is most 
likely to take place in states with effective voluntary cleanup 
programs. NALGEP has also found that states are playing a critical lead 
role in promoting the revitalization of brownfields. More than 40 
states have established voluntary or independent cleanup programs that 
have been a primary factor in successful brownfields cleanup, including 
my home state of Iowa. The effectiveness of state leadership in 
brownfields is demonstrated by those 14 states that have taken primary 
responsibility for brownfields liability clarification pursuant to 
Superfund ``Memoranda of Agreement'' (MOAs) with U.S. EPA. These MOAs 
defer liability clarification authority to those states, and have 
resulted in increased brownfields activities in local communities that 
can make use of these state-EPA agreements.
    The Federal Government should further encourage states to take the 
lead at brownfields sites. States are more familiar with the 
circumstances and needs at individual sites. A state lead will increase 
local flexibility and provide confidence to developers, lenders, 
prospective purchasers and other parties that brownfields sites can be 
revitalized without the specter of Superfund liability or the 
involvement of Federal enforcement personnel. Parties developing 
brownfields want to know that the state can provide the last word on 
liability, and that there will be only one ``policeman,'' barring 
exceptional circumstances. Moreover, it is clear that U.S. EPA lacks 
the resources or ability to provide the assistance necessary to 
remediate and redevelop the hundreds of thousands of brownfields sites 
in our communities.
    S. 2700 provides that EPA will not take Superfund enforcement or 
cost recovery action against a person who is conducting or has 
completed a response action regarding the specific release that is 
addressed by the response action that is in compliance with a State 
program that specifically governs response actions for the protection 
of public health and the environment. The approach taken by S. 2700 
will help effective State brownfields programs to take a lead in 
brownfields cleanup, and give confidence to brownfields developers that 
they can get the job done.
    At the same time, local officials are also concerned that citizens 
need to be protected from inadequate brownfields cleanups, in which a 
state program does not effectively protect public health or in other 
exceptional circumstances. States vary in the technical expertise, 
resources, staffing, and commitment necessary to ensure that 
brownfields cleanups are adequately protective of public health and the 
environment. If brownfields sites are improperly assessed, remediated 
or put into reuse, it is most likely that the local government will 
bear the largest impact from any public health emergency or 
contamination of the environment. Thus, it is important to keep the 
safety net of U.S. EPA Superfund authority intact for those exceptional 
circumstances in which a state needs help at a particular brownfields 
cleanup, the sites presents an imminent and substantial threat to 
health or the environment, or in other limited situations. The approach 
in S. 2700 keeps this important safety net for our citizens and the 
environment in place, and provides a balanced and workable state-
Federal approach.
    The approach provided in S. 2700 goes even further, by providing 
resources and assistance to enable States to develop and improve their 
brownfields cleanup programs, so that brownfield cleanups are effective 
and circumstances of public health threat remain truly exceptional. By 
tying grants to States for the enhancement of cleanup programs to 
criteria to ensure that the state programs have adequate provisions for 
meaningful public participation, enforcement, and mechanisms for the 
approval of cleanups, S. 2700 will help promote state leadership on 
brownfields cleanup.

VII.Addressing the Local Need to Clean Up Brownfields with Lead, 
        Asbestos, and Petroleum Contamination
    NALGEP suggests one major improvement for the proposed brownfields 
legislation, which is needed to address a priority local problem the 
cleanup of brownfields impacted by petroleum, or by lead and asbestos 
in the structures of buildings. Under the current law and agency 
programs, these pollutants are excluded from Federal brownfields 
assistance. These environmental contaminants are some of the most 
difficult problems facing local communities in their public health 
protection and revitalization. Abandoned gas stations, housing with 
severe lead paint hazards, and buildings contaminated with asbestos 
blight communities across America, and represent a top local priority 
for cleanup. In fact, EPA reports that there are nearly 200,000 
abandoned gas stations in the United States. ``Brownfield sites'' with 
these pollutants should be eligible for funding. Local governments 
should be granted the flexibility to direct their brownfields 
resources, including Federal funds provided by S. 2700, to their 
priority brownfields projects, including those that are blighted by 
petroleum, lead or asbestos. In addition, these sites should also be 
eligible to take advantage of the liability protections offered to 
innocent landowners, prospective purchasers, and contiguous property 
owners.

VIII.Facilitating the Participation of Other Federal Agencies in 
        Brownfields Revitalization
    The cleanup and redevelopment of a brownfields site is often a 
challenging task that requires coordinated efforts among different 
government agencies at the local, state and national levels, public-
private partnerships, the leveraging of financial resources from 
diverse sources, and the participation of many different stakeholders. 
Many different Federal agencies can play a valuable role in providing 
funding, technical expertise, regulatory flexibility, and incentives to 
facilitate brownfields revitalization. For example, HUD, the Economic 
Development Administration, the Department of Transportation, and the 
Army Corps of Engineers have all contributed important resources to 
expedite local brownfields projects. The U.S. EPA and the 
Administration have provided strong leadership through the Brownfields 
Showcase Community initiative that is demonstrating how the Federal 
Government can coordinate and leverage resources from many different 
Federal agencies to help localities solve their brownfields problems.
    Congress can help strengthen the national brownfields partnership 
by further clarifying that the various Federal partners play a critical 
role in redeveloping brownfields, and by encouraging the agencies to 
meet local needs and to create innovative new approaches. For example, 
Congress should be commended for legislation passed in 1998 to clarify 
that HUD Community Development Block Grant funds can be used for all 
aspects of brownfields projects including site assessments, cleanup and 
redevelopment. This simple step has cleared the way for communities 
across the country to use these funds in a flexible fashion to meet 
their specific local needs. In addition, Congress has provided $25 
million in each of the past 2 years for HUD's Brownfields Economic 
Development Initiative.
    Similarly, Congress should consider clarifying that it is 
appropriate and desirable for the Army Corps of Engineers to use its 
resources and substantial technical expertise for local brownfields 
projects. In Des Moines, for instance, we need the Corps of Engineers' 
help to succeed in our revitalization of the Riverpoint West area, 
which is severely impacted by flooding, environmental contamination, 
and the need for restoration of the local aquatic ecosystem. The Corps 
of Engineers is already conducting a major flood control study for 
Riverpoint West, and Des Moines is seeking to expand this study to 
address ecosystem and environmental contamination issues.
    I understand that the Administration has proposed a new authority 
in the Water Resources Development Act 2000 legislation for brownfields 
cleanup, in order to protect the water quality and promote the 
revitalization of communities across the nation. Likewise, Senator 
Chafee has introduced S. 2335, the ``State and Local Brownfields 
Revitalization Act of 2000,'' which also provides the Corps with clear 
authority to conduct brownfields activities along America's waterways. 
NALGEP believes this is an excellent proposal that will make a big 
difference for our city and many other communities.
    Congress also should work with EPA and the Administration to 
determine how other agencies can help facilitate more brownfields 
revitalization. By taking these steps, Congress can give communities 
additional tools, resources, and flexibility to overcome the many 
obstacles to brownfields redevelopment.

Conclusion
    Senator Robert Kennedy once declared ``give me a place on which to 
stand, and I shall move the earth!'' The people of America, the people 
of our local communities, people in this Congress, are standing up on 
our brownfields and in our streets and in our neighborhoods and we are 
shouting, let's move the earth! Let us take these places that have been 
abandoned, and let us turn them back to jobs and business and parks and 
homes. Let us show that we can bring business people and environmental 
groups and City Hall and the Federal agencies together toward a common, 
exciting goal. Let us work together to let entrepreneurship thrive. Let 
us take this notion that jobs and the environment are a tradeoff, and 
recycle it into a new notion of livable communities where these goals 
are linked and supportive of each other. And let's do it now.
    In conclusion, local governments are excited to work with the 
Federal Government to promote the revitalization of brownfields, 
through a combination of increased Federal investment in community 
revitalization, further liability clarification, and other mechanisms 
to strengthen the national partnership to cleanup and redevelop our 
communities. On behalf of NALGEP, I thank the subcommittee for this 
opportunity to testify, and we would be pleased to provide further 
input as the process moves forward.
                               __________
   Statement of Jan H. Reitsma, Director, Rhode Island Department of 
                        Environmental Management

Introduction
    Good afternoon Mr. Chairman and members of the committee. My name 
is Jan Reitsma. I am the Director of the Rhode Island Department of 
Environmental Management. I appreciate the opportunity to speak to you 
today regarding Rhode Island's perspectives on, and support of, Senate 
bill S. 2700 on Brownfields.
    I would like to commend Senator Chafee and the other committee 
members for crafting a Brownfields bill that has bi-partisan 
sponsorship and addresses many of the concerns we have had with the 
Superfund program. I am also pleased to see that the tremendous effort 
invested in cleaning up this country's contaminated sites by the late 
Senator John Chafee is being continued by this subcommittee and its 
chairman, Senator Lincoln Chafee. Rhode Islanders are proud to see our 
Senator continuing to lead the effort to improve the Superfund and 
Brownfields programs.
    Summary Rhode Island strongly supports Senate bill S. 2700 as a 
much needed and significant step forward toward improving the Superfund 
program, and particularly as a measure that would give us the 
additional backup, tools and flexibility to carry out our Brownfields 
program at the state and local levels. The proposed statutory changes 
would address the most frequently encountered obstacle to closing a 
Brownfields deal, lack of finality, even when the State has negotiated 
a comprehensive agreement and is willing to provide liability relief. 
The funding aspects of the bill are also of great interest to us, 
including the funding for actual cleanup work in addition to existing 
programs that focus onsite investigation and inventories, and funding 
that will help develop capacity at the municipal level to deal with the 
complexities of Brownfields redevelopment. At least as important is the 
new funding for projects that restore Brownfields to a public use, such 
as a waterfront park, and that, unlike commercial redevelopment 
projects, do not have the revenue stream to pay off loans. Together, 
these provisions will greatly enhance the State's ability to expand on 
its efforts to date and to realize the full potential of Brownfields 
redevelopment as we seek to revitalize our urbanized communities, 
improve and preserve our quality of life, and promote sustainable 
economic growth statewide. Finally, the bill strikes a reasonable 
balance between giving the States more flexibility and more of a lead 
role on the one hand, and requiring accountability from the States on 
the other.

Background: The Rhode Island Perspective on Brownfields
    Brownfields present a tremendous challenge in Rhode Island. Prior 
to 1991, Rhode Island had relied exclusively on the Superfund program 
and our RCRA hazardous waste management program to address sites 
contaminated with chemicals and petroleum. Unfortunately, we were 
discovering sites at a rate faster than those programs could address 
them. After evaluating the pace of discovery of new sites and the 
backlog of sites that existed at that time, we decided to follow the 
lead of several other States and establish our own state program. 
Through a collaborative stakeholder effort, Rhode Island promulgated 
its site remediation regulations in 1993 and the pace of cleanup 
throughout the state quickly accelerated. Those regulations lay out a 
process for notification, investigation, and remediation of 
contaminated properties. It is a flexible process designed to be 
adapted to the many types of contaminated sites that we have 
encountered. While these new regulations and the alternative regulatory 
framework that they provide to responsible parties clearly increased 
the amount of cleanup in the State, we believe that it is the 
continuing threat of listing in the Superfund program, coupled with our 
own enforcement actions, that provide the impetus for cooperation.
    In 1995, Governor Lincoln Almond proposed the Industrial Property 
Remediation and Reuse Act, or the Rhode Island Brownfields bill, to 
build on the early successes of our State program and provide more 
tools to facilitate the cleanup of contaminated sites and support their 
return to beneficial use in the community. This bill was passed into 
law with overwhelming support by the legislature and provides DEM with 
the ability to enter into Settlement Agreements, which include 
Covenants Not to Sue, with performing parties. While the law provides 
specific relief from liability to bona fide perspective purchasers and 
secured creditors, it also allows other performing parties, including 
cooperative responsible parties, to enter into Settlement Agreements. 
These new tools prompted the cleanup and redevelopment of 48 sites, 
restoring 532 acres of contaminated property and creating or retaining 
1010 jobs and $76.9 million dollars in property and income tax 
annually. The key aspect of this program improvement was the certainty 
and finality that the law and the Settlement Agreements provided to 
performing parties.
    Further program improvements came in 1997 with the amendment of the 
site remediation regulations to include a series of cleanup standards 
proportionate to the future use of properties. These amendments added 
three options for a performing party to use to determine the end goal 
of their cleanup. The first option, or tier, involves a series of 
tables for performing parties to use to look up the appropriate cleanup 
goals corresponding to the groundwater classification and future use of 
the site. The second tier provides an accepted model where performing 
parties could input unique, site specific information to come up with a 
site-specific goal. Finally, the third tier preserved the traditional 
risk assessment option. The selection of the method is left to the 
performing party.
    The end result of these efforts is our existing program, which 
provides us with all the regulatory tools needed to respond to proposed 
projects, compel the investigation and remediation of sites, and 
support redevelopment efforts involving Brownfields. These regulations, 
however, strictly address the Department's reaction to issues presented 
to us through either notification of contamination or other proposed 
projects.
    The need to support economic redevelopment in Rhode Island's urban, 
and historically industrial, communities and initiate cleanup 
activities in these areas prompted Rhode Island's effort to seek a 
Brownfields Demonstration Pilot grant from EPA in 1996. The pilot was 
focused on a proactive approach, undertaken with many municipal and 
economic development partners, to identify Brownfields sites, assess 
their condition, estimate the costs of cleanup, and support the 
marketing of the sites for reuse. The project was an ecosystem based 
approach to identifying vacant or underutilized sites along the 
Blackstone and Woonasquatucket Rivers. Rhode Island was awarded a two 
hundred thousand dollar grant in 1997, which the State matched with an 
additional two hundred and ten thousand dollars. To date 54 baseline 
site assessments and 8 Remedial Evaluation Reports (which include cost 
estimates for cleanup) have been completed at Brownfields sites in the 
pilot area. Also, and perhaps more importantly, a healthy dialog and 
productive working relationship has been established between the 
economic development agencies, the Department of Environmental 
Management and the municipalities.
    In 1998, our proactive Brownfields efforts were supplemented by the 
designation of Providence as a Brownfields Showcase Community. This 
designation provided a higher level of involvement by EPA and several 
other Federal agencies, most notably Housing and Urban Development, in 
supporting the reuse of contaminated sites in Providence.
    Recent efforts under the Brownfields Pilot and Showcase Community 
projects have primarily been focused on supporting the investigation 
and cleanup of properties along the proposed route of the 
Woonasquatucket River Greenway and bike path. The investigation and 
remedial design activities have largely been completed but securing 
funding for the remediation has proved to be a major problem. The 
funding problem mainly is due to the fact that the properties of 
concern, the former Lincoln Lace and Braid and the former Riverside 
Mills properties, are designated for use as open space, bike path 
areas, and other recreational facilities, and do not have a future 
income stream to support a loan to fund remediation costs. The current 
lack of funding support for projects of this type, i.e. restoration to 
a natural resource or public use function rather than commercial 
redevelopment, has slowed progress on this very important project.
    We have leveraged our success and relationships developed under the 
pilot and Showcase Community projects to approach other municipalities 
and support their Brownfields redevelopment efforts across the State. 
In addition, DEM and the Rhode Island Economic Development Corporation 
were recently awarded a $1,000,000 grant to establish a statewide 
revolving loan program to assist in the funding of remediation costs.
    The evolution of our State program is in many ways similar to the 
process other States have followed. Each State has adjusted its 
approach somewhat to meet the needs and desires of its constituencies 
and to strive for the most efficient and effective models based on its 
particular circumstances. This has led to many innovative approaches 
supporting the cleanup of thousands of sites of all shapes and sizes 
nationally.
Rhode Island's Support of Senate Bill S. 2700
    Senate Bill S. 2700 provides a strong Federal parallel to the 
Brownfields statutes and programs adopted in Rhode Island and other 
States. While administrative reforms to Superfund have provided much 
improvement and relief in our efforts to bring these sites back to 
beneficial reuse, those efforts have been limited by the confines of 
the existing CERCLA statute. S. 2700 incorporates many of the concepts 
espoused in Superfund administrative reforms directly into the statute 
and expands the boundaries of CERCLA to address some of the obstacles 
to cleanup and redevelopment that are created by the existing law.
    Funding is addressed in S. 2700. Cooperative agreements for site 
investigations, characterization, and inventory are specifically 
outlined in the bill and revolving loan funds are established and 
funded. In addition to reaffirming these existing programs in the 
statute, S. 2700 includes provisions for financial assistance in 
remediation of Brownfields. One of the most frequent barriers cited 
when negotiating Brownfields project agreements is the lack of funding 
assistance for the actual cleanup work.
    We also support and applaud the provisions of S. 2700 that provide 
funding to develop the capacity for local government agencies to 
evaluate, clean up and redevelop Brownfields properties. Our 
experiences, as well as the experiences of States across the country, 
show that the most effective projects include active participation and 
support from the local government in partnership with State, Federal 
and private partners. This investment in developing more program 
expertise at the municipal level is money well spent.
    A key provision of S. 2700 establishes grants for properties where 
the projected future use is for the public benefit, and there is not an 
anticipated future income stream to repay a loan. This provision 
recognizes the full potential of brownfields to contribute to the 
revitalization of our urban areas. These areas have typically suffered 
loss of jobs and tax revenue, but also loss of environmental quality. 
Brownfields offer not only an opportunity for economic revitalization, 
but also for environmental improvements, from parks and trails to 
wetlands restoration. Both types of improvements are critical to 
improving the quality of life in our urbanized communities. In Rhode 
Island, the Almond Administration has consistently made this a top 
priority. The State has invested heavily in urban parks, greenways and 
bike paths and our watershed protection efforts focus as much on our 
urban watersheds as the more pristine, rural areas of the state. And of 
course, we now know that improving the quality of life in our cities is 
an absolutely necessary ingredient of any effort to control sprawl, 
limit unplanned and uncontrolled development in our suburban and rural 
communities, and develop more sustainable growth patterns.
    Although the $150 million allocated for these new purposes is small 
in comparison to the magnitude of the challenges we face nationally, we 
support this investment as a tremendous step forward. It will help the 
States integrate Brownfield properties more fully in our efforts to 
revitalize our urban economies, improve the quality of life both in our 
urban, suburban and rural communities, and promote Smart Growth 
statewide.
    S. 2700 provides relief to innocent parties, including the owners 
of contiguous properties, bona fide prospective purchasers, and down 
gradient receptors. Rhode Island has historically provided these 
parties with relief from liability through statutory protection or 
enforcement discretion provided that they cooperate with ongoing 
investigations and provide access. We have seen areas in our cities and 
towns become virtual dead zones because they are in close proximity to 
contaminated sites. The fear of liability spilling over from one 
property to another has pushed people to look elsewhere when 
considering expansion or relocation of their businesses or activities. 
We believe the proposed statutory changes incorporate fairness and 
reasonableness into the liability structure of the program and will 
facilitate economic activity around contaminated sites. Furthermore, 
the windfall lien provisions will protect the taxpayer's investment in 
Brownfields properties and will eliminate the potential of owners of 
contaminated sites profiting inappropriately from government efforts to 
support redevelopment through assessment or cleanup.
    Perhaps the most significant and potentially beneficial aspects of 
S. 2700 are the provisions included in Title III on the State Role. We 
support the provisions in Title III that prevent a Federal enforcement 
action that would be duplicative of the State's oversight role. While 
we recognize that the Superfund program has evolved away from the 
duplication of effort and heavy-handed Federal supervision sometimes 
seen in the past, developers and other parties interested in reusing 
Brownfields sites continue to cite the potential double jeopardy issues 
as a cause for concern. Administrative reforms, including comfort 
letters and interagency memoranda of agreement for voluntary cleanups, 
reflect the more cooperative approach that EPA and many States have 
managed to develop and that we in New England are now more used to as 
we seek to address together the still challenging universe of 
contaminated sites in our region. However, these administrative fixes 
are not always sufficient to satisfy all interested parties. We believe 
the changes proposed in S. 2700 will provide definitive answers to 
those concerns and as such will encourage more participation in our 
redevelopment efforts.
    Finally, from our perspective the bill proposes reasonable 
standards for a State program. Some States may disagree and seek even 
greater autonomy but we believe the requirements make sense from an 
accountability point of view. We are concerned that future regulations 
not expand on these requirements so as to establish a burdensome 
paperwork process that would defeat the very purpose of this 
legislation. The eligibility criteria must remain simple, 
straightforward and relatively easy to meet, and we hope this objective 
will be clearly articulated in the remaining deliberations.
    Summary and Closing In summary, Rhode Island supports Senate bill 
S. 2700 on Brownfields as a strong step toward improving Superfund and 
supporting the reuse and redevelopment of Brownfields nationwide and in 
particular in our Ocean State. As we all know, the key issue under 
Superfund, State cleanup programs, Brownfields programs and voluntary 
cleanup programs has been to develop more tools and more flexibility to 
allow us to more efficiently facilitate the cleanup of many types of 
contaminated properties. Flexibility will be especially critical as we 
respond to new challenges, such as the sites that we have begun to 
identify as a result of new initiatives, in particular initiatives that 
pursue watershed protection, urban environmental improvements, Smart 
Growth, and Total Maximum Daily Load limits for our water bodies that 
are still not meeting their water quality standards.
    We believe S. 2700 adds much needed new provisions for flexibility 
and efficiency to the CERCLA statute. We strongly support, and need, 
the liability relief and finality provisions at the Federal level so 
that we can offer more certainty in our negotiations at the state 
level. We believe that requirements for state program eligibility, as 
written in this bill, are a reasonable way to ensure accountability and 
thereby balance the finality and flexibility of state level 
decisionmaking. We very much need the proposed funding to States and 
local governments to continue to develop program capabilities as well 
as continue to directly evaluate, clean up and redevelop Brownfields 
properties. This bill will strengthen participation in and coordination 
of Brownfields redevelopment all government levels.
    Once again, I would like to commend Senator Chafee and the other 
committee members for crafting a Brownfields bill that has bi-partisan 
sponsorship and addresses many of the concerns we have had with the 
Superfund program. Thank you again for the opportunity to testify, from 
the Rhode Island perspective, on this most important legislation. .
                               __________
STATEMENT OF VERNICE MILLER-TRAVIS, EXECUTIVE DIRECTOR, PARTNERSHIP FOR 
                 SUSTAINABLE BROWNFIELDS REDEVELOPMENT

Introduction
    Good afternoon, My name is Vernice Miller-Travis, and I currently 
serve as the Executive Director of the Partnership for Sustainable 
Brownfields Redevelopment, based in Baltimore, Maryland. I also serve 
as a member of the National Environmental Justice Advisory Council 
(NEJAC), where I chair the Waste and Facility Siting subcommittee. 
Through my participation in the NEJAC I have worked closely over a 
period of several years with EPA's Office of Solid Waste and Emergency 
Response in the development of it's National Brownfields Action Agenda. 
In my previous appearances before this sub-committee I represented the 
Natural Resources Defense Council and the environmental justice 
community. Today I am pleased to add my voice to the chorus of those 
that support this legislation. I would also like to take this 
opportunity to introduce Ms. Donele Wilkens, Founding Director of 
Detroiters Working for Environmental Justice. Ms. Wilkens is one of the 
leading environmental justice advocates in the state of Michigan, and 
serves on the Detroit Brownfields Redevelopment Authority. She is 
submitting her own comments about this legislation for your 
consideration representing the perspective of community residents at or 
near urban Brownfields sites. Today I am pleased to be able to speak 
affirmatively about S. 2700 and it's provisions, as opposed to speaking 
against the legislation which has been my posture in my previous 
appearances before this body. However, I do have a few areas of concern 
about some of the provisions contained within this legislation which I 
will share with you this afternoon.

General Comments
    My general review of the legislation in consultation with members 
of the Board of the Partnership for Sustainable Brownfields 
Redevelopment, as well as consultations with several other Brownfields 
stakeholders is that S. 2700 is a well crafted, useful, creative 
approach to Brownfields redevelopment. That being said I want to raise 
the following general concerns about this legislation.
    The bill does not address the question of the presence of lead and/
or asbestos removal from buildings on Brownfields sites (buildings that 
themselves will either be refurbished or demolished). The bill does not 
address the remediation of abandoned gas stations as an eligible 
recipient activity for Federal Brownfields grant moneys. My biggest 
area of concern is the blanket delegation of enforcement authority for 
Brownfields redevelopment to State Voluntary Clean-up Programs. The 
legislation assumes that all states have the resources to implement a 
vigorous VCP program that can assume the enforcement responsibilities 
that EPA has heretofore held. For a variety of reasons this assumption 
is not accurate. All states are not equal in terms of the resources 
available to them to implement and maintain strong VCP's. Some states 
as a matter of political philosophy are opposed to vigorous enforcement 
actions that they believe will diminish the interest by private 
developers in purchasing and redeveloping Brownfields sites within 
their states. In these states local communities, especially low income 
and communities of color, are facing an up hill battle when trying to 
get state and local agencies to balance economic development 
considerations with the need for environmental and public health 
considerations. To address this particular concern I suggest that the 
legislation include language that states would have to demonstrate to 
EPA the existence, and effectiveness of a state Voluntary Clean-up 
Program before the state could receive delegated enforcement authority 
for a Brownfields program. Through this process the state would need to 
certify that they indeed have an established program of corrective 
action to clean-up and redevelop Brownfields sites. The state would 
also need to demonstrative that their corrective action program has 
been and can be implemented consistently across the state in all 
communities regardless of race, ethnicity or economic status. Title II 
of the Bill--Brownfields Liability Clarifications--is perhaps the most 
creative and forthright legislative attempt to address innocent third 
party and prospective purchasers in the chain of liability, while 
maintaining and preserving the principle of strict, joint and several 
liability. The proposed amount of the appropriation of Federal moneys 
to accompany this bill is a welcome increase in proposed Federal 
Brownfields dollars. As is the definition of eligible entities who can 
access these dollars (see specific comments) and the expanded 
definition of what is an eligible recipient activity or use. The 
section of the bill entitled (C) Mechanisms and resources to provide 
meaningful opportunities for public participation, and (D) Mechanisms 
for approval of a clean up plan, are especially appreciated as 
delineated sections of this legislation. Last, the language included in 
Sec. 128. Brownfields Revitalization Funding, sub section (3) 
CONSIDERATIONS--(A) ``the extent to which a grant will facilitate the 
creation of, preservation of, or addition to a park, is a welcome 
addition to the legislative thinking about what constitutes a 
beneficial reuse of a Brownfields site? It also affirms the perspective 
that a beneficial reuse can be something other than a commercial or 
industrial reuse of a Brownfields site. Additionally sub section (B) 
the extent to which a grant will meet the needs of a community is the 
first legislative attempt to codify the needs of local communities as a 
paramount consideration in Brownfields redevelopment considerations.

Specific Comments
            Title I.
    Sec. 128. BROWNFIELDS REVITALIZATION FUNDING. ``DEFINITION OF 
ELIGIBLE ENTITY. The term ``eligible entity'' should include community 
development corporations and non profit organizations.
    <bullet>  In the same section the sub-section entitled (3) RANKING 
CRITERIA, (B) The potential to stimulate economic development The 
definition of economic development should specifically delineate 
enhanced economic opportunity for community residents and area small 
businesses. Currently economic development is being defined as a 
remediated site that is being reused. The reuse does not always create 
new or enhanced economic opportunity for area residents and existing 
small businesses.
    <bullet>  Letter (I) of this section--The extent to which the grant 
provides for involvement of the local community in the process of 
making decisions We suggest that here you insert the following 
recommendation: with respect to establishing a process for the 
involvement of local communities in the process of Brownfields 
decisionmaking a recipient can utilize the ASTM E 1984-98 Standard 
Guide for the Sustainable Restoration of Brownfields Properties. This 
is a multi-stakeholder guidance which I and several members of the 
Partnership for Sustainable Brownfields Redevelopment helped to draft.
    <bullet>  Section 203. INNOCENT LANDOWNERS, sub section (iii) 
CRITERIA (II) should read as follows: Interviews with past and present 
owners, operators, and occupants of the facility, and past and present 
residents or commercial businesses at or near the site in question, for 
the purposes of gathering information regarding
    <bullet>  Section 129. STATE RESPONSE PROGRAMS, sub section (1) 
ENFORCEMENT, sub section (C) PUBLIC RECORD should read as follows: The 
public record shall identify whether or not the site, on completion of 
the response action, will be suitable for unrestricted use and, if not, 
shall identify the institutional controls relied on in the remedy and 
how the institutional control will be enforced and monitored over time.
Conclusion
    I believe that this bill goes a long way toward advancing the cause 
of Brownfields clean-up and redevelopment. I want to caution the 
drafters of this bill to recognize that all your efforts to craft a 
comprehensive and inclusive bill will be for naught, if state and local 
government entities do not take the opportunities afforded in this bill 
to work with local communities in meaningful and measurable ways toward 
the goal of Brownfields redevelopment and community revitalization.
    The environmental justice perspective on Brownfields redevelopment 
is that these sites must be viewed as a component of a broader economic 
and community revitalization strategy. A strategy that seeks to rebuild 
and revive these long dormant communities into healthy, safe and 
economically viable areas. This is what is meant by the term 
``sustainable Brownfields redevelopment.''
    Back home in our respective communities, we are witnessing 
Brownfields programs and projects that promote economic opportunities 
for entities other than the long suffering residents and small business 
owners in our nations most economically and environmentally deprived 
communities, where the bulk of the Brownfields sites are located. We 
are also witnessing successful Brownfields projects that have 
mushroomed into wholesale gentrification of our communities, for 
example: Jersey City, New Jersey, Downtown Detroit, the 125th Street 
commercial corridor in Harlem, New York, and many other examples across 
the country. We believe that real economic development is that which 
enhances the quality of life of community residents and improves 
economic opportunities for community businesses.
    We believe that the issue of sustainable Brownfields redevelopment 
is crucial to pursuing a different path toward community redevelopment 
and revitalization in this new century. Sound and sustainable 
Brownfields redevelopment is one of the critical issues of our time, 
and this bill takes a significant step in the right legislative 
direction.
    It is clear to me that the crafting of this bill was achieved 
through major bipartisan give-and-take and consensus building. Please 
know that your staff efforts and Congressional leadership are very much 
appreciated, and we look forward to your continued support of 
Brownfields redevelopment and community revitalization.
    Thank you for the opportunity to share my thoughts with you on the 
``Brownfields Revitalization and Environmental Restoration Act of 
2000.''
                               __________

      STATEMENT OF WILLIAM MCELROY, AMERICAN INSURANCE ASSOCIATION

    Mr. Chairman and members of the subcommittee: This testimony is 
submitted on behalf of the American Insurance Association (``AIA''). 
The AIA is the principal trade association for property and casualty 
insurance companies, representing more than 370 major insurance 
companies which provide all lines of property and casualty insurance 
and write more than one-third of all direct commercial property and 
casualty insurance in the United States.
    We are delighted to have this opportunity to comment on S. 2700, 
the Brownfields Revitalization and Environmental Restoration Act of 
2000. We believe the bill constitutes a small, but positive step toward 
cleaning up hazardous waste sites. We are especially happy to observe 
that the bill does this through a mechanism other than litigation. 
Finally, we are pleased to note the bill is the product of a bipartisan 
consensus of the leadership of the Senate Environment Committee and we 
congratulate the sponsors of this bill for this achievement.
    Mr. Chairman, we believe S. 2700 will help facilitate the cleanup 
and redevelopment of hazardous waste sites throughout the country. 
Brownfields redevelopment facilitated, encouraged, and stimulated by 
this bill is undeniably good environmental policy and it is also good 
business. In fact, insurance related to the redevelopment of old 
industrial sites and even Federal facilities is a small, but growing 
area of business for the insurance industry. Thus we are seeing a 
welcome conjunction between the interests of cities and towns in need 
of revitalization and the interests of businesses seeking new markets.
    The brownfields problem this bill helps address is being faced by 
cities throughout the country. The contaminated properties we call 
``brownfields'' are typically abandoned industrial or commercial 
properties that are no longer owned by the parties who were responsible 
for the contamination. Usually these properties have been obtained by 
local governments through foreclosure on mortgages, taxes, or other 
assessments that were in arrears. In other cases the sites are owned by 
trusts or estates that are financially unable to clean up the 
contamination. Neither the local governments nor the estates are in a 
position to indemnify potential purchasers against environmental 
liability for known or unknown contamination. Some cities now own 
hundreds of such properties and simply cannot afford to hire 
consultants to characterize the environmental condition of these sites 
and certainly cannot afford to pay for cleaning up the contamination. 
If cities offer some limited form of indemnity for purchasers or 
developers of these properties, they risk a downgrading of their 
financial ratings due to the requirement to report contingent 
liabilities to auditors and rating organizations. For most cities this 
would be disastrous.
    The predicament for many cities is that they don't have the 
resources to address the brownfields problem, but they can't develop 
the resources without addressing the brownfields problem. This would 
seem to provide an appropriate opportunity for Federal legislation, 
such as S. 2700.
    Title I authorizes grants to state and local governments, and to 
various redevelopment agencies for site assessment and remediation. 
While we will leave detailed comments on this provision to the mayors 
who are testifying today, we would point out that ``grants'' as opposed 
to ``loans'' are exactly what is needed. That's because as one might 
expect, the cities and towns most in need of brownfields redevelopment 
activity are often those that can least afford it, by definition. A 
loan simply digs the financial hole they are already in a little 
deeper. Therefore, grants are often the only practical way for these 
cities to begin to address the problem.
    Title II makes modest amendments to the Comprehensive Environmental 
Response, Compensation, and Liability Act of 1980 (``CERCLA'' or 
commonly referred to as ``Superfund'') by exempting from liability 
innocent contiguous property owners; innocent prospective purchasers; 
and innocent landowners. All of these exemptions would apply only under 
very limited circumstances, detailed with great specificity in the 
bill. It is uncertain whether many parties would be affected by the 
contiguous property and innocent landowner provisions; no doubt the few 
who may be affected will certainly be enthusiastic supporters of these 
exemptions. It should be noted, however, that there are a number of 
risk management techniques, including insurance, currently available to 
prospective purchasers. Some of the types of insurance available to 
prospective purchasers and others involved in these transactions are 
mentioned below. Title III sets standards for Federal intervention 
during or after a state-supervised cleanup. We realize this issue has 
been a source of significant controversy. In any event, we also 
recognize that as a matter of public policy no cleanup is ever going to 
be entirely ``final'' in the sense that there will never be an 
opportunity for future government intervention. This is one of the 
areas where a combination of risk management techniques, including 
insurance, can facilitate the redevelopment of contaminated properties 
notwithstanding this lack of ``finality.'' Insurance is currently 
available to pay the costs of additional cleanup of specified 
contaminants after the initial cleanups have been completed and 
approved by state or Federal regulators. In some cases, insurance 
policies may also be written to respond to additional cleanup that is 
required due to changes in the environmental laws.
    Insurance is now emerging as one of the most useful tools for 
managing environmental liability risk in the redevelopment of 
contaminated properties. In addition to insurance for the re-opening of 
completed cleanups as discussed above, insurance is now being written 
to cover: cost overruns for specific remedial action plans; the 
discovery and remediation of new contaminants; third party bodily 
injury, property damage, and cleanup claims arising from newly 
discovered contaminants; and, in some cases, all parties to a 
brownfields redevelopment transaction, including the sellers and 
buyers, the banks making the loans for the purchase and for the cleanup 
itself, and the engineers and contractors involved in the cleanup.
    Mr. Chairman, as you and the members of this committee well know, 
AIA, along with most of the private sector, has long sought 
comprehensive reform of the Superfund program. For the insurance 
industry, Superfund has long been a quagmire of litigation into which 
we were unwillingly dragged. Frankly, we are frustrated that after all 
these years substantial reform still eludes us. But we understand the 
political obstacles to reform which have contributed to make the larger 
debate so intractable.
    S. 2700 will provide necessary relief to many cities struggling 
with the problem of abandoned, contaminated properties. Significantly, 
we note that no attempt has been made to reinstate the Superfund taxes 
as part of this bill and no attempt has been made to add other special 
liability exemptions for favored parties. We heartily endorse this 
approach. In addition, whereas we think this bill is beneficial in its 
current form, we will very strongly oppose any attempt to reinstate the 
expired Superfund corporate taxes without the enactment of 
comprehensive liability and remedy selection reform. Likewise, we will 
oppose any special liability exemptions that may be added for 
sympathetic groups of responsible parties if the costs of those 
exemptions are shifted to the remaining parties.
    Mr. Chairman, once again we congratulate you on this consensus bill 
and we sincerely hope this is the first in a long line of consensus 
legislation to come.
                               __________

 STATEMENT OF ALAN FRONT, SENIOR VICE PRESIDENT, THE TRUST FOR PUBLIC 
                                  LAND

    Mr. Chairman, my name is Alan Front, and I am pleased to appear 
before the subcommittee today to share the perspective of The Trust for 
Public Land, a national nonprofit land conservation organization, 
regarding the vision for community revitalization embodied in S. 2700. 
I welcome this opportunity to discuss my organization's enthusiastic 
support for this legislation.
    First, I want to express my gratitude to Chairman Chafee and 
Senator Lautenberg for your leadership in introducing a legislative 
initiative that holds so much promise for our nation's neighborhoods. 
The subcommittee's expeditious consideration of the bill and the many 
cosponsors working with you to advance it affirm the central, 
transformative importance of brownfields restoration and reuse. In our 
own work with local partners across America, The Trust for Public Land 
has witnessed first-hand how reclamation of derelict properties can 
bring new life not only to the landscape, but to the economies and the 
spirit of communities as well.

TPL, Green Spaces, and Brownfields
    Since 1972, TPL has worked to protect land for people, helping 
government agencies, property owners, and local interests to establish 
and enhance public spaces for public use and enjoyment. By arranging 
conservation real estate transactions, TPL has facilitated the 
protection of well over a million acres of park, forest, agricultural, 
and other resource lands. Through these ``win-win'' partnerships, many 
communities have woven an appropriate open-space thread into their 
overall land-use fabric. In the process, they have recognized the 
interdependence of the built environment and the natural one, and have 
reaped the benefits of balanced growth. . At the same time, land-use 
trends on a national scale are raising new concerns about whether this 
tenuous balance can be maintained. We have seen the rate of open space 
conversion more than double in the past decade; according to recent 
Department of Agriculture statistics, farmland and other open space is 
yielding to development at an average rate of nearly 400 acres every 
hour. And from the wilderness to the inner city, even as these open 
spaces are being lost, Americans are more and more urgently expressing 
their need for more parks, greenways, wildlife areas, community 
gardens, and scenic protection.
    From TPL's earliest days, it has been clear that brownfields even 
before the word was coined have been a necessary, integral component of 
any full-fledged strategy to meet the needs of both development and 
conservation. Left unremediated, these idled properties pose a serious, 
often-insurmountable threat to neighborhood stability, economic 
development, public health and safety, and quality of life. Conversely, 
brownfields reclamation through new commercial or residential 
development, or through creation of new community parks or playgrounds, 
or through a combination of these land uses can spark a true 
neighborhood renaissance.
    In some of TPL's first projects, in the inner cities of Newark and 
Oakland, we watched just this sort of redemption as community groups 
turned trash-strewn, contaminated lots into gardens and pocket parks. 
Since then, we have participated in a wide range of brownfields-to-
parks conversions. In Atlanta, new visitor facilities at the Martin 
Luther King National Historic Site have replaced an old Scripto Pen 
factory. On Seattle's Elliot Bay, a contaminated former Unocal site is 
being cleaned up and transformed into a waterfront sculpture garden. 
And along the Los Angeles River that desolate concrete channel best 
known as a film location for ``Terminator'' movies new parks and 
recreation areas are rising up on previously contaminated factory 
sites.
    There is ample historical precedent for these powerful symbols of 
neighborhood renewal. In Kansas City, for example, abandoned industrial 
sites were the foundation for the city's entire park system. Chicago's 
long-admired lakefront park system sits on the site of the city's 
former tannery district; New York's Bryant Park and Boston's Charles 
River greenway have similarly challenged pedigrees. And in each case, 
the greening of abandoned lands brought new private investment, new 
economic opportunity, and new urban vitality.
    Moreover, just as newspaper recycling saves trees, brownfields 
recycling saves undeveloped landscapes. The simple fact is that there 
is not enough ``new'' land in our urban areas and rapidly growing 
suburbs to provide for the mix of open space and development upon which 
healthy communities depend. Each of the estimated 450,000 to 600,000 
brownfields in America is a missed opportunity for a public recreation 
facility, a housing complex, or an office park that likely will be 
built elsewhere. Consequently, unrestored brownfields serve only to 
ramp up the competing land-use pressures on the ever-shrinking 
inventory of pristine lands.
    Plainly put, brownfields recovery can green neighborhoods, resolve 
development-versus-preservation conflicts, promote economic expansion, 
and inhibit sprawl. For all of these reasons, TPL encourages the 
subcommittee to add some much-needed arrows to the brownfields-
conversion quiver by considering and reporting S. 2700. The work of 
local governments and other community partners with whom we work would 
be enhanced exponentially by the resources provided in Title I of the 
bill. We particularly appreciate the significant increase in local 
capacity that the bill's various funding provisions would afford.

S. 2700 New Tools to Renew Lands
    The structure and mechanisms of Federal funding under the 
Brownfields Revitalization and Environmental Restoration Act will 
provide a substantial and much-needed Federal commitment to urgent 
community needs. In tandem with the considerable nonFederal partnership 
support that this legislation will leverage, S. 2700 will spur the 
clean-up and reuse of a broad spectrum of currently idle properties. In 
turn, these restoration success stories will promote precisely the kind 
of economic, environmental, and quality-of-life balance discussed 
above.
    The Trust for Public Land is especially encouraged by the inclusion 
of the following specifics in S. 2700.
    <bullet>  TPL believes that the criteria for entities eligible to 
receive grants and loans are appropriately inclusive. This section 
permits an appropriate diversity of conservation and/or redevelopment 
partners including Indian tribes and state-created conservancies to 
participate.
    <bullet>  The bill's Site Characterization and Assessment Grants 
are similar to the successful model of EPA's assessment demonstration 
pilot program, which already have been an important component in 
brownfields-to-parks conversions.
    <bullet>  Within the proposed revolving loan funds, we appreciate 
the bill's tailored seed-money approach regarding remediation funding, 
including the authorization of grants where recipients are unable to 
draw upon other funding sources. This provision will address concerns 
that underserved communities might not be able to benefit from this 
bill. It is precisely these communities that have some of the greatest 
needs for, and stand to reap the greatest benefits from, brownfields 
revitalization.
    <bullet>  Along similar lines, we strongly endorse the bill's 
encouragement of grants for the ``creation of, preservation of, or 
addition to a park, a greenway, undeveloped property, recreational 
property `` This provision puts brownfields-to-parks conversions, which 
do not typically generate an ongoing revenue stream from which a loan 
might be repaid, on an even footing with economic redevelopment. As a 
result, it will ensure that parkland conversions will improve life in 
brownfields-affected neighborhoods as well as securing outlying lands 
against the tide of sprawl.
    <bullet>  The bill as introduced also contains a number of 
important flexibilities for EPA to adaptively apply resources to areas 
where the need is greatest. Among these are provisions allowing for 
increased assessment grants for more critical and difficult projects; 
additional support for communities best able to leverage nonFederal 
commitments; assistance for communities to develop site remediation 
programs; and the potential waiver of the program's matching 
requirement for communities truly unable to meet this obligation.
    <bullet>  We also support the bill's grant ranking criteria. Among 
these are further encouragements for environmental justice projects, 
economic stimulus, brownfields-to-parks conversion, synergy with 
nonFederal funds, and use of existing infrastructure. This latter 
preference is a particularly useful inducement for smart growth.
    <bullet>  Last and certainly not least, the meaningful annual 
funding levels for these programs will allow the Federal Government to 
become a true partner to state and local entities working to reclaim 
their landscapes.
    With all these benefits, the Brownfields Revitalization and 
Environmental Restoration Act of 2000 will enable urgently needed, 
place-specific Federal participation in efforts across the country to 
foster recreation, open space opportunities, and redevelopment on 
appropriate sites, and by extension will help to conserve undeveloped 
resource lands that might otherwise be built upon.
    Mr. Chairman, please accept the thanks of the Trust for Public Land 
for your commitment to and craftsmanship of S. 2700 and we look forward 
to working with you, Chairman Smith, Senators Lautenberg and Baucus, 
and the bill's other cosponsors toward enactment.
                               __________

STATEMENT OF KEVIN FITZPATRICK, CHAIRMAN, ENVIRONMENTAL POLICY ADVISORY 
                 COMMITTEE, THE REAL ESTATE ROUNDTABLE

    The Real Estate Roundtable is the vehicle through which the 
nation's leading public and privately held real estate owners, 
investors, lenders and managers work, together with the leadership of 
major national real estate trade organizations, on Federal policy 
issues. It actively coordinates policy positions with major national 
real estate organizations and communicates with lawmakers, regulators 
and the public about real estate. Priority is given to the 
identification, analysis and coordination of advocacy on national 
policies relating to capital and credit availability, environmental 
matters, taxation and technology-related issues.

Introduction
    Thank you Chairman Chafee, Senator Lautenberg. My name is Kevin 
Fitzpatrick. I am president and CEO of AIG Global Real Estate 
Investment Corp., part of the American International Group, the 
insurance and financial services companies. Our company has national 
and international experience with the full range of real estate 
ownership and financing issues including the specific challenges 
associated with ``brownfields'' redevelopment. We operate in all 50 
states, 150 counties and jurisdictions, and throughout the world.
    I am speaking today on behalf of The Real Estate Roundtable. The 
Roundtable represents the nation's leading private- and publicly held 
real estate owners, investors and managers. Its members have long 
advocated Federal policy reforms that will facilitate, rather than 
undermine, the efforts of local communities across the country to 
advance ``smart growth.'' ``The Brownfields Revitalization And 
Environmental Restoration Act Of 2000'' or S. 2700 includes just these 
kinds of policy reforms.

S. 2700 Provides a Roadmap for Brownfields Redevelopment
    We have done a good job in this country of encouraging recycling in 
the area of consumer goods, such as plastics, bottles, and paper. In 
our view, it is time that we made the same national commitment to 
recycling our nation's blighted urban and rural brownfields properties. 
S. 2700 provides the real estate industry, and its partners in state 
and local governments, with a detailed roadmap for doing just that.
    Among those blighted properties, the ones that often suffer the 
greatest market stigma are those with actual, or even simply perceived, 
environmental issues. We know them when we see them. They include the 
hulking warehouses, dormant smokestacks and abandoned shells of 
industrial plants that still line some of the nation's inland waterways 
and railroads. They stand as monuments to the ``old economy.'' With the 
help of the economic and regulatory incentives included in S. 2700, 
many of these properties can be recycled to serve the commercial, 
residential, retail, and recreation needs of the information age and 
its so-called ``new'' economy.

Status Quo Remains Highly Unfriendly to Brownfields Redevelopment
    Today, companies that acquire certain environmentally distressed 
real estate also end up acquiring the market stigma and the 
uncertainties associated with Superfund cleanup liability. In the past 
our members have testified before this subcommittee, and others in 
Congress, that innocent parties that act responsibly in the 
redevelopment of these sites should not be punished by Federal laws 
(Copies of that testimony are attached.) They should not be asked to 
take the risk that a $500,000 investment will become a $10 million 
dollar liability. The real estate industry is fully prepared to take 
the business risks associated with any prudent real estate development 
project. For the most part, however, the development community is not 
prepared to take the kind of litigation and liability risks presented 
by many brownfields projects.
    In short, when the Congress passed the Superfund law in 1980 its 
purpose was to cleanup contaminated properties, whether industrial, 
commercial or residential. Nobody contemplated the possibility that the 
law would actually serve as a barrier to cleanups, cleanups the real 
estate companies might otherwise be willing to pursue at their own 
expense. S. 2700 will go far to correct this unintended consequence of 
Federal policymaking.

S. 2700 Will Encourage the Highly Constructive Role of State Voluntary 
        Cleanup Programs in Facilitating Brownfields Redevelopment
    A growing number of states have taken highly constructive steps to 
encourage brownfields redevelopment. They have initiated voluntary 
cleanup programs (VCPs) that provide participants with authoritative 
``comfort'' regarding the limits of their residual risk of cleanup 
liability under state law. Building on principles included in 
legislation offered by Senator Lautenberg almost 10 years ago, S. 2700 
will strengthen these programs in a number of ways, both legally and 
financially.
    In our view, the greatest asset this legislation will offer state 
VCPs is the ability to extend the zone of ``comfort'' many now offer 
brownfields redevelopers so that it responds to liability concerns 
under the Federal Superfund law. S. 2700 includes a provision that 
will, in most cases, reassure participants in state voluntary cleanup 
programs that their state-approved cleanup is not likely to be 
``second-guessed'' by Federal officials. This so-called ``finality'' 
assurance is crucial not only to potential buyers and sellers of 
brownfields properties but to their financial partners as well. We are 
very aware of the leadership shown by the authors of this bill in 
finding the highly elusive middle ground on this critical finality 
issue. Their creativity in doing so will prove highly valuable to 
communities across this country.

S. 2700 Will Codify Groundbreaking EPA Administrative Reforms
    Finally, S. 2700 builds on the valuable work of the Environmental 
Protection Agency in developing administrative reforms in the area of 
``prospective purchaser'' and ``adjacent landowner'' protection. These 
reforms reflect progressive and practical thinking on the part of EPA 
regarding how to mitigate some of the highly adverse, if unintended, 
consequences of the Superfund law on brownfields redevelopment. While 
extremely valuable in specific circumstances, the ``guidance'' 
documents issued by EPA to clarify prospective purchaser and adjacent 
landowner liability remain simply that policy ``guidance.'' By their 
own terms these guidance documents do not carry the full force and 
effect of law and the Agency remains free to take action ``at 
variance'' with them at any time. The prospective purchaser and 
adjacent landowner provisions in S. 2700 will provide self-implementing 
and legally enforceable protections for would-be brownfields 
redevelopers.
Conclusion
    I hope I have made it clear that with so many other investment 
options available at any given time, the prospect of open-ended 
liability under Superfund remains a real deal-killer. If, however, the 
Superfund law were changed along the specific lines of S. 2700 so that 
the potential liability of would-be purchasers and redevelopers of 
brownfields became better defined, the real estate community would be 
far more ready, willing and able to invest private capital into these 
sorts of projects.
    We look forward to working with the members of this subcommittee 
and the growing number of bipartisan cosponsors of S. 2700 to encourage 
its enactment into law during this Congress. Thank you.
                               __________
       STATEMENT OF JOHN GATES MEMBER, NATIONAL REALTY COMMITTEE
             BEFORE HOUSE COMMITTEE ON ENERGY AND COMMERCE

Introduction
    Thank you Chairman Boehlert. My name is John Gates. I am President 
and CEO of Center Point Properties, a Chicago-based real estate 
investment trust, or REIT, publicly traded on the New York Stock 
Exchange. I am speaking today on behalf of the National Realty 
Committee. \1\ As Real Estate's Roundtable in Washington, NRC 
represents America's leading real estate companies. Many NRC member 
companies, like CenterPoint, have real-world experience rehabilitating 
brownfields sites. With a portfolio of more than 18 million square 
feet, our company is metropolitan Chicago's largest owner of industrial 
property. Our properties house factories, business parks and 
warehouses. The Chicago region has more than 1.2 billion square feet of 
these types of properties, making it the nation's largest and most 
diverse industrial property market. To put that number in perspective, 
it's more industrial property than you'll find in all of New York, all 
of Los Angeles, or in six Atlantas. In fact, it's more industrial space 
than in the entire United Kingdom.
---------------------------------------------------------------------------
    \1\ On March 4, 1997, NRC testified before the Senate Subcommittee 
on Superfund, Waste Control and Risk Assessment, of the Senate 
Committee on Environment and Public Works. The testimony and followup 
questions and answers (attached hereto for the record) addressed EPA 
administrative reforms, specific Senate legislation and the 
``finality'' issue.
---------------------------------------------------------------------------

Brownfields Reform Makes Good Economic Policy
    At the outset let me say that reforming the Superfund law to 
encourage brownfields redevelopment makes a lot of sense in terms of 
national economic policy. The private market stands ready to bring a 
lot more of these brownfields properties into productive, tax-
generating uses. In the process, we can create jobs and put people back 
to work. Right now the Superfund law is wasting unemployment 
entitlement dollars by actually contributing to that unemployment. In 
addition, the law is squandering scarce EPA resources by focusing them 
on only moderately contaminated properties--well within the capability 
of the private sector (in cooperation with state and local officials) 
to remedy.
    Your prompt action to correct the skewed incentives in existing law 
will be, in Washington vernacular, ``revenue positive.'' In industrial 
real estate we have a rule of thumb that 600 square feet of occupied 
manufacturing space produces one job. By that formula, simple 
clarification of the law could create up to 50,000 new jobs in the 
Chicago area alone. At a time when national policy is focusing on how 
to help citizens move from welfare rolls to real and productive jobs, 
brownfields redevelopment can be part of the answer.

Case Studies: Why Investors Avoid Brownfields
    In my hometown a drive through its most blighted areas offers 
evidence of the incredible social dysfunction that can occur when, as 
in Chicago's case, approximately 1,500 acres of brownfields are 
imprisoned by more than a decade of failed government policy. It is, 
therefore, very unfortunate that there are substantial disincentives to 
investment in brownfields sites, investments that could help pay for 
cleanups by injecting new capital into rehabilitation projects. 
Clearly, part of the problem here is that the Comprehensive 
Environmental Response, Compensation and Liability Act simply sets up 
too many obstacles to investment.
    Don't get me wrong. In many cases the inner city--where so many of 
these brownfields properties are located--is precisely where many 
businesses want to be. The economics are often right. The resources are 
there--it's where the work force is and it's where the critical 
infrastructure, including transportation, is already in place. It's 
where we find the vast majority of our national inventory of older 
industrial buildings, ripe for redevelopment. Unfortunately, it's also 
the province of an intimidating and confusing Federal cleanup law. The 
unintended consequence of that law has been to perpetuate a legacy of 
urban decay by inhibiting the very kinds of investment our company and 
many others are in business to make.
    Let me share with you, from my own personal experience, the way the 
current law can undermine efforts to reinvest in our cities. In the 
early 1990's one of our predecessor organizations purchased a fully 
leased and occupied 250,000 square-foot manufacturing and warehouse 
facility on Chicago's west side. The facility employed more than 300 
people, mostly neighborhood residents. After our purchase, we 
discovered sub-surface contamination. In responding to the discovery, 
we obtained environmental assessments from highly reputable 
environmental consultants. The experts advised us that there was no 
public health risk to workers or neighbors because the contamination 
had reached a depth of only four feet and was, therefore, not deep 
enough to affect any water resources. Of course, that assumes there 
were any water supplies present in this industrial district, and there 
were none. We were further advised that much of the problem was 
addressed by the thick cement floor of the building, which effectively 
capped the contaminated soil.
    However, because the property fell within the jurisdiction of the 
Superfund law, no one could establish a clean up standard tied to the 
property's real-life use as a manufacturing and warehouse facility. 
Unfortunately, an impasse was reached with the regulators and, as a 
result,
    the building was vacated and 300 inner city manufacturing jobs were 
eliminated. The building was ultimately demolished, huge quantities of 
soil removed to a suburban landfill and, most discouraging of all, the 
land still sits vacant. I'm convinced this entire scenario could have 
been prevented. Our expert told us the cleanup should have been, at 
most, a $100,000 problem--one we could have resolved ourselves. 
Instead, it became a $20 million dollar problem, one that ultimately 
ended up in litigation and, in the process, eliminated the livelihood 
of 300 inner city workers. It's my sense that most of the jobs moved to 
the suburbs and the local community continued its decline. I know 
stories like this are continuing to play out in many communities today, 
and let me assure you, when you face the threat of legal liability for 
cleanup costs of this magnitude, it makes so-called ``greenfields'' 
projects a lot more attractive.
    Here's another example. Last year, I volunteered a week of my time, 
as part of a team of real estate professionals, researching how best to 
revitalize the Collinwood community of Cleveland, Ohio, a community 
stigmatized by large numbers of brownfields properties. The project was 
sponsored by the Urban Land Institute, a nonprofit education and 
research institute focused on land use and development. We were all 
there to provide an unbiased assessment of how to revitalize this 5.6 
square mile area. Its prospects should have been great. After all, it 
had a tremendous transportation system, an abundant work force and was 
near thriving business communities. The long and short of it is that, 
like the empty lot in Chicago that used to be a factory, investors are 
scared off by the risk of open-ended cleanup costs. That is the sad 
reality.

Changes to the Superfund Law Are Needed
    I hope I have made it clear that, with so many other investment 
options available at any given time, the prospect of open-ended 
liability is a real deal-killer. If, however, the CERCLA law were 
changed so that the potential liability of would-be purchasers became 
clear, the real estate community would be far more ready, willing and 
able to invest private capital in brownfields redevelopment. In 
addition, to make many of these transactions work, we will need a lot 
more certainty that cleanup decisions are final determinations under 
state and Federal law.
    This certainty issue points up the fact that it takes a willing 
seller and a willing buyer to complete a brownfields transaction. To 
spur brownfields development it's appropriate, in the right situations, 
to give owners who are willing to clean up properties themselves under 
a state voluntary cleanup program some relief from Federal liability. 
Right now there are significant economic incentives for these current 
owners not to sell or redevelop these properties. In fact, as long as 
these properties have not been designated for investigation and cleanup 
by EPA or the states, many of these property owners consider themselves 
better off simply putting a fence around their property and waiting for 
market conditions to improve or Federal law to change. As long as the 
owner leaves the property alone, the owner is not required to test or 
otherwise investigate the contamination level at the site. Waiting 
defers any environmental cleanup costs and allows time for the level of 
contamination to lessen through natural processes, such as dilution. 
State voluntary cleanup programs have begun to address and, in many 
cases, overcome this situation. However, if such an owner is not 
protected from further Federal or state enforcement actions, the cost 
and time to complete redevelopment projects cannot be accurately 
estimated. Without the ability to estimate these factors many property 
owners will choose to wait it out. Those kinds of decisions keep the 
property off the market--benefiting no one.
    We also need to see more progress in resolving a problem sometimes 
referred to as ``how clean is clean.'' It is critical to obtain more 
standardization in this area as well as appropriate tiering of cleanup 
levels so they track anticipated land uses. An industrial project is 
not going to be a children's playground any time soon. To require 
cleanups that assume such a land use will only result in the permanent 
idling of many properties.

Conclusion
    I believe companies like ours can do as much, or more, to solve 
brownfields problems as any other witness you'll hear from today. But 
make no mistake about it: as public companies, our first obligation is 
to our shareholders, and we cannot--and will not--expose their 
investments to open-ended liability under the Superfund law. Without 
question, the contamination of thousands of acres of investment grade 
property is one of our national tragedies. However, in large measure 
that is yesterday's news. Today's news, equally tragic in my view, is 
the unintended side effects of the Superfund law, which continue to 
perpetuate an equally disturbing legacy of urban decay. This half of 
the problem will clearly extend far into the 21st century unless 
Congress acts now.
    I understand many of the changes NRC supports are included in a 
number of pending House and Senate bills. In addition, they were 
included in legislation in the last Congress designed by the chairman 
and others. We have been supportive of those efforts and are here today 
to encourage the 105th Congress to take up, once again, the important 
task of reforming the Superfund law so that more cleanups can be 
achieved more quickly and the law is no longer an impediment to 
brownfields redevelopment.
                                 ______
                                 
  STATEMENT OF J. PETER SCHERER, VICE CHAIRMAN, ENVIRONMENTAL POLICY 
             ADVISORY COMMITTEE, NATIONAL REALTY COMMITTEE
             BEFORE SUPERFUND SUBCOMMITTEE, 105TH CONGRESS

Introduction
    Thank you Chairman Smith. My name is Peter Scherer and I am a 
Senior Vice President with The Taubman Company. The Taubman Company is 
a national real estate company specializing in the development and 
management of regional shopping centers. I am speaking today on behalf 
of the National Realty Committee. NRC represents the nation's leading 
real estate owners, builders, managers, lenders and advisors. As such, 
the organization has focused extensively on the national policy issues 
associated with the redevelopment of our nation's brownfields 
properties.
    Several weeks ago I was here in Washington and had the pleasure of 
meeting with Jeff Merrifield of the chairman's staff and Scott 
Slesinger from Senator Lautenberg's office. I left that meeting 
encouraged and energized, and I am delighted to have the opportunity to 
share with you today some thoughts on what the real estate industry 
believes it will take to get our country's nonproductive, modestly 
contaminated and, therefore, hopelessly idle, real estate back into the 
nation's economic mainstream.
    Two very positive legislative proposals, S. 8 and S.18, include 
provisions which reflect a sophisticated understanding of how current 
law can best be modified to encourage brownfields cleanup and 
redevelopment. NRC is on record as supporting both these bills.
    We are also on record as supporting the efforts made by EPA to 
foster brownfields development, and while these efforts are 
encouraging, much more can and should be done to achieve the economic 
and environmental objectives of S. 8 and S. 18.
    As the sponsors of these bills are aware and as EPA Administrator 
Browner has stated, changes to the Superfund law are required to 
achieve significant long-term impact in this area. Let me specifically 
mention some initiatives taken by EPA that the real estate industry 
applauds. But, at the risk of striking a more sober note, let me also 
explain why these well intentioned initiatives will ultimately fall 
short of their intended objectives.
    During the past few years, the Administration has become more 
creative in its efforts to locate potential buyers for properties 
stigmatized by the specter of CERCLA liability. The Administration 
seems to have been motivated, in part at least, by the need to market 
its own growing inventory of brownfields, including those situated on 
former military installations. Certainly, in the course of pursuing 
that objective the government has gotten a taste of its own medicine. 
And, like the private sector, it seems to have learned that absent some 
new approaches to finding willing buyers for these kinds of sites, the 
properties will remain idle and, therefore, unproductive for the 
foreseeable future.
    First of all, EPA has removed thousands of sites from the so-called 
CERCLIS list and has issued guidance encouraging regulators to consider 
realistic future land uses in determining the extent of cleanup 
activities. If it's known that a particular property will become a 
parking structure, then why force cleanup to the level required for a 
day-care facility? This is a common sense approach which the business 
community finds workable.
    Second, EPA has issued guidance identifying the circumstances under 
which it will enter into prospective purchaser agreements. These 
agreements are intended to assure potential investors in contaminated 
sites that the properties in which they are investing will not become 
targets of a future enforcement action. Developers are willing to take 
risks, but there are simply too many other opportunities available for 
any successful developer to bet his balance sheet on a project with 
unlimited environmental downside. Not to mention the difficulty in 
obtaining financing!
    Thirdly, on the issue of migrating ground water contamination, 
where land otherwise suitable for development is situated above an 
aquifer contaminated by external sources, EPA has issued guidance 
seeking to reassure owners or purchasers that they will not be targeted 
for cleanup actions. Again, an example of action on the Agency's part 
which reflects the fact that new money will not go into a project where 
the only certainty is uncertainty.
    In each of these situations, EPA has set a course which my industry 
believes is absolutely in sync with the national policy objective of 
returning our country's brownfields to productive use. So why isn't 
this enough? Let me tell you--specifically--in 50 words or less. At the 
end of each guidance document is a disclaimer which reads as follows:
    This policy does not constitute rulemaking by the Agency and is not 
intended and cannot be relied on to create a right or benefit, 
substantive or procedural, enforceable at law or in equity, by any 
person. Furthermore the Agency may take action at variance with this 
Policy.
    As well intentioned as these policies may be, they fall short of 
providing the kind of certainty necessary to attract private-sector 
capital.
    I come here today not asking for the creation of economic or 
financial incentives to encourage brownfields development. Rather, in 
this case, our industry is looking only for the removal of existing 
disincentives. We are looking for you to level out the playing field 
and, in doing so, create the kind of certainty that permits prudent 
investment and intelligent risk assumption. So what is it that we think 
is needed?
    The recently adopted lender protections and the proposed protection 
for the new purchasers are certainly positive steps, but many 
brownfields will remain undeveloped unless Congress provides protection 
from Federal and state enforcement actions for property owners who 
successfully participate in voluntary cleanup programs.
    While recently enacted legislation protects financial institutions 
from undue liability under Superfund, lenders still have concerns about 
the value of the underlying collateral and the creditworthiness of 
their borrowers. If a property that undergoes a voluntary cleanup may 
be the subject of further Federal and state enforcement action, a 
lender may consider the property inadequate for the loan. Moreover, if 
the borrower may be compelled to pay for the further cleanup after 
having completed a voluntary cleanup, even if the borrower is prepared 
to assume the risk, a lender may consider the borrower uncreditworthy 
and deny the loan. Thus, without some degree of predictability and 
certainty--and without the promise of finality after a successful 
voluntary cleanup--many well situated and otherwise prime brownfields 
will remain idle for want of willing and able developers and lenders.
    A number of these concerns would be addressed in a meaningful way 
by a provision contained in both S. 8 and S. 18. This provision creates 
a new and eminently workable exemption for those who acquire property 
in need of some environmental remediation. The so-called ``prospective 
purchaser'' provision would look beyond the existing ``innocent 
landowner'' defense to address the troublesome (and not uncommon) 
scenario in which contamination is discovered during the course of 
preacquisition due diligence.
    To utilize this kind of defense, purchasers would be required to 
undertake prescribed levels of environmental due diligence, including a 
site assessment in accordance with a standardized protocol. They would 
also need to take circumscribed steps to limit exposure to known 
contamination; and cooperate with those responsible for the cleanup. In 
return for meeting CERCLA's due diligence requirements, prospective 
purchasers could move forward and acquire property without fear of 
incurring the associated CERCLA liability.
    Here's what happens in the real world: environmental due diligence 
becomes a feeding frenzy for everyone involved, particularly lawyers 
and consultants. And given the laws today, it's difficult to blame 
them. When do you stop peeling the onion? When will that consultant or 
lawyer provide, in writing, that all information is known or that there 
is no risk associated with proceeding? More samples, more tests, more 
lab results are recommended. More time, more money, more risk and 
uncertainty until ultimately the project dies. You hardly ever have all 
the information.
    Successful business decisions are made when all necessary 
information is known. My point is that the various amendments to CERCLA 
I have referred to today would (to a significant degree) replace the 
uncertainty that kills many deals with the type of stability,
    predictability and certainty needed for brownfields initiatives to 
succeed. Notably, EPA has endorsed this reform and there is no doubt 
its enactment would make a difference in the real world.
    At the end of the day, our industry is asking for nothing more than 
the kind of certainty and predictability that other Federal agencies 
are authorized to provide. We ask you to empower EPA to provide the 
equivalent of the ``no further action'' letters which can be obtained 
from the Securities and Exchange Commission, or the private letter 
rulings that the Internal Revenue Service regularly provides to parties 
concerned with the consequences of contemplated activities. Certainty 
inspires confidence, and with it, action.
    These legislative proposals--S. 8 and S. 18--form a good base upon 
which to work in this session of Congress to develop bipartisan reform 
of CERCLA. In addition, EPA's continued focus on administrative reforms 
should be encouraged. Agency reforms combined with legislative reform 
hold the promise of reducing the stigma associated with these 
properties by limiting the specter of Federal liability.
    The National Realty Committee remains committed to the enactment of 
policies that encourage reinvestment. Working with the other local and 
national stakeholders represented here today, our members will continue 
to help identify, analyze and advocate policies that will achieve the 
goals I believe we all share.
    Thank you.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
